<html>
<title> - THE GLOBAL POSTURE REVIEW OF UNITED STATES MILITARY FORCES STATIONED OVERSEAS</title>
<body><pre>[Senate Hearing 108-854]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-854
 
 THE GLOBAL POSTURE REVIEW OF UNITED STATES MILITARY FORCES STATIONED 
                                OVERSEAS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2004

                               __________

         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
23-080 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 The Global Posture Review of United States Military Forces Stationed 
                                Overseas

                           september 23, 2004

                                                                   Page

Rumsfeld, Hon. Donald H., U.S. Secretary of Defense..............     6
Myers, Gen. Richard B., USAF, Chairman, Joint Chiefs of Staff....    16
Jones, Gen. James L., Jr., USMC, Commander, United States 
  European Command and Supreme Allied Commander, Europe..........    18
Fargo, Adm. Thomas B., USN, Commander, United States Pacific 
  Command........................................................    26
LaPorte, Gen. Leon J., USA, Commander, United Nations Command, 
  Republic of Korea/United States Combined Forces Command, 
  Commander, United States Forces Korea..........................    28

                                 (iii)


 THE GLOBAL POSTURE REVIEW OF UNITED STATES MILITARY FORCES STATIONED 
                                OVERSEAS

                              ----------                              


                      THURSDAY, SEPTEMBER 23, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:32 p.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Allard, Sessions, Collins, Ensign, Talent, Chambliss, Graham, 
Dole, Cornyn, Levin, Kennedy, Lieberman, Reed, Bill Nelson, E. 
Benjamin Nelson, Dayton, Bayh, Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
Benjamin L. Rubin, receptionist.
    Majority staff members present: Brian R. Green, 
professional staff member; Ambrose R. Hock, professional staff 
member; Gregory T. Kiley, professional staff member; Thomas L. 
MacKenzie, professional staff member; Elaine A. McCusker, 
professional staff member; Lucian L. Niemeyer, professional 
staff member; Paula J. Philbin, professional staff member; and 
Lynn F. Rusten, professional staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Evelyn N. Farkas, professional staff member; 
Richard W. Fieldhouse, professional staff member; Maren R. 
Leed, professional staff member; Michael J. McCord, 
professional staff member; and William G.P. Monahan, minority 
counsel.
    Staff assistants present: Alison E. Brill, Andrew W. 
Florell, Catherine E. Sendak, and Nicholas W. West.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; Darren Dick, assistant to Senator Roberts; 
Jayson Roehl, assistant to Senator Allard; Arch Galloway II, 
assistant to Senator Sessions; D'Arcy Grisier, assistant to 
Senator Ensign; Lindsey R. Neas, assistant to Senator Talent; 
Clyde A. Taylor IV, assistant to Senator Chambliss; Meredith 
Moseley, assistant to Senator Graham; Christine O. Hill, 
assistant to Senator Dole; Sharon L. Waxman and Mieke Y. 
Eoyang, assistants to Senator Kennedy; Elizabeth King, 
assistant to Senator Reed; William K. Sutey, assistant to 
Senator Bill Nelson; Eric Pierce, assistant to Senator E. 
Benjamin Nelson; Rashid Hallaway, assistant to Senator Bayh; 
Andrew Shapiro, assistant to Senator Clinton; and Terri Glaze, 
assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets today to receive the 
testimony on the Global Posture Review of the United States 
military forces stationed overseas. We welcome our witnesses: 
Secretary of Defense Donald Rumsfeld; General Richard Myers, 
Chairman of the Joint Chiefs; General James Jones, Commander of 
the U.S. European Command and Supreme Allied Commander, Europe; 
Admiral Thomas Fargo, Commander, U.S. Pacific Command; and 
General Leon LaPorte, Commander of United States Forces, Korea. 
We welcome each of you.
    We are here this afternoon to receive this testimony on the 
proposed changes to the U.S. global defense posture. One month 
ago, August 16 I believe it was, President Bush announced a new 
plan for deploying America's Armed Forces, and he stated: 
``Over the coming decade, we will deploy a more agile and more 
flexible force, which means that more of our troops will be 
stationed and deployed from here at home.''
    This plan is the result of the administration's 
comprehensive 3-year review of America's global force posture--
the numbers, types, locations, and capabilities of U.S. forces 
around the world. Extensive consultations with our allies and 
our friends have taken place, and it was an integral and 
important part of this plan.
    The plan represents the most comprehensive restructuring of 
U.S. military forces stationed overseas, currently numbering 
approximately over 200,000, since the end of the Korean War. It 
represents the final chapter, in my judgment, of this Nation's 
efforts to transform our global defense posture away from the 
outdated Cold War strategies and missions to better meet 
today's and tomorrow's very complex, very different threats to 
our Nation's security.
    Mr. Secretary, I am pleased that you agreed to appear 
before this committee on this important matter before Congress 
adjourns. I along with Senator Levin and Senator McCain and 
others thought it important that you appear here to discuss 
this significant change in the U.S. overseas military basing 
prior to this Congress adjourning.
    Let me take a moment also, Mr. Secretary, to thank you and 
General Myers--and you were joined yesterday by Ambassador 
Negroponte, Deputy Secretary of State Armitage, and General 
Abizaid in briefing I think I estimated at one time, almost 
three-quarters of the Senate were in room S-407 of the Capitol. 
It was a very far-ranging, in-depth discussion of those serious 
issues confronting us today. There was ample opportunity for 
questions and exchange of views from many of those Senators who 
were present, and I think personally it was one of the better 
meetings that we have had in some time.
    Today we are returning again to this subject. I want to 
also pause for a moment to pay tribute to the Prime Minister of 
Iraq, Mr. Allawi. He is the head of the Interim Iraqi 
Government, and I was privileged to join some others here just 
moments ago to have a smaller meeting with him. He provided the 
world with a powerful, moving speech of optimism about a nation 
and a people yearning to be free.
    Prime Minister Allawi acknowledged the challenges ahead, 
but showed the determination of the Iraqi people to succeed. 
They will, as he said, need our further help and they want our 
help. They will, I hope, Mr. Secretary and others, they will 
have our help. I think our President has made that very clear.
    To those who feel things have not gone well in Iraq, Prime 
Minister Allawi had the following reassuring words, and I quote 
him: ``We are succeeding in Iraq and will take a giant step 
forward with free and fair elections in January.''
    The subject of this hearing, however, is the Global Posture 
Review. In the course of your delivery of testimony, I hope the 
witnesses will touch on at least some of these issues: How will 
the proposed changes to the U.S. global force posture 
strengthen--underline, ``strengthen''--our U.S. national 
security? What will be the impact of the proposed force 
structure changes on our ability to carry out contingency 
operations in a more efficient and expeditious manner wherever 
necessary on the globe? How will the proposed changes affect 
U.S. relations, commitments, and treaty obligations with our 
longstanding allies and our friends, and particularly some of 
the new nations that have long wanted to break the bonds of the 
Warsaw Pact and join the free world? Given that consultations 
with other nations was an important part of this plan, what is 
the status of the negotiations with our allies and friends 
under this program?
    Further, it is my understanding the changes recommended by 
the review will result in the closure of significant numbers of 
U.S. facilities overseas and the likely movement of 60,000 to 
70,000 military personnel, together with their many family 
members, from overseas locations to installations in the United 
States within the next decade.
    It is also my understanding that the review will in no way 
cause a delay or be grounds for a delay in the Base Realignment 
and Closure (BRAC) process. I personally feel very strongly 
that we have in place a law which sets forth a timetable and I 
believe it is imperative we stay on that timetable, and I hope, 
Mr. Secretary, you can provide in your testimony today the 
basis for us to continue on that timetable, because there are 
some challenges before this committee as we work through the 
final days of the conference with the other body and prepare a 
report for action in both bodies and a national defense 
authorization bill to be sent to the President prior to the 
adjournment of this Congress.
    Finally, this committee takes very seriously its solemn 
responsibility to provide for the wellbeing of the men and 
women of the U.S. Armed Forces. The President has stated that, 
as a result of this restructuring, ``Our service members will 
have more time on the home front, more predictable and fewer 
moves over their career, our military spouses will have fewer 
job changes, greater stability, more time for their children to 
spend with their families at home.'' It is a very powerful and 
reassuring statement to our men and women in the Armed Forces, 
and I hope you will provide us with the facts which underlie 
the integrity of that statement.
    We ask a lot of our men and women in uniform and their 
families, and if this plan leads to an increase in their 
``quality of life,'' there is a compelling reason for us to 
support the plan, in my personal view.
    Again, we welcome you and look forward to your testimony.
    I now seek the comments of my distinguished ranking member.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you very much, Mr. Chairman. I join 
you in welcoming our witnesses this afternoon to discuss the 
Department's global basing strategy, but also to discuss 
current operations in Iraq and Afghanistan. I understand that 
they have been informed that that would also be a subject that 
members will be asking them about.
    Secretary Rumsfeld, General Myers, General Jones, Admiral 
Fargo, General LaPorte, it is good to have all of you here 
today. As we meet today, hundreds of thousands of our men and 
women in uniform are serving superbly in dangerous and 
demanding conditions around the globe. Their courage is 
inspiring and we are immensely proud of their service.
    However, the situation in Iraq is far from encouraging and 
appears to be worsening. American soldiers and marines continue 
to die at the rate of one or two each day and sometimes more. 
Considerably more are suffering devastating wounds. Casualties 
among Iraqis are numbered in the scores on an almost daily 
basis. American and other contractors are being taken hostage 
and murdered in the most brutal fashion.
    The lack of security is having a profound effect on 
reconstruction and on the effort to establish a stable Iraqi 
government. In fact, the administration has requested that 
billions of dollars be shifted from reconstruction to security.
    The security situation is now such that there are a number 
of cities and towns in Iraq where the U.S. and coalition forces 
do not go. In the absence of a presence on the ground in places 
like Fallujah, which has been taken over by insurgents, the 
U.S. military has resorted to air power to strike safe houses 
and other places where intelligence indicates that the 
insurgents are located, but which reportedly then results in 
death and injuries to innocent Iraqi civilians as well. The 
result is an even greater lack of support for U.S. and 
coalition presence in Iraq and for the Interim Iraqi Government 
which supports and relies upon our presence. Moreover, 
assassinations, kidnappings, and beheadings are becoming more 
and more frequent.
    In that context, even Iraqis who would like to cooperate 
with us are deterred from doing so and we are then denied the 
intelligence that we need to fight the insurgency.
    It is difficult to discern a strategy that is being 
followed for Iraq. For instance, Marine General Jim Conway 
publicly criticized the orders that he received with respect to 
Fallujah after four U.S. security contractors were killed and 
their bodies mutilated. First, he was ordered to go in and 
clean out the insurgents, which went against the Marine Corps 
strategy of engagement with the civilian population. Then, 
after the Marines were halfway to securing the city and after 
the loss of many marines, orders were reversed, to withdraw 
from the city and turn over control of the city to a local 
security force, which quickly lost control.
    The chaos in Iraq puts scheduled Iraqi elections at risk. 
The United Nations (U.N.) Special Representative for Iraq 
reported to the Security Council on September 14 that, ``the 
vicious cycle of violence,'' as he put it, ``and the lack of 
security'' was undermining the world body's effort to assist in 
elections set for January.
    This is compounded by the fact that the administration has 
so far been unable to convince any country to provide the 
troops needed to protect the U.N. presence in Iraq. 
Consequently, a scant 4 months before nationwide elections are 
to be held, there are only 35 U.N. staff members in Iraq, far 
short of the 200 required to support the election.
    The U.S. Intelligence Community (IC) is worried by events 
in Iraq. The July 2004 National Intelligence Estimate (NIE) on 
Iraq reportedly sets out three possible scenarios for Iraq, 
including a worst case of developments that could lead to civil 
war and where in the best case security will remain tenuous.
    This pessimistic estimate would appear to bear out the 
assessment of former President George H.W. Bush and Brent 
Scowcroft in the 1998 book, ``A World Transformed,'' concerning 
the question of whether to march to Baghdad in the 1991 Gulf 
War. They wrote that, ``To occupy Iraq would instantly shatter 
our coalition, turning the whole Arab world against us. It 
would have taken us way beyond the imprimatur of international 
law bestowed by the resolution of the Security Council.'' They 
wrote further that doing so would commit our soldiers to 
``urban guerrilla war and plunge that part of the world into 
even greater instability and destroy the credibility we were 
working so hard to reestablish.''
    If we insist that things are going just fine or if we 
pretend, as the President incredibly enough put it yesterday, 
that we are dealing with just a ``handful of people who are 
willing to kill,'' we will be less willing to search for ways 
to change the negative dynamic which has been unleashed in Iraq 
and we will be less willing to look for ways to motivate Iraqi 
factions and leaders and Islamic countries to become more 
involved in and willing to take the risks necessary to build a 
democratic nation in Iraq.
    Surely, unless Iraqis want a democratic nation for 
themselves as much as we want it for them, unless they suppress 
the violent ones inside their own communities and the 
terrorists who want to prevent the election in January from 
happening, our presence would be more destabilizing than 
stabilizing.
    We also meet today to discuss the Department's proposal to 
reposition our forces with the goal of further enhancing our 
capabilities. When the President announced the outline of these 
changes a month ago, he stated that ``The new plan will help us 
fight and win these wars of the 21st century,'' and it will 
reduce the stress on our troops and our military families, and 
that the taxpayers will save money.
    These are laudable goals we all share and I certainly hope 
all these assertions prove true. But to date the Department has 
not shared the details that would allow us to tell whether they 
are. I look forward today to getting some of those details. The 
briefings we have gotten to date have explained what the 
Department intends to do, but not provided enough information 
about why, and have provided virtually no specific information 
about the impact on our military capabilities that would result 
from these moves.
    I also hope and expect that we will be informed today on 
the overarching military and national security strategies 
underlying this plan, on the costs to implement this plan, and 
on the implications for our military capability. For example, I 
hope the Department can articulate how these proposals would 
affect our ability to respond and carry out missions such as 
the current ones in Afghanistan and Iraq should the need arise 
in the future.
    I look forward to hearing our witnesses today describe how 
they believe that the relocation proposals will advance these 
common objectives.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin.
    You will recall that when we discussed some weeks ago the 
need for this hearing you were strongly urging we have this 
hearing on this global strategy, and we did have the 
opportunity--I realize you were otherwise engaged--yesterday to 
hear from the Secretary and the Chairman and many others 
extensively on the situation in Iraq.
    Secretary Rumsfeld.

STATEMENT OF HON. DONALD H. RUMSFELD, U.S. SECRETARY OF DEFENSE

    Secretary Rumsfeld. Thank you, Mr. Chairman and members of 
the committee. We appreciate this opportunity to discuss the 
work of some 3-plus years to transform the Department of 
Defense. I will abbreviate my remarks and ask that the full 
statement be put in the record.
    Chairman Warner. Without objection, the full statement of 
all witnesses will be placed in today's record.
    Secretary Rumsfeld. History is traced by major events. It 
is important to learn from them, as we all know. As we look 
back on the wars of the last few centuries, we can see some key 
moments, turning points, and the statesmen and legislative 
leaders who played roles in helping to make the world more 
secure and helping freedom spread. I am not certain that our 
work with this committee and Congress in carrying out the 
vision for transforming our military is one of those 
milestones, but it could prove to be so, and indeed it is 
important that that be the case.
    Today I will mention some of the elements of reform, even 
revolution if you will, that fit under the somewhat pedestrian 
term of ``transforming.'' General Jim Jones of the European 
Command, Admiral Tom Fargo of the Pacific Command, and General 
Leon LaPorte, Commander of U.S. Forces Korea, are here today 
along with the Chairman of the Joint Chiefs, Dick Myers, to 
discuss these proposals.
    Rearranging our global posture is only part of our 
considerably broader set of undertakings, essential to 
transforming our military into a more agile and more efficient 
force.
    It is said that Abraham Lincoln once equated reorganizing 
the Army with bailing out the Potomac River with a teaspoon. He 
was, I suppose, expressing the truth that change is not easy. 
Yet, throughout our history Americans have shown a talent for 
innovation and invention and the providence of finding the 
right leaders for the right times. General Ulysses S. Grant 
made skillful use of the rifle, the telegraph, and railroads to 
help win the Civil War. After World War I, visionaries like 
Billy Mitchell predicted the rise of air power as critical to 
future battles and Generals Patton and Eisenhower's awareness 
of the importance of the tank and armored warfare helped 
prepare for World War II. In Afghanistan our forces utilized a 
creative combination of cutting edge satellite technology and 
old-time cavalry charges to liberate a country with a minimal 
loss of life.
    America today remains the world's preeminent military power 
because our leaders have properly challenged assumptions and 
the status quo, invested in and made use of new technologies, 
and were willing to abandon old certainties and strategies when 
freedom's defense required it.
    The changes we propose to our defense strategies are not 
precipitous. They are part of a broad strategy that, as this 
committee knows, has been in the making and will be implemented 
over the next 6, 7, or 8 years. This administration has 
consulted extensively with our allies. We have sought the 
advice of Congress.
    But let me set out where we are at this point in the 
journey. We have increased the size of the U.S. Army and we are 
reorganizing it into more agile, lethal, deployable brigades 
with enough protection, fire power, and logistics assets to 
sustain themselves. We are retraining and restructuring the 
active and Reserve components to achieve a more appropriate 
distribution of skill sets, to improve the total force's 
responsiveness to crisis, and so that individual reservists and 
guardsmen will mobilize less often, for shorter periods of 
time, and with somewhat more predictability. Already, the 
Services have rebalanced some 10,000 military spaces both 
within and between the active and Reserve components, and we 
are projected to rebalance 20,000 more during 2004.
    We are increasing the jointness between the Services. We 
are improving communications and intelligence activities. We 
have significantly expanded the capabilities and missions of 
the Special Operations Forces. We have established new commands 
and restructured old ones. We are working to maintain a regular 
review of plans, challenging our own assumptions, and keeping 
the plans fresh and relevant, as they must be in a fast-
changing world.
    Today we have tens of thousands of uniformed people doing 
what are essentially non-military jobs. Yet we are calling up 
Reserves to help deal with the global war on terror. We are 
converting some of these jobs filled by the uniformed personnel 
to positions supported by Department of Defense (DOD) civilians 
or contractors. The Department has identified over 50,000 
positions to begin conversion and we plan to carry out this 
conversion at a rate of about 10,000 positions per year.
    So when we talk about changes to our country's global 
posture, it is important to look at these changes as part of 
the broader transforming of our way of doing things, and one 
cannot succeed without the other.
    If our goal is to arrange the Department and our forces so 
we are prepared for the challenges of the new century, the 
newer enemies, and the increasingly lethal weapons we face, it 
is clear that our existing arrangements are seriously obsolete. 
We are still situated in large part as if little has changed 
for the last 50 years, as if, for example, Germany is still 
bracing for a Soviet tank invasion across the northern German 
plain. In South Korea, our troops were virtually frozen in 
place from where they were when the Korean War ended in 1953.
    So we have developed a set of new concepts to govern the 
way we will align ourselves in the coming years and decades. A 
first notion is that our troops should be located in places 
where they are wanted, where they are welcomed, and where they 
are needed. In some cases, the presence and activities of our 
forces grate on local populations and have become an irritant 
for host governments. A good example is our massive 
headquarters in some of the most valuable downtown real estate 
in Seoul, Korea's capital city, long a sore point for many 
South Koreans.
    In the last few years we have built new relationships with 
countries that are central to the fight against extremists in 
places such as Afghanistan, Pakistan, Uzbekistan, to offer a 
few examples. We also have strong partnerships with the newly 
liberated nations of Eastern Europe. We believe it makes sense 
to try to work out arrangements with countries that are 
interested in the presence of the U.S. and which are in closer 
proximity to the regions of the world where our troops are more 
likely to be needed in the future.
    A second governing concept is that American troops should 
be located in environments that are hospitable to their 
movements. Because U.S. soldiers may be called to a variety of 
locations to engage extremists on short notice, we need to be 
able to deploy them to trouble spots quickly. They are for the 
most part unlikely to be fighting where they are stationed. 
They will have to move and they will have to be able to be 
moved.
    Yet, over time some host countries and/or their neighbors 
have imposed restrictions on the movement and use of our 
forces. So it makes sense to place a premium on developing more 
flexible legal and support arrangements with our allies and 
partners where we might choose to locate, to deploy, or to 
exercise our troops.
    Third, we need to be in places that allow our troops to be 
usable and flexible. As the President has noted, the 1991 Gulf 
War was a stunning victory, but it took 6 months of planning 
and transport to summon our fleets and divisions and position 
them for battle. In the future we cannot expect to have that 
kind of time.
    Because training and operational readiness are also 
essential elements of deterrence, U.S. forces operating abroad 
must have reasonably unrestricted access to ample training 
areas. This includes access across the spectrum of land, sea, 
and airspace. Host nations will need to guarantee unfettered 
access to training areas and airspace free of encroachment and 
unreasonable restrictions.
    Finally, we believe we should take advantage of advanced 
capabilities that allow us to do more with less. In this 
century, we are shifting away from a tendency to equate sheer 
numbers of things--tanks, troops, bombs, et cetera, with 
capability. We can, for example, attack multiple targets with 
one sortie rather than requiring multiple sorties to attack one 
target. The Navy's response time for surging combat ships has 
been shortened to the point that we will likely not need a 
full-time carrier strike group present in every critical 
region.
    As a result of these new ways of thinking, we have 
developed plans for a more flexible and effective force posture 
for the 21st century. For example, main operating bases in 
places like Germany, Italy, the U.K., Japan, and Korea will be 
consolidated but retained. In Asia, our ideas build upon our 
current ground, air, and naval access to overcome vast 
distances while bringing additional naval and air capabilities 
forward into the region.
    In Europe, we seek lighter and more deployable ground 
capabilities and strengthened Special Operations Forces, both 
positioned to deploy more rapidly to other regions as required.
    In the broader Middle East, we propose to maintain what we 
call ``warm facilities'' for rotational forces and contingency 
purposes, building on cooperation and access provided by host 
nations during Operation Enduring Freedom and Operation Iraqi 
Freedom. In Africa and the Western Hemisphere, we envision a 
diverse array of smaller cooperative security locations for 
contingency access. Of course, we welcome comments and 
suggestions as these negotiations with potential host countries 
proceed.
    One additional benefit to the proposed new arrangements is 
that they will significantly improve the lives of military 
families. Over the coming period of years, we plan to transfer 
home to American soil up to 70,000 troops and some 100,000 
family members and civilian employees. In addition, deployments 
of the future should be somewhat shorter, families should 
experience somewhat fewer permanent changes of station and thus 
less disruption in their lives.
    A word on the base realignment and closure, or BRAC, 
process. The global posture decision process and BRAC are 
tightly linked. Indeed, they depend on each other. They both 
will be critical instruments for stability in the lives of 
service members and their families and will help provide more 
predictability in assignments and rotations.
    The progress made to date on global posture enables DOD to 
provide specific input on overseas changes for BRAC 2005. That 
input will allow domestic implications of the Global Posture 
Review with forces and personnel either returning to or moving 
forward from U.S. territory to be accounted for as effectively 
as possible within the BRAC decisionmaking process.
    Finally, as was the case with previous BRAC rounds, the 
U.S. will retain enough domestic infrastructure to provide for 
difficult to reconstitute assets, to respond to surge needs, 
and to accommodate significant force reconstitution as may be 
necessary, including all forces based within or outside of the 
United States.
    Any initiative as complex as the proposed global posture 
realignment will stimulate questions, especially in an election 
year, I suppose. Some ask, for example, will reducing overall 
force levels in Korea reduce our ability to come to its 
defense. General LaPorte will comment on this in some detail, 
but in fact our partnership with the Republic of Korea is a 
good example of what we hope to accomplish. The Defense 
Department has been investing in and making arrangements for 
improved capabilities, such as long-range precision weaponry, 
to be available on the Korean Peninsula. As a result, as we are 
increasingly able to transfer some responsibilities to Korean 
forces, we will be able to reduce U.S. troop levels. The 
combined capabilities of the U.S. and the Republic of Korea 
will make our defense of Korea stronger than before.
    As in Western Europe, the situation in Korea is notably 
different from what it was 50 years ago, back when South Korea 
was an impoverished and virtually destroyed country. Today 
South Korea is an economic powerhouse with a modern military 
force of 600,000 troops and a gross domestic product (GDP) per 
capita 18 times that of North Korea. Our proposed global force 
posture initiative will make it clear that the U.S. and the 
Republic of Korea are working together as partners, each 
bringing important capabilities to our shared challenges.
    Another question is, does realigning our posture send a 
dangerous message to North Korea about our commitment to the 
South? The answer is an emphatic no. We know that sheer numbers 
of people are no longer appropriate measures of commitment or 
of capability. As I have noted, our capabilities in defending 
the Republic of Korea are increasing and they are not 
decreasing.
    One of the members of your committee, Senator Lieberman, 
said it well in an interview a few weeks ago. He noted that: 
``Kim Jong Il is not under any misconceptions. We have enormous 
power at sea and in the air and on the ground in the Asian 
Pacific region and on the Korean Peninsula, and if he tries to 
take aggressive action against South Koreans he will pay a very 
heavy price.'' The Senator is correct.
    Should we have given earlier warning to our allies? In 
fact, we have met with officials in foreign governments on a 
variety of levels on all of these concepts. Secretary Powell 
and I have spoken many times with our counterparts abroad, as 
have our staffs. In fact, when we issued the Quadrennial 
Defense Review, as required by Congress, in September 2001, one 
of the chapters was on reinventing, reorienting the U.S. 
military global posture. So this is nothing new.
    Our foreign counterparts have appreciated that their input 
was sought before key decisions were made. They understood our 
global long-term view and the strategic rationale for 
conducting the review at this time. Indeed, we have available 
many very positive quotes from various foreign countries that 
are affected by this.
    Another question is, if we will be sending more troops home 
from theaters in Europe will it weaken our ability to surge 
quickly to trouble spots? Actually, the opposite is probably 
closer to the truth. Presence is important, but forward 
stationing does not mean optimal stationing. Forces in Europe, 
for example, are only closer to the Middle East if they can 
deploy rapidly to the south, not if they have to go north 
first. If those same forces have to deploy to the north through 
the Baltic or North Sea, then to the Atlantic, then to the 
Mediterranean, then we can move roughly as fast from the United 
States.
    We also know that our forces will need to move to the 
fight, wherever it is. That means that command structures and 
capabilities must be expeditionary. If there are legal or 
political restrictions on the movement of our troops where they 
are stationed, the difficulties in using them quickly multiply.
    This week I had the privilege of participating in one of 
our regular meetings in Washington with the combatant 
commanders. They are impressive. Three of them are here. 
Yesterday we spent 3 hours on the Hill with General Abizaid, as 
you pointed out, and Ambassador Negroponte giving every Member 
of the House and Senate an opportunity to talk about Iraq.
    The individuals are impressive. They follow in the 
footsteps of the visionary military leaders of the past. This 
plan was undertaken with the benefit of their military advice. 
One day future generations will look back at these combatant 
commanders and the military leadership of our country with 
gratitude for what they have accomplished in the last few years 
in helping to transform the Department of Defense and also in 
the struggle against global extremists. Our task is to see that 
one day historians and generations will look back at what is 
being done today and what is being accomplished and say that 
our actions, this committee and the Department together, also 
have helped to make the world more peaceful and our military 
more formidable and our freedom more secure.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Rumsfeld follows:]

             Prepared Statement by Hon. Donald H. Rumsfeld

    Mr. Chairman, members of the committee:
    We thank you for the opportunity to discuss our work of some 3\1/2\ 
years to transform the Department of Defense.
    History is traced by major events. It is important to learn from 
them. As we look back now on the wars of the last few centuries, we see 
the key moments, the turning points, and the statesmen and legislative 
leaders who played critical roles in helping to make our world more 
secure and allowing freedom to spread.
    I am not certain that our work, together with this committee and 
Congress, in carrying out the President's vision for transforming of 
our military is one of those milestones.
    But it could prove to be so.
    I hope it is. Indeed, it is important that that be the case.
    Today I will mention some of the elements of reform--even 
revolution--that fit under the somewhat pedestrian term of 
``transformation'' or ``transforming.'' We all can look back with some 
satisfaction on how much has been achieved, and look forward with 
encouragement, as we seek to do still more.
    We meet as the brave men and women in uniform are defending the 
American people against those who seek to terrorize and intimidate 
civilized societies and to attack our freedoms. The folks in uniform 
represent the best our country has to offer. They have not wavered in 
meeting the tough challenges we face.
    While I know the committee agrees that our responsibility is to 
ensure that they have the tools they need to fight this war, and a 
military structure that helps them win it, we need to do still more.
    Rearranging our global posture, the subject of today's hearing, is 
essential to our success. General Jim Jones, Admiral Thomas Fargo, and 
General Leon LaPorte are here today with Chairman of the Joint Chiefs 
of Staff, General Dick Myers, to discuss these important proposals.
    It is important to note that rearranging our global posture is only 
part of our considerably broader set of undertakings. What we are doing 
is changing mindsets and perspectives.
    Essential to this is transforming our military into a more agile, 
more efficient force that is ready and able to combat the asymmetric 
challenges of this new and uncertain time.
    This is a sizable undertaking. It is said that Abraham Lincoln once 
equated reorganizing the Army with ``bailing out the Potomac River with 
a teaspoon.'' He was expressing the truth that change is not easy.
    But history has long warned great nations of the perils of seeking 
to defend themselves by using the successful tactics and strategies of 
the last war. The French experienced this with the Maginot Line.
    Throughout our history, Americans have shown a talent for 
innovation and invention, and the providence of finding the right 
leaders for the times. General Ulysses S. Grant made skillful use of 
the rifle, the telegraph, and railroads to win the Civil War. At the 
turn of the 20th century, President Theodore Roosevelt recognized the 
potency of deterrence and used naval power to project American 
strength.
    After World War I, visionaries like Billy Mitchell predicted the 
rise of air power as critical to future battles. Patton and 
Eisenhower's awareness of the importance of the tank and armored 
warfare helped to prepare for World War II.
    In Afghanistan, our forces utilized a creative combination of 
cutting edge satellite technology and old-time cavalry charges to 
liberate that country with a minimal loss of life.
    America today remains the world's preeminent military power because 
our leaders have properly challenged assumptions and the status quo, 
invested in and made use of new technologies, and abandoned old 
certainties and strategies when freedom's defense required it. Ours are 
the military forces that have been on the cutting edge of new ideas. So 
we must be today.
    Members of the committee, we do not propose changes to our defense 
strategies lightly or precipitously. They are part of a broad strategy 
that, as this committee knows, has been years in the making. These 
proposals will take place over the next 6 to 8 years. There will be no 
grand announcement. This administration has consulted extensively with 
our allies--new and old--on a multitude of levels, every step of the 
way. We have sought the advice of Congress. We recognize that no one 
has a monopoly on wisdom.
    The course we have charted is not novel or sudden. Key points were 
designated by the President, before he was even elected.
    In a 1999 speech at the Citadel, then-Governor Bush warned of the 
rise of terrorism, the spread of missile technology, and the 
proliferation of weapons of mass destruction--a ``world of terror and 
missiles and madmen.''
    Calling for a ``new spirit of innovation,'' he outlined ambitious 
goals: ``to move beyond marginal improvements--to replace existing 
programs with new technologies and strategies. Our forces in the next 
century must be agile, lethal, readily deployable, and require a 
minimum of logistical support. We must be able to project our power 
over long distances, in days or weeks, rather than months.''
    Mr. Chairman, I realize these goals are not new to you or to this 
committee. We have been working on these changes together for a number 
of years.
    But let me set out where we are at this point of our journey:

        <bullet> We have increased the size of the U.S. Army and are 
        reorganizing it into more agile, lethal, and deployable 
        brigades--light enough to move quickly on short notice, but 
        also with enough protection, firepower, and logistics assets to 
        sustain themselves;
        <bullet> We are retraining and restructuring the active and 
        Reserve components to achieve a more appropriate distribution 
        of skill sets, to improve the total force's responsiveness to 
        crises, and so that individual reservists and guardsmen will 
        mobilize less often, for shorter periods of time, and with 
        somewhat more predictability. Already the services have 
        rebalanced some 10,000 military spaces both within and between 
        the active and Reserve components in 2003, and are projected to 
        rebalance 20,000 more during 2004.
        <bullet> We are increasing the jointness between the Services. 
        Instead of simply de-conflicting the armed services and members 
        of the Intelligence Community we are integrating them to 
        interact as seamlessly as possible.
        <bullet> We are improving communications and intelligence 
        activities. This includes, for example, the development of 
        Space-Based Radar (SBR) to monitor both fixed and mobile 
        targets deep behind enemy lines and over denied areas, in any 
        kind of weather. We also are at work on the Transformational 
        Communications Satellite (TSAT) to provide our joint warfighter 
        with unprecedented communication capability. To give you an 
        idea of the speed and situational awareness the TSAT will 
        provide, consider this: transmitting a Global Hawk image over a 
        current Milstar II, as we do today, takes over 12 minutes. With 
        TSAT it will take less than a second.
        <bullet> The Department is constructing three new state-of-the-
        art guided missile destroyers to patrol the seas; 42 new F/A-18 
        fighter aircraft to guard the skies; and new C-17 strategic air 
        lifters, which will improve our ability to move forces quickly 
        over long distances.
        <bullet> We have significantly expanded the capabilities and 
        missions of Special Operations. SOCOM has moved from 
        exclusively a ``supporting'' command to both a ``supporting'' 
        and a ``supported'' command, with the authority to plan and 
        execute missions in the global war on terror.
        <bullet> We have established new commands and restructured old 
        ones:

                <bullet> the Northern Command, dedicated to defending 
                the homeland;
                <bullet> the Joint Forces Command, to focus on 
                continuing transformation; and
                <bullet> the Strategic Command, responsible for early 
                warning of and defense against missile attack, and the 
                conduct of long-range attacks.

        <bullet> We are working with NATO in an effort to make the 
        Alliance more relevant and credible in this post-Cold War era, 
        shedding redundant headquarters and creating a new rapid 
        response force.
        <bullet> It used to be that operational and contingency plans 
        were developed, then placed on the shelf for years. We're 
        working to maintain a regular review of plans, challenging our 
        own assumptions and keeping the plans fresh and relevant.
        <bullet> The Department is changing its approach to 
        infrastructure and installations. When the administration 
        arrived, facilities were funded at a rate and level that 
        reflected an expectation that they would be replaced only every 
        175 to 200 years. Our goal was and remains to cut it down to a 
        more realistic recapitalization rate closer to 70 years.
        <bullet> We are making progress in changing the culture in the 
        Department and the military from one of ``risk avoidance'' to 
        one that rewards achievement and innovation.

    Let me mention another example of an activity underway that on its 
own may seem minor, but is crucial to the process of transforming.
    Today we have tens of thousands of uniformed people doing what are 
essentially non-military jobs. Yet we are calling up Reserves to help 
deal with the global war on terror. The same benefit as we achieve with 
an increase in military personnel is already coming from converting 
some of these jobs filled by uniformed personnel to positions supported 
by DOD civilians or contractors. The Department has identified over 
50,000 positions to begin such conversion and plans to carry out this 
conversion at a rate of about 10,000 positions per year. We are also 
continuing to review thousands of other positions for possible 
conversion.
    To support this, we are working with Congress and the unions to 
improve our civilian personnel systems so we can fill these converted 
positions expeditiously. This is an enormously complicated matter and 
there is a great deal more work to be done. But when fully implemented, 
the National Security Personnel System, should:

        <bullet> Expedite the hiring process for civilian employees;
        <bullet> Recognize and reward outstanding civilian individuals;
        <bullet> Make it easier to provide merit-based promotions and 
        reassignments; and
        <bullet> Streamline the complex webs of rules and regulations 
        that currently frustrate efficient management of the 
        Department.

    When we talk about changes to our country's global posture, it is 
important to look at those changes--as part of the broader transforming 
of our way of doing things. One cannot succeed without the other.
    If our goal is to arrange the Department and our forces so we are 
prepared for the challenges of this new century--the newer enemies and 
the more lethal weapons--it is clear that our existing arrangements are 
seriously obsolete.
    We have entered an era where enemies are in small cells scattered 
across the globe. Yet America's forces continue to be arranged 
essentially to fight large armies, navies, and air forces, and in 
support of an approach--static deterrence--that does not apply to 
enemies who have no territories to defend and no treaties to honor.
    We are still situated in a large part as if little has changed for 
the last 50 years--as if, for example, Germany is still bracing for a 
Soviet tank invasion across its northern plain. In South Korea, our 
troops were virtually frozen in place from where they were when the 
Korean War ended in 1953.
    So we have developed a set of new concepts to govern the way we 
will align ourselves in the coming years and decades. Though this 
should not be news to many on the committee since we have offered 
extensive briefings to members and staffs, let me reiterate some of the 
concepts.
    A first notion is that our troops should be located in places where 
they are wanted, welcomed, and needed. In some cases, the presence and 
activities of our forces grate on local populations and have become an 
irritant for host governments. The best example is our massive 
headquarters in some of the most valuable downtown real estate in 
Seoul--Korea's capital city--long a sore point for many South Koreans. 
Under our proposed changes, that headquarters will be moved to a 
location well south of the capital.
    In the last few years, we have built new relationships with 
countries that are central to the fight against extremists--in places 
such as Afghanistan, Pakistan, and Uzbekistan, to offer a few examples. 
We also have strong partnerships with the newly-liberated nations of 
Eastern Europe. We believe it makes sense to try to work out 
arrangements with countries that are interested in the presence of the 
U.S. and which are in closer proximity to the regions of the world 
where our troops are more likely to be needed in the future.
    A second governing concept is that American troops should be 
located in environments that are hospitable to their movements. Because 
U.S. soldiers may be called to a variety of locations to engage 
extremists at short notice, we need to be able to deploy them to 
trouble spots quickly. Yet over time, some host countries and or their 
neighbors have imposed restrictions on the movement and use of our 
forces. So it makes sense to place a premium on developing more 
flexible legal and support arrangements with our allies and partners 
where we might choose to locate, deploy, or exercise our troops.
    Many of our current legal arrangements date back a half a century 
or more. We need our international arrangements to be up-to-date--to 
reflect the new realities and to permit operational flexibility. They 
have to help, not hinder, the rapid deployment and employment of U.S. 
and coalition forces worldwide in a crisis. These legal arrangements 
should encourage responsibility and burdensharing among our partners 
and ourselves, and be certain to provide the necessary legal 
protections for U.S. personnel.
    Third, we need to be in places that allow our troops to be usable 
and flexible. As the President has noted, the 1991 Gulf War was a 
stunning victory. But it took 6 months of planning and transport to 
summon our fleets and divisions and position them for battle. In the 
future, we cannot expect to have that kind of time.
    Finally, we believe we should take advantage of advanced 
capabilities that allow us to do more with less. The old reliance on 
presence and mass reflects the last century's industrial-age thinking.
    In this century, we are shifting away from the tendency to equate 
sheer numbers of things--tanks, troops, bombs, etc.--with capability. 
If a commander has a smart bomb that is so precise that it can do the 
work of eight dumb bombs, for example, the fact that his inventory is 
reduced from ten dumb bombs to five smart bombs does not mean his 
capability has been reduced--indeed his capability has been 
significantly increased.
    The ``old think'' approach needs to be modernized. In terms of 
lethality, precision weapons have greatly expanded our capability, 
while significantly reducing the number of weapons needed.
    We can, for example, attack multiple targets in one sortie, rather 
than requiring multiple sorties to attack one target. The Navy's 
response time for surging combat ships has been shortened to the point 
that we will likely not need a full-time carrier strike group presence 
in every critical region.
    As a result of these new ways of thinking, we have developed plans 
for a more flexible and effective force posture for the 21st century. 
For example, main operating bases in places like Germany, Italy, the 
U.K., Japan, and Korea, will be consolidated, but retained. We hope to 
rely on forward operating sites and locations, with rotational presence 
and pre-positioned equipment, and to gain access to a broader range of 
facilities with little or no permanent U.S. presence, but with periodic 
service or contractor support.
    In Asia, our ideas build upon our current ground, air, and naval 
access to overcome vast distances, while bringing additional naval and 
air capabilities forward into the region. We envision consolidating 
facilities and headquarters in Japan and Korea, establishing nodes for 
Special Operations Forces, and creating multiple access avenues for 
contingency operations.
    In Europe, we seek lighter and more deployable ground capabilities 
and strengthened Special Operations Forces--both positioned to deploy 
more rapidly to other regions as necessary--and advanced training 
facilities.
    In the broader Middle East, we propose to maintain what we call 
``warm'' facilities for rotational forces and contingency purposes, 
building on cooperation and access provided by host nations during 
Operations Enduring Freedom and Iraqi Freedom.
    In Africa and the Western Hemisphere, we envision a diverse array 
of smaller cooperative security locations for contingency access.
    Of course, we welcome comments and suggestions as negotiations with 
potential host countries proceed.
    One additional benefit to our proposed new arrangements is that 
they will significantly improve the lives of U.S. military families. 
This is important. Over the coming period of years, we plan to transfer 
home, to American soil, up to 70,000 troops and some 100,000 family 
members and civilian employees. In addition, deployments of the future 
should be somewhat shorter, families should experience somewhat fewer 
permanent changes of station, and thus less disruption in their lives.

                  BASE REALIGNMENT AND CLOSURE (BRAC)

    The global posture decision process and Base Realignment and 
Closure (BRAC) are tightly linked, indeed they depend on each other. 
They are both key components of the President's transformation agenda, 
and they both will be critical instruments for stability in the lives 
of service members and their families. Together, they will help to 
provide more predictability in assignments and rotations.
    The progress made to date on global posture enables DOD to provide 
specific input on overseas changes for BRAC 2005. That input will allow 
domestic implications of the Global Posture Review--with forces and 
personnel either returning to or moving forward from U.S. territory--to 
be accounted for as effectively as possible within the BRAC 
decisionmaking process. Finally, as was the case with previous BRAC 
rounds, the U.S. will retain enough domestic infrastructure to provide 
for difficult-to-reconstitute assets to respond to surge needs, and to 
accommodate significant force reconstitution as necessary, including 
all forces based within or outside the United States.
    Any initiative as complex as the proposed global posture 
realignment will stimulate questions--especially in an election year.
    I appreciate this opportunity to address a few of the myths and 
misconceptions that seem to be lingering out there about what is 
contemplated.
For example, will reducing overall force levels in Korea reduce our 
        ability to come to its defense?
    In fact, our partnership with the Republic of Korea is a good 
example of what we hope to accomplish. The Defense Department has been 
investing in and making arrangements for improved capabilities--such as 
long range precision weaponry--to be available on the Korean peninsula. 
As a result, as we are increasingly able to transfer responsibility to 
Korean forces, we will be able to reduce U.S. troop levels. The 
combined capabilities of the U.S. and the Republic of Korea will make 
our defense of Korea stronger than before.
    As in Western Europe, the situation in Korea is different from what 
it was 50 years ago, back when South Korea was impoverished and 
virtually destroyed. Today South Korea is an economic powerhouse, with 
a modern military force of some 600,000, and a GDP per capita of 18 
times that of North Korea. Our proposed global force posture 
initiatives make it clear that the U.S. and the Republic of Korea are 
working together as partners, each bringing important capabilities to 
our shared challenges.
Has the administration prepared the public--and informed Congress--
        about these changes?
    As I mentioned, these concepts were outlined years ago--first in a 
1999 speech before President Bush took office and then a number of 
times since.
    The Global Posture Review had its origins in the 2001 Report of the 
Statutory Quadrennial Defense Review. On November 25, 2003, President 
Bush announced that the U.S. would intensify consultations with 
friends, allies, and partners overseas.
    We have made significant progress during 2003-2004, and these 
proposals have been shared frequently with the congressional 
leadership, committee leadership and members, and with committee 
staffs.
    I'm told that in the past 2 years the Department of State and this 
Department have provided at least:

        <bullet> Four briefings to House committee staffs and one each 
        to members of the House Armed Services Committee and House 
        Appropriations Committee--Defense Subcommittee;
        <bullet> Four briefings to individual Senators;
        <bullet> Nine briefings to Senate committee staffs or members' 
        personal staffs; and
        <bullet> This year alone, I took part in five breakfast 
        meetings on the subject with Congressmen and Senators, 
        including one on April 29, 2004, with Chairman Warner and 
        Senator Levin.
Should we have given earlier warning to our allies?
    In fact, we have met with officials in foreign governments on a 
variety of levels on these concepts. Secretary Powell and I have spoken 
many times with our counterparts abroad, as have our staffs.
    The results of multiple consultations by Under Secretary of Defense 
Feith, his State Department colleague Marc Grossman, and others at NATO 
and in key European, Asian and other capitals helped to create 
understanding and cooperation regarding our posture realignment.
    Our foreign counterparts have appreciated that their input was 
sought before key decisions were made and they understood our global, 
long-term view and the strategic rationale for conducting the review at 
this time.
Does realigning our posture send a dangerous message to North Korea 
        about our commitment to the South?
    The answer is an emphatic ``no.'' We know that sheer numbers of 
people are no longer appropriate measures of commitment or 
capabilities. As I have noted earlier, our capabilities in defending 
the Republic of Korea are increasing, not decreasing.
    Senator Joe Lieberman said it well in an interview a few weeks ago. 
He noted that: ``Kim Jong Il . . . is not under any misconceptions. We 
have enormous power at sea, in the air, on the ground, in the Asian 
Pacific region and on the Korean peninsula. If he tries to take 
aggressive action against the South Koreans, he will pay a very, very 
heavy price.'' The Senator is correct.
Will sending more troops home from theaters in Europe weaken our 
        ability to surge quickly to trouble spots?
    Actually, the opposite is closer to the truth. Presence is 
important, but forward stationing does not mean optimal stationing. 
Forces in Europe, for example, are only closer to the Middle East if 
they can deploy rapidly to the south. If those same forces have to 
deploy to the north, through the Baltic and North Seas, then to the 
Atlantic and Mediterranean, then we can move roughly as fast from the 
United States. We do not expect our forces to fight where they are 
stationed. We know that our forces will need to move to the fight, 
wherever it is. That means that command structures and capabilities 
must be expeditionary. We need well-developed transportation networks. 
We need materiel and supplies along transportation routes.
    So, if there are legal or political restrictions on the movement of 
our troops where they are stationed, the difficulties in using them 
quickly multiply.
    Additionally, the more flexible arrangements we are seeking with 
our allies will allow us to make changes as changes are needed. Area 
commanders don't own forces. Our country does. We have no hesitation in 
moving forces from one region to another as circumstances change and 
require--and we do frequently.
    Critics of these proposed moves seem trapped in the thinking of the 
last century. In some ways, that is understandable. It is difficult to 
part with thoughts that one has harbored for decades. But the world 
changes and updated thinking is needed.
    We owe an up-to-date defense posture to our troops in the field and 
the generations that may be called to battle in the future.
    This week, I had the privilege of participating in one of our 
regular meetings in Washington with the combatant commanders, some of 
whom are here today. They are impressive. They follow in the footsteps 
of the visionary military leaders of the past. This plan was undertaken 
with the benefit of their military advice.
    One day future generations will look back at them with gratitude 
for what they have accomplished in the last few years in the struggle 
against global extremists.
    Our task is to see that one day historians and generations will 
look back at what is being done today, at what is being accomplished, 
and say that our actions also helped to make the world more peaceful, 
our military more formidable, and our freedom more secure.
    Thank you, Mr. Chairman.

    Chairman Warner. Thank you, Mr. Chairman.
    General Myers.

   STATEMENT OF GEN. RICHARD B. MYERS, USAF, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Myers. Thank you, Mr. Chairman, Senator Levin, 
members of the committee. Thank you for the opportunity to 
discuss this important program with you.
    First, I want to thank you for your dedication to 
protecting our Nation against current and future threats, as 
well as improving the quality of life of our service men and 
women, priorities that I certainly share with you.
    I firmly believe that this approach to our global defense 
posture is in the best interest of both our national security 
and our troops. This plan will leave us better positioned to 
engage our allies and promote regional stability and better 
positioned to prevail in combat when war cannot be prevented.
    When I started my Air Force career nearly 40 years ago I 
was stationed in Germany, flying F-4s. My squadronmates and I 
spent many hours studying the enemy's weapons and tactics. We 
knew exactly who the threat was, the Soviet Union and the 
Warsaw Pact, and we knew exactly what our mission would be, to 
defend Europe by ensuring air superiority and supporting the 
massive North Atlantic Treaty Organization (NATO) ground force. 
As General Jones knows very well, our troops stationed in 
Europe today have to deal with a lot more uncertainty. They 
have to look beyond the Fulda Gap, beyond the long-established 
war plans, to new missions in new places like Kosovo, Iraq, 
Afghanistan, and the Horn of Africa.
    Our Armed Forces have to fight a completely new kind of 
war, the war on terrorism or against extremism. They have to be 
ready for future threats that are still unknown.
    So we are transforming our forces to better confront these 
challenges and threats, and we must have a global posture that 
is aligned with the key tenets of a transformed military. Those 
are agility, flexibility, and speed.
    We also have a unique opportunity right now, one that we 
must seize. Because we won the Cold War, many of our former 
adversaries, the same ones I studied as a lieutenant, have 
become valued allies and partners. I travel to Eastern Europe 
and Central Asia and meet with my counterparts and I can tell 
you that they could not be more willing to engage with us. They 
understand the value of freedom and democracy because it is in 
many cases so newly won, and they are ready to join the 
international team.
    This global posture strategy engages these new allies in 
very positive ways, allowing us to create effective new 
partnerships.
    The situation on the Korean Peninsula has also changed 
dramatically. When I sat alert at Osan Air Base as a captain in 
the 1970s, our F-4s were parked alongside Korean War-vintage F-
86s from the Korean Air Force, and the Republic of Korea's 
economy, as the Secretary said, was on par of the world's 
poorer nations. Now they have F-16s that can drop precision 
bombs and their economy is ranked 11th in the world, ahead of 
many European Union (EU) nations. They have a stable democracy 
and a highly-capable military.
    Our own military capabilities have also changed 
dramatically: precision weapons, long-range strike 
capabilities, networked command and control, our ability to get 
to the fight more quickly, and, perhaps most importantly, our 
ability to fight as an integrated, joint, and coalition team.
    Yet, as Secretary Rumsfeld said, U.S. forces in Korea are 
positioned exactly where we were at every base camp and station 
when the armistice was signed 51 years ago. The calculus has 
changed completely and this global posture strategy accounts 
for that fact in Korea and across the globe.
    We owe it to our troops to position them for success and at 
the same time to support their families. Not so long ago, I 
visited several spouse support groups in the First Armored 
Division in Germany. I was extremely impressed by them and the 
network they had built to take care of one another. Working 
with the division's leadership, they were very energetic and 
creative in dealing with family issues while the division was 
deployed in Iraq.
    But their challenges were even tougher because they were 
overseas. It is much easier at home with immediate access to 
extended families, friends, and other support networks and job 
opportunities for family members.
    As the Secretary said, the Joint Chiefs and combatant 
commanders have been fully involved in these ongoing studies 
and discussions over the last 3 years. We know it will take 
time to implement and the end state is designed to flex and 
adapt in a dynamic world. But we cannot wait any longer to move 
forward with this important task. We owe it to our troops, our 
allies, and to the American people.
    I appreciate this opportunity to answer your questions and 
I thank you for your continued strong support of our brave and 
selfless men and women in uniform. Thank you.
    Chairman Warner. Thank you very much, Mr. Chairman.
    General Jones.

STATEMENT OF GEN. JAMES L. JONES, JR., USMC, COMMANDER, UNITED 
  STATES EUROPEAN COMMAND AND SUPREME ALLIED COMMANDER, EUROPE

    General Jones. Mr. Chairman, Senator Levin, members of the 
committee: I am pleased once again to appear before you to 
discuss the strategic transformation proposals of the United 
States and in particular the United States European Command. If 
approved either in whole or in part, I am convinced that our 
proposals will increase the strategic effect of our forces who 
are assigned to operate on the European and African continents 
and in their contiguous waters. We have an historical 
opportunity, it seems to me, to adjust our basing and operating 
concepts in such a way as to make them much more capable and 
useful to our national, coalition, and alliance goals.
    I believe it is important to state as emphatically as 
possible that this effort should not be characterized as an 
indication that the United States is demonstrating a lesser 
interest in Europe or Africa, losing interest in leading or 
participating as fully as we have in the past in NATO, or 
withdrawing capability from our many bilateral relationships 
and commitments throughout our expanding area of interest, or 
that we now embrace diminished appreciation of the value of 
forward basing. Nothing could be further from the truth.
    On the contrary, we should affirm the clear opposite, which 
is to say that transformation will better enable the United 
States to strategically impact its 91-country area of 
responsibility and its new challenges in a manner unprecedented 
since the end of World War II. United States European Command's 
(EUCOM) strategic transformation will create an agile and more 
usable permanent force in theater, augmented by dedicated 
expeditionary rotational forces, all operating aboard a family 
of three new basing concepts, and anchored on radically 
modernized prepositioned equipment locations on land and at 
sea.
    Mr. Chairman, I consider it an honor to be able to be a 
part of this effort and I look forward to answering your 
questions on this very important and exciting subject. Thank 
you.
    [The prepared statement of General Jones follows:]

            Prepared Statement by Gen. James L. Jones, USMC

                            I. INTRODUCTION

    Chairman Warner, Senator Levin, distinguished members of the 
committee--It is my privilege to appear before you as Commander, United 
States European Command (EUCOM), to discuss our strategic theater 
transformation plans and to discuss the way forward for both EUCOM and 
the NATO Alliance. On behalf of all the men and women in EUCOM and 
their families, all of whom proudly serve this Nation, I want to thank 
the committee members and staff for your unwavering support since my 
assignment began in January 2003. During this time I have had several 
opportunities to appear before you, to meet with members and staff in a 
number of different venues, both here and in theater, and to share the 
vision for the transformation of the 91 nation European and African 
theater. Your insightful and candid appraisals of this important 
endeavor have been instrumental in refining a plan that will enable us 
to do our part to protect our democracy, contribute to the security of 
our Nation, support the 26 nation NATO Alliance, and help improve 
security and stability conditions within our area of responsibility. 
Your dedication and efforts on our behalf are both recognized and 
greatly appreciated.
    In 2001, the Secretary of Defense initiated a comprehensive, 
strategy-based review of the U.S. global defense posture, and 
subsequently directed all combatant commands to evaluate their 
structure, organization and processes in order to gain transformational 
efficiencies and develop new capabilities to meet emerging 
requirements. The efforts we are undertaking to meet the objectives 
laid out by the Secretary represent the most extensive adjustments to 
the European theater in its history. The changes we are proposing 
contain broad and far-reaching implications for our Nation, our allies, 
and our military. As we embark upon this important endeavor, we must be 
mindful of the unique leadership responsibilities we enjoy in the 
community of nations, and we must ensure that the measures we undertake 
will, in its end state, increase our strategic effectiveness. In a 
world full of uncertainty and unpredictable threats, the United States 
continues to be viewed as an influential leader in providing stability 
and security. It is a responsibility this Nation has not merely 
accepted, but has embraced for more than half a century. As we map a 
course for the future we must remain cognizant of the key elements that 
enabled us to be successful in the last century and be wise enough to 
recognize the new security challenges we face. Our ability to be 
successful in fighting the global war on terrorism and achieve a force 
posture necessary to operate across the broad spectrum of potential 
conflict requires innovative thought and comprehensive coordination at 
all levels of our Government. I look forward to working with you and 
your staff as we set about this important enterprise that will 
ultimately establish the framework for a new capability for a new and 
different era.

                      II. THE RATIONALE FOR CHANGE

    EUCOM's greatest contribution to security and stability lies as 
much in preventing conflict as it does in prevailing on the 
battlefield. This is accomplished through influence, forward presence 
and engaged leadership. It is sustained only through our enduring and 
visible presence and commitment in our theater.
    EUCOM's current structure is still centered based on a threat-
based, defensive, and static philosophy facing east. Happily, this 
threat has passed, and the continuous flux of the security environment 
since the end of the Cold War has rendered obsolete the foundation of 
making threat-based changes to our strategic posture. Our 
transformation vision, therefore, seeks to evolve to a capabilities-
based strategy that supports the full range of military operations 
better suited to meet new challenges. The strategic and operational 
environment and mission direction have changed radically, and EUCOM 
must change as well.
    The fall of the Berlin Wall marked a significant turning point in 
the national strategy and in the utilization of the resources required 
to support our theater security objectives. The United States has 
periodically changed its overseas defense posture as strategic 
circumstances themselves evolve. In the post-Cold War period, EUCOM 
significantly reduced its force structure while simultaneously 
increasing its stability and contingency operations. For example, EUCOM 
force structure has been reduced from 315,000 troops and 1,421 
installations to 112,000 troops and approximately 500 installations 
concentrated in Western Europe since 1991.
    The operational environment within EUCOM's area of responsibility 
(AOR) continues to evolve in ways that were largely unforeseen and 
difficult to predict just a few short years ago. The global war on 
terrorism, expanding Theater Security Cooperation (TSC) requirements, 
instability in Africa, Eastern Europe, the Caucasus, and NATO expansion 
largely define recent changes and necessitate a transformational shift 
in EUCOM's theater strategy for new challenges and realities in a new 
century. In contrast to the Cold War-era monolithic threat and its 
linear battlefield, EUCOM and NATO can expect to face global, multiple, 
and asymmetric threats in the 21st century. The new security menace is 
transnational, characterized by enemies without territory, without 
borders, and without fixed bases. Today's security environment includes 
threats such as the export and franchising of terrorism, eroding 
control of weapons of mass destruction, narcotrafficking, unanticipated 
and uncontrolled refugee flow, and illegal immigration. Many of these 
threats are nurtured in misgoverned or even ungoverned regions as 
terrorists and extremist organizations seek to find new havens from 
which to operate.
    We must change our posture to reflect the realities of the 21st 
century (Figure 1). Our remaining forces, now at less than 40 percent 
of our Cold War force, are not necessarily equipped or sited to 
adequately address the emergence of an entirely new array of threats 
and security requirements. EUCOM is transitioning east and south to 
engage these emerging threats. In order for EUCOM to be better postured 
to achieve national interests in theater, we must significantly change 
the manner in which we execute our new missions in response to our new 
challenges. The foundation of EUCOM's transformation should be 
evaluated in the context of seeking to dramatically increase our 
strategic effect, retain our historical leadership role in the NATO 
Alliance, enhance our ability to develop our growing bilateral 
relationship, and underscore the significant benefits of forward 
deployed forces.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
           III. THE STRATEGIC BASIS OF EUCOM'S TRANSFORMATION

    EUCOM's theater transformation is based on the assumptions that the 
United States:

        <bullet> Desires to maintain its current position as a nation 
        of global influence through leadership and the efficient and 
        effective application of informational, military, economic, and 
        diplomatic power
        <bullet> Remains committed to its friends and allies through 
        global, regional and bilateral organizations and institutions, 
        and supports treaties and international agreements to which it 
        is a signatory
        <bullet> Pursues a global strategy, a cornerstone of which is 
        increased access and forward presence in key areas, which 
        contributes to the first line of defense for peace, stability, 
        and order
        <bullet> Supports in-depth transformation of its Armed Forces 
        and basing structure to respond to 21st century asymmetrical 
        threats and challenges
        <bullet> Seeks ways to mitigate or offset obstacles posed by 
        21st century sovereignty realities through a re-orientation of 
        its land, maritime, air and space presence
        <bullet> Recognizes current U.S. basing within EUCOM may not 
        adequately support either the strategic changes attendant to an 
        expanded NATO Alliance, or the national requirements of a 
        rapidly changing AOR
        <bullet> Seeks to preserve those assets which have enduring 
        value to its missions, goals, and national interests
        <bullet> Continues to enhance and build defense relationships 
        enabling the United States, allies, and friends to respond 
        effectively

    These assumptions, if agreed to, serve as the cornerstone which 
underpins EUCOM's Theater Transformation Plan.

               IV. EUCOM'S CRITICAL THEATER CAPABILITIES

    EUCOM's success hinges on maintaining critical capabilities as both 
a supported and a supporting combatant command. These capabilities 
include: as much freedom of action as possible within our many 
agreements with nations who host our forces; power projection; bases 
for our operations; command, control, communications, computers, and 
intelligence (C\4\I); alliances and coalition partners; theater based 
and rotational forces; and facilities for joint and combined training 
opportunities. EUCOM gains and maintains freedom of action and the 
ability to build alliances and coalitions through its security 
cooperation efforts and an effective interagency process.
    Power projection platforms and associated bases must optimize our 
limited strategic air and sea-lift, maximize available intra-theater 
lift, leverage existing enduring bases, and well-maintained pre-
positioned equipment. EUCOM should preserve our critical capabilities 
by maintaining select (Joint) Main Operating Bases where currently 
located, and by establishing new (Joint) Forward Operating Sites and 
(Joint) Cooperative Security Locations where needed. The temporary and 
semi-permanent expeditionary installations established throughout the 
AOR will provide essential facilities and equipment for expeditionary 
forces in proximity to the areas of interest, crisis, or conflict and 
will avoid saturation at key nodes and along lines of communication. 
Where possible, (Joint) Propositioned Stocks will provide additional 
means to rapidly project equipment to contingency response areas. By 
design, the inherent agility of these expeditionary forces will enable 
a more precise and rapid response, intervening into a crisis at its 
inception, thereby reducing the potential for larger scale operations 
requiring massive force. However, if a larger force is required in 
theater or in an adjacent theater, EUCOM's basing plan is flexible 
enough to allow for a rapid expansion of follow-on forces whenever 
needed. This built-in scalability will provide the initial agility 
necessary for EUCOM to effectively support a truly global strategy.
Lexicon: Transformation Assets
    (Joint) Main Operating Base (JMOB)
    By definition, this is an enduring strategic asset established in 
friendly territory with permanently stationed combat forces, command 
and control structures, and family support facilities. (J)MOBs serve as 
the anchor points for throughput, training, engagement, and U.S. 
commitment to NATO. (J)MOBS have: robust infrastructure; strategic 
access; established command and control; ready access to training 
areas; (Joint) Forward Operating Sites and (Joint) Cooperative Security 
Location support capability; and enduring family support facilities. As 
previously stated, these are already in existence.
    (Joint) Forward Operating Site (JFOS)
    An expandable host-nation ``warm site'' with a limited U.S. 
military support presence and possibly prepositioned equipment. It can 
host rotational forces and be a focus for bilateral and regional 
training. These sites will be tailored to meet anticipated requirements 
and can be used for an extended time period. Backup support by a (J)MOB 
may be required.
    (Joint) Cooperative Security Location (JCSL)
    A host-nation facility with little or no permanent U.S. presence. 
(J)CSLs will require periodic service through contractor and/or host 
nation support. (J)CSLs provide contingency access and are a focal 
point for security cooperation activities. They may contain 
propositioned equipment. (J)CSLs are: rapidly scalable and located for 
tactical use, expandable to become a JFOS, forward and expeditionary. 
They will have no family support system.
    (Joint) Preposition Site (JPS)
    A secure site containing pre-positioned war reserve materiel 
(combat, combat support, combat service support), tailored and 
strategically positioned to enable rotational and expeditionary forces. 
They may be collocated with a (J)MOB or (J)FOS. JPSs are usually 
maintained by contractor support and may be sea based. They are an 
important component to our transformation efforts.
    ``En Route'' Infrastructure (ERI)
    A strategically located enduring asset with infrastructure that 
provides the ability to rapidly expand, project and sustain military 
power during times of crises or contingencies. ERI bases serve as 
anchor points for throughput, training, engagement, and US commitment. 
They may also be a (J)MOB or (J)FOS.
    In addition to maintaining our traditional lines of communication 
and access, we will seek new access to facilities, and routine freedom 
of transit through nations of the east into the Black Sea, the 
Caucasus, the Levant, and Africa in order to support current and future 
operations. In the near-term, attention will focus on Poland, Romania, 
Bulgaria, and Turkey, supporting similar near- to mid-term efforts in 
the Caucasus states.
``En Route'' Infrastructure
    A significant component of our ability to prosecute the war on 
terrorism and maintain operational access is the En Route 
Infrastructure Program. Operations Enduring Freedom (OEF) and Iraqi 
Freedom (OIF) have highlighted the importance of our primary en route 
bases in the United Kingdom, Germany, Spain, Portugal, Turkey, and 
Italy. Enhancing their capabilities in the near- to mid-term is 
essential to our continued ability to deploy and sustain U.S. forces.
    EUCOM will develop new installations for engaging the many threats 
we face today and that we will respond to in the future. Retention of 
critical JMOBs will preserve existing infrastructure for the Joint 
Reception, Staging and Onward Movement and Integration (JRSOI) Center 
functions. Establishing JFOSs, CSLs, and JPSs in new countries will 
allow the command to develop and mature host-nation support and 
contractor agreements to support additional JRSOIs.
    The ability to rapidly project military power during times of 
crises or contingencies is the central and most enduring premise of the 
concept of forward stationing of forces. The very presence of such 
forces, either forward based or rotational and the military 
capabilities they possess are powerful instruments of national 
influence. A robust ``En Route'' Infrastructure combined with an array 
of (Joint) Pre-positioned Sites throughout the EUCOM theater, will 
enable the United States to have the strategic agility to operate 
across the spectrum of conflict. Beyond strict military significance, 
forward forces serve to strengthen U.S. diplomacy and foreign policy; 
demonstrate U.S. commitment to the security of U.S. friends and allies; 
demonstrate to potential challengers the resolve of the United States 
to meet its commitments; and bolster regional security through our 
theater security cooperation programs.
Rotational Forces
    A key aspect of EUCOM's transformation plan is the reliance on 
``rotational'' units as a significant portion of the forces in theater. 
By design, the inherent agility of these expeditionary forces will 
enable a more precise and rapid response, intervening in a crisis at 
its inception, thereby reducing the potential for larger scale 
operations requiring massive force. Further, rotational forces arrive 
trained and ready to operate immediately within the theater. As a force 
provider (supporting command), EUCOM can provide these rotational 
forces quickly in support of other combatant commands.
    This combination of permanently-based and rotational forces will 
permit a full range of operational capability in areas and regions 
within our area of responsibility that are increasingly important. 
EUCOM's Service components will develop and execute effective plans to 
integrate and employ a combination of permanently assigned forces and 
rotational forces from continental United States (CONUS). The transfer 
of heavy forces to CONUS in no way reflects a reduced commitment or 
interest in our region, but rather a shift from conventional thinking 
and a desire to adopt new methods to better protect our interests. The 
decrease in overall numbers in the theater will be offset not only by 
the retention of inherently expeditionary units such as airborne 
brigades, aviation units, and naval forces, but also by the 
introduction of our most modern transformed forces (e.g. Stryker 
Brigade), providing the agility needed to operate effectively in 
EUCOM's unpredictable and fluid international security environment.
    The employment of rotational forces in the European theater is not 
a new concept. The Navy and Marine Corps deployed Carrier Battle Groups 
(CVBGs) and Amphibious Ready Groups/Marine Expeditionary Units (ARG/
MEUs) to the Mediterranean throughout the Cold War, and the new Fleet 
Response Plan will continue the rotational presence of Carrier and 
Expeditionary Strike Groups (CSG/ESGs). The Army has had tremendous 
success with the use of rotational forces in support of operations in 
Bosnia and Kosovo. The Air Force's transformation to the Expeditionary 
Wing structure enabled rotational presence during operations in the 
Balkans and in support of Operation Northern Watch (northern Iraq no-
fly zone enforcement). European Command's Theater Security Cooperation 
engagement today is conducted with rotational forces in Africa and the 
Caucasus. The efficacy of rotational forces is a tried and proven 
concept. The linchpin to EUCOM's theater transformation is the 
recognition that the continuing and expanded role of rotational forces 
is essential to increasing our strategic effectiveness in an area of 
responsibility that encompasses 91 countries in Europe and Africa.
Joint Force Command and Control
    Reliance on rotational forward presence forces, new and enhanced 
bilateral and multi-national agreements, our leadership role in a 
transformed NATO, and the decisive execution of the global war on 
terrorism has transformed EUCOM's command and control structure and 
architecture.
    In accordance with Secretary of Defense Guidance, EUCOM has 
established its Standing Joint Force Headquarters (SJFHQ) and the 
European Plans and Operations Center (EPOC). It will rapidly achieve an 
agile, proven command and control capability for joint and multi-
national forces within EUCOM through the execution of command and 
control exercises. The EPOC will also be the cornerstone of the JCS-
funded exercise program in EUCOM and will ensure multi-echeloned 
training of theater command and control headquarters.
    Each component will be organized to participate and lead in the 
command and control of joint and multi-national forces as a joint task 
force (JTF) or a combined joint task force (CJTF) throughout the 
theater. At end state, EUCOM will have the ability to establish six JTF 
core headquarters. This represents a substantial increase from current 
capabilities and more accurately matches potential command and control 
headquarters requirements with emerging requirements, thus enabling 
joint solutions to emerging or existing crises.
    Transformation will also afford theater components opportunities to 
leverage emerging technologies and doctrine and, in some cases, lead 
transformational command and control for the Department of Defense. 
Allies and coalition partners will experience similar gains as we 
assist their transformation efforts.

                     V. EUCOM AND THE NATO ALLIANCE

    NATO, which has been the fulcrum of transatlantic and inter-
European security since its inception, continues to transform in order 
to remain the preeminent security alliance in the world. During the 
recent NATO Summit in Istanbul, Turkey, the Alliance reaffirmed its new 
global commitment to undertake the necessary measures to confront 
present day threats. NATO's decision to expand the International 
Security Assistance Force (ISAF) in Afghanistan, including the 
establishment of several more Provincial Reconstruction Teams, and its 
decision to assist the Interim Iraqi Government with the training of 
its security forces, underscores the level of transition occurring in 
the Alliance. Additionally, efforts to enhance the Mediterranean 
Dialogue program and to offer cooperation to the Greater Middle East is 
a testament to the desire of NATO to be fully engaged on issues that 
will help shape our common future.
    Further, as the Alliance deploys beyond its members' boundaries, I 
believe that EUCOM can provide essential support with operationally 
focused, all-source intelligence. In concert with our NATO partners, 
EUCOM is standing up the NATO Intelligence Fusion Cell (NIFC), a 
dedicated intelligence element comprised of U.S. and other NATO 
personnel. This element will have a core of intelligence professionals 
operating under common tactics, techniques, and procedures, enhancing 
U.S. and NATO-nation intelligence interoperability. The NIFC will be 
co-located with our EUCOM Joint Analysis Center in the United Kingdom.
    As I stated during my testimony before this committee in March of 
this year, the ongoing transformations in EUCOM and NATO are 
inextricably linked to the challenges inherent in today's international 
security environment. These simultaneous transformations are mutually 
supporting and complementary, the synthesis of which produces an effect 
greater than the sum of its parts. By its leadership and example, EUCOM 
supports both the Alliance in its transformation, as well as NATO 
member nations undergoing their own internal transformations.
    A transformed posture in Europe--one that supports NATO's own 
transformation goals--requires forward forces that are rapidly 
deployable both within and beyond Europe. They must be able to perform 
the full range of military operations and serve as a deterrent, as well 
as a combat force. The NATO Response Force (NRF) is the 
transformational vehicle for the Alliance. The expeditionary standards 
and certification training serve to ensure the forces meet the desired 
level of capability and interoperability. Our NATO allies have fully 
embraced the NRF and we will achieve full operational capability early 
next month. The Alliance continues to work with member nations to 
ensure political decisions are made which will enable us to deploy the 
NRF within the timeframes established at the Prague Summit in 2002. 
These forces will train alongside other NATO forces to improve their 
interoperability and serve as a model to enhance the capabilities of 
the Alliance.
    EUCOM facilities and activities also play a vital role in NATO's 
transformation. They provide both training opportunities and the power 
projection platforms necessary for joint and combined operations. One 
such example is the Joint and Combined Expeditionary Training Center at 
Grafenwohr, Germany. This advanced training facility, along with other 
high-capacity mobility and throughput infrastructure, i.e. Ramstein Air 
Base, Germany, will have an increasingly important role in the 
development of our allies' capabilities and our future European 
posture.
    NATO's recent expansion to include seven new nations has shifted 
the Alliance's focus eastward. At the same time, long-term NATO member 
nations have improved their individual and collective ability for 
mutual defense and find themselves well ahead of the new member 
nations. While NATO welcomes new member nations, the Alliance 
recognizes that their military capabilities are not yet fully 
interoperable with NATO forces and will require significant investment. 
This is ongoing work.
    Our new allies have offered extensive training opportunities and 
areas, as well as fewer restrictions on maneuver. Encroachment 
challenges at our current bases and training areas and the desire for 
increased training with our new allies lead EUCOM to pursue further 
Eastern European access. Increasing EUCOM's forward presence in Eastern 
Europe through operating sites, training, and exercises will increase 
security cooperation engagement, bolster these new members' military 
capabilities and pave the way for greatly enhanced future contributions 
to NATO. As these forces transform, they will become more expeditionary 
and better able to respond to global requirements.
    Additionally, EUCOM forces will be in a position to exercise and 
maintain leadership roles in any new NATO force or command structure 
developed in Eastern Europe. Although EUCOM will maintain strong 
participation in established NATO countries through the recently 
approved NATO command structure, an eastward move will concurrently 
develop our constructive influence within the new NATO countries and 
allow the United States and our NATO partners to meet the goals of the 
Prague Summit more quickly.

                VI. EUCOM'S THEATER SECURITY COOPERATION

    EUCOM's Theater Security Cooperation (TSC) program forms the 
centerpiece of our efforts to promote security and deter aggression. 
The TSC program is indispensable in building relationships, enhancing 
allied and coalition capabilities, and providing access to en route 
infrastructure. This program will not only pave the way for our 
transformation plan, it will also be enhanced as the benefits from that 
transformation are realized.
    Theater Security Cooperation builds and strengthens key 
relationships that promote U.S. strategic interests. These 
relationships involve interactions at multiple levels from heads of 
state to students who engage in the many and varied training programs 
provided by the U.S. and its allies. Capabilities for self-defense and 
coalition operations are enhanced by TSC and OPTEMPO demands on U.S. 
forces are reduced. Through the TSC, essential peacetime and 
contingency access and ``en route'' infrastructure is provided and the 
development of regional security organizations to prevent or mitigate 
conflicts with minimal U.S. participation is accelerated.
    A number of programs are provided under the TSC umbrella including: 
bilateral and Partnership for Peace training events and exercises; 
Joint Combined Exchange Training (JCET); the State Partnership Program 
(SPP); and foreign assistance programs such as International Military 
Education and Training (IMET), and Foreign Military Financing (FMF).
    One extraordinarily successful example is the Georgia Train and 
Equip Program (GTEP). This was a EUCOM executed program that trained 
Georgian tactical units to conduct up to company-level operations that 
were instrumental in enhancing Georgia's ability to protect its 
sovereignty and stabilize the region. Similarly, the Pan Sahel 
Initiative is an ongoing effort to assist four countries--Mali, Niger, 
Chad, and Mauritania--in detecting and responding to the migration of 
asymmetric threats across and within their extensive and poorly 
controlled borders. Under this program, company-sized units are trained 
and equipped as rapid reaction units, providing them the mobility, 
communication, navigation, and individual soldier skills essential for 
border security, internal defense, and counterterrorism efforts.
    Similar TSC programs include: training assistance in Poland to the 
OIF Polish Division rotations; training assistance to NATO ISAF 
training preparation in the NATO Joint Warfare Center in Stavanger, 
Norway; Exercise Bulwark '04 in Bulgaria featuring rotational forces 
from CONUS, permanently assigned forces from EUCOM, and Bulgarian 
forces in Novo Selo, Bulgaria; and the recently initiated Torgau 
exercise series with Russia being conducted both in Russia and in 
Germany. All of these programs are initiatives that require small 
investments, but that yield enormous dividends in our effort to promote 
peace, stability, and democracy. They are also an example of how 
rotational forces can operate at the tactical level and produce a 
strategic result.
    Two current strategic initiatives that EUCOM continues to develop 
and expand include ``Caspian Guard'' and the ``Gulf of Guinea Guard.'' 
These are two engagements that demonstrate a regional approach towards 
establishing stability and security in relatively remote areas within 
the theater susceptible to transnational threats.
    Theater Security Cooperation programs have become critical enablers 
of EUCOM's proposed theater transformation by building and maintaining 
the key relationships that will allow us to establish new Forward 
Operating Sites and Cooperative Security Locations. These new sites 
will enable EUCOM to protect growing U.S. interests in areas of 
increasing importance to regional security and economic opportunity, 
while extending the global power and reach of U.S. forces. TSC 
effectiveness is directly linked to an effective and focused forward 
basing strategy.

                    VII. THE TRANSFORMATION TIMELINE

    The process of transforming EUCOM requires a comprehensive, 
synchronized approach integrating many segments of our Government and 
those of our allies and partners to achieve our theater goals. The 
timeline and ability to implement our Strategic Theater Transformation 
plan is based on a number of interlocking variables that must be 
carefully considered, evaluated, and orchestrated in order to gain the 
greatest benefit. How we do this is as important as what we do. The 
underlying principles that guide our collective efforts should be the 
eight assumptions--discussed earlier--that formed the basis for the 
development of EUCOM's Strategic Theater Transformation plan.
    The speed at which transformation will occur depends in large 
measure on the bilateral and multilateral legal arrangements we have 
with sovereign countries pertaining to our military personnel, 
installations, and activities. These legal arrangements constitute the 
formal framework for our military presence, access, and ability to 
conduct actions that enhance our operational readiness. Although EUCOM 
has worked extensively to identify existing installations that will be 
maintained and those that will need to be established, the final 
outcome will be predicated, in large measure, on renegotiating 
longstanding agreements already in place with current allies and 
negotiating new agreements with new allies or partners that share our 
concerns for global security. The Department of Defense and the 
Department of State have already conducted a series of consultations 
and are proceeding with negotiations to ensure present and future 
arrangements optimize our ability to train, deploy, and conduct 
missions in support of our National Security Strategy.
    Several key determinates beyond our direct control will influence 
the transformation tempo in EUCOM. These include the Army's ability to 
source and deploy ``rotational'' forces to the theater; identifying and 
providing installations for units returning to CONUS; available funding 
to support the plan to establish Joint Forward Operating Sites, 
Cooperative Security Locations, and additional Joint Pre-positioned 
Sites throughout the AOR; and the relationship between operational 
imperatives within the theater and the support we provide to adjacent 
combatant commands.
    While a decision has been made on the essential elements of the 
plan, considerable efforts to negotiate, resource, and implement the 
details of that plan remain. This is not a turn-key operation that can 
be completed in a few short years. Rather, it is a deliberate, 
methodical process that will require several years of investment and a 
considerable degree of interaction on many levels within our Government 
and with the governments of our allies. Congress is an integral part of 
this process. We greatly appreciated the visits to EUCOM's theater by 
members and staff of this committee to learn more about our 
requirements and plans for the future.

                            VIII. CONCLUSION

    We have historically unique opportunities before us. Our efforts 
over the past year to develop new basing and operational concepts have 
produced a consensus among our Services and our allies. If implemented, 
this new direction will enable us to move our capabilities more fully 
into the new century and away from some 20th century paradigms that are 
no longer relevant. The physical and visible presence of the United 
States military in the EUCOM theater is as important as it ever was, 
however, its character stems from new and different reasons. The 
security threats of the 21st century are no longer either linear or 
predictable. They require a ``capabilities based'' strategy at the core 
of our thinking with regard to transformation. Those who wish to draw 
false conclusions with regard to our national commitment to Europe and 
Africa will no doubt be increasingly vocal as we propose further 
reductions in our troop and family numbers permanently based in Europe. 
The response to such criticism is that the historical doctrine 
suggesting that ``mass equals commitment'' is no longer as valid a 
concept as it once was; what we now need is sufficiency and usability 
in our new basing doctrines. Augmented forward presence (the 
combination of permanently based, but increasingly expeditionary 
forward forces augmented by sufficient and predictable rotational 
forces) along with the war reserve material at Joint Pre-Positioned 
Sites, and a robust ``En Route'' Infrastructure will form the nucleus 
of our strategic presence across an expanding European-African theater. 
Such capability, while currently lacking, is urgently necessary. Our 
firm intent is to increase the strategic effect of our forward based 
and rotational forces in such a way as to form the basis of a vastly 
improved capability to respond to the new array of threats we face as a 
Nation, as a member of future coalitions, and as a member of NATO.

    Chairman Warner. Thank you, General Jones.
    Admiral Fargo.

   STATEMENT OF ADM. THOMAS B. FARGO, USN, COMMANDER, UNITED 
                     STATES PACIFIC COMMAND

    Admiral Fargo. Mr. Chairman, Senator Levin, and 
distinguished members of the committee: Thank you for this 
opportunity to address U.S. Pacific Command's (PACOM) planning 
to strengthen our global and theater defense posture. Let me 
add first my thanks for your outstanding support of our men and 
women in the Armed Forces today.
    Two and a half years ago, I testified before this committee 
on our priorities for the PACOM. Two of these, reinforcing the 
constants in Asian Pacific security and promoting the change 
necessary for improving our defense posture, are key to our 
larger global strategy. Together these priorities reinforce the 
foundation of regional stability--our longstanding bilateral 
alliances, our friendships both old and new, and the presence 
of our forward-deployed combat forces--while optimizing 
capabilities of the PACOM to tackle the challenges of the 
evolving security environment.
    The new threat context demands profound and enduring 
improvements in the way we command, equip, employ, and station 
our forces. Strengthening and rebalancing our security 
relationships with Japan and South Korea are vital to stability 
in northeast Asia. Each is working closely with us to secure 
peace and effect enduring solutions to mutual challenges 
associated with basing our forces while maintaining a strong 
deterrent posture.
    Our other Asian treaty allies, Australia, Thailand, and the 
Philippines, along with good friends such as Singapore, 
Malaysia, India, Indonesia, Mongolia, and many others, have 
also worked side by side with us to advance efforts in the war 
on terrorism.
    During my service in the Pacific over the past 5 years, the 
pace of change has been stunning, certainly since the end of 
the Cold War and also since September 11. Globalization has 
added a dimension of speed to nearly every aspect of life. 
Crises clearly affect more people faster. Cyber, biological, 
and terrorist threats are present along with more traditional 
concerns, like the Korean Peninsula, the potential for 
miscalculation across the Taiwan Strait or in Kashmir, and a 
host of transnational threats. I mentioned terrorism earlier, 
but there is also proliferation and the trafficking of humans 
and drugs. We require a changed approach to meet these complex 
security challenges.
    In Asia and the Pacific, the vibrant economies, burgeoning 
populations, maturing democracies, and military modernization 
only serve to add momentum to regional transformation and 
increase the need for new security strategies.
    In response to this changing environment, PACOM undertook 
efforts with the direction of the Secretary and the Chairman to 
operationalize our National Security Strategy in the PACOM's 
area of responsibility and in support of other combatant 
commanders worldwide. For the U.S. PACOM, those efforts 
included updating our plans, strengthening command and control, 
increasing capabilities for immediate employment, creating new 
operational patterns and concepts, improving force posture, and 
diversifying access and in-or-out logistics.
    Forward and expeditionary ground, sea, and air forces have 
enhanced our ability to immediately employ tailored power on 
short notice in new ways and will do so more in the future. For 
example, we are co-locating Stryker brigades with high-speed 
vessels and C-17 airlifters in Hawaii and Alaska. We are 
deploying rotational bomber elements to Guam. We are stationing 
once again submarines in Guam. We have proposed homeporting an 
additional carrier strike group forward in the Pacific.
    Optimizing these immediately employable forces requires an 
appropriate footprint with more reachback, less infrastructure, 
and less burden on hosts. For instance, as part of the defense 
policy review initiative we are working closely with our ally 
Japan to reduce the overall number of U.S. troops there, remove 
longstanding noise encroachment concerns, and adjust force 
posture in Okinawa. As part of this process we will mature and 
strengthen the U.S.-Japan security alliance while assuring an 
enduring presence of critical forward forces and warfighting 
capability.
    In the future of the Republic of Korea-United States 
alliance initiative, we are consolidating our footprint into 
two enduring hubs south of the Han River, which leverages both 
improved capabilities to enhance power projection, readiness, 
and deterrence, both on the peninsula and regionally. The 
United States will also redeploy troops from South Korea as 
combined forces are modernized and the Republic of Korea 
assumes a greater role in its own defense.
    Finally, we are looking for access and logistics 
prepositioning opportunities throughout the theater that allow 
us to move forces quickly to the location of greatest need. A 
network of cooperative security locations, places not bases, 
will provide avenues of critical access for contingency 
operations, expand Special Operations Force presence, and 
continue through our security cooperation efforts to strengthen 
the capacity of our allies and partners in the region.
    Mr. Chairman and members of the committee, I am proud to 
represent the men and women of the United States Pacific 
Command, who work tirelessly on behalf of our Nation to put in 
place credible, flexible, and ready forces to secure our 
national interests at home and abroad.
    I thank you for the opportunity to testify today and I look 
forward to your questions.
    Chairman Warner. Thank you very much, Admiral.
    General LaPorte.

   STATEMENT OF GEN. LEON J. LaPORTE, USA, COMMANDER, UNITED 
   NATIONS COMMAND, REPUBLIC OF KOREA/UNITED STATES COMBINED 
     FORCES COMMAND, COMMANDER, UNITED STATES FORCES KOREA

    General LaPorte. Mr. Chairman, Senator Levin, and 
distinguished members of the committee: I am honored for the 
opportunity to appear before you today. Moreover, I am honored 
at the opportunity to represent the soldiers, sailors, airmen, 
and marines who serve our Nation in the Republic of Korea 
(ROK).
    I will briefly address how the new global defense posture 
is strengthening our deterrence and readiness on the Korean 
Peninsula through our enhance, shape, and align initiatives. 
These initiatives are the result of nearly 2 years of close 
consultation with our valued ally, the Republic of Korea. The 
Mutual Defense Treaty between the Republic of Korea and the 
United States of America, signed over a half century ago, is 
the foundation for peace and stability on the Korean Peninsula. 
The Republic of Korea-United States Combined Forces Command, 
created as a result of this treaty, is the cornerstone of our 
deterrence. This command is vigilant, well-trained, and ready 
to fight, tonight, and win.
    Today deterrence is achieved by an integrated team of 
nearly 690,000 active duty troops and 3 million reservists from 
the Republic of Korea, combined with some 34,000 forward 
deployed United States military personnel on the Korean 
Peninsula. This combined force can be rapidly reinforced when 
needed from regional and strategic assets. Additionally, U.S. 
forces on the Korean Peninsula are advantaged by extensive 
reachback capabilities to resources resident in the Pacific 
Command and the continental United States.
    Historically, the metric of readiness has been the number 
of troops on the ground. However, what is truly important is 
the complementary deterrent and combat capabilities that each 
nation contributes to the security of the peninsula. Over the 
past several years there has been a tremendous improvement in 
the interoperability of our combined forces. Concurrently, the 
U.S. Armed Forces have transformed our capabilities in many 
areas, including strategic deployability, command and control, 
precision strike, and joint and combined operations.
    These capabilities allow us to focus overmatching combat 
power when and where we choose to defeat armed aggression. 
United States forces can now be sized to provide tailored 
capabilities that complement those of the Republic of Korea 
ally, providing overwhelming strategic deterrence. Our regional 
and strategic reinforcement capabilities allow us to defeat any 
potential North Korean aggression.
    The Combined Forces Command continues to adapt to the 
changing security environment. This transformation is taking 
place through three key initiatives: enhancing combined 
capabilities, shaping combined Republic of Korea and United 
States roles and missions, and aligning U.S. forces for the 
future.
    The most visible of these are the capability enhancements 
that we are now making throughout our combined forces 
modernization programs, that include more than 340 United 
States and Republic of Korea enhancements to greatly strengthen 
our combined deterrence and readiness capabilities, 
enhancements such as fielding the PAC-3 Patriot missile system, 
coupled with the stationing of a Patriot brigade headquarters 
and a second Patriot battalion with two additional Patriot 
batteries to strengthen our theater missile defense. The 
upgrade of our Apache helicopters to AH-64 Delta Longbows 
increases the combat capability of that weapons system by 400 
percent. F/A-18 E and F Super Hornets, either carrier or land-
based, provide precision strike capabilities day and night and 
in all weather. The introduction of high-speed vessels and C-
17s facilitate rapid reinforcement of regionally positioned 
United States forces, such as the Marine Expeditionary Force or 
the Stryker brigade combat teams, by sea and by air. 
Additionally, our investment in prepositioned sets of equipment 
allows for rapid reinforcement.
    The Republic of Korea Armed Forces are also enhancing their 
capabilities with the addition of the Multiple Launch Rocket 
System, the K-1 tank, the F-15 aircraft, the Aegis cruiser, and 
the K-9 howitzer, just to name a few.
    As a result of our combined combat capability enhancements, 
the Republic of Korea-United States military committee agreed 
to transfer several Combined Forces Command missions from the 
United States forces to the Republic of Korea over the next 2 
years. These mission transfers will shape the combined forces 
to leverage each nation's specific strengths, allowing the 
United States Forces Korea to tailor its capabilities on the 
peninsula and in the region.
    Consolidating the majority of the United States forces in 
Korea into two enduring hubs is the final component of our 
transformation. This effort consists first of consolidation of 
forces and then their eventual relocation to the south, away 
from the Seoul metropolitan area, creating a less intrusive 
footprint and increasing the operational mission of our on-
peninsula stationed forces.
    Close consultation for the past 18 months between the 
United States and the Republic of Korea governments has brought 
this initiative closer to reality, as demonstrated by recent 
agreements detailing the specifics of consolidation and 
relocation.
    The Republic of Korea's own national defense strategy 
extends far beyond equipment modernization. In its 2004 
National Security Strategy, President Hyun declared his 
intention to promote a cooperative, self-reliant defensive 
posture when the Republic of Korea will assume a leading role 
in its national security. Minister of National Defense Yoon 
recently announced to restructure the Republic of Korea armed 
forces, including a 40,000-person reduction, which reinforces 
our mutual confidence in our combined capability enhancements.
    In conclusion, I want to reaffirm that the Combined Forces 
Command is trained and ready to fight and win, tonight. We are 
posturing the combined ROK-U.S. capabilities to deter and, if 
necessary, defeat any potential North Korean aggression. Our 
plan is on course to enhance the United States and Republic of 
Korea capabilities, to shape combined roles and mission by 
leveraging each alliance member's unique strengths, and while 
aligning the force for sustainable long-term United States 
military presence on the peninsula.
    Your continued support of our transformation efforts will 
ensure our sustained ability to protect the security of the 
Republic of Korea and guarantee stability in Northeast Asia. 
Thank you and I look forward to your questions.
    Chairman Warner. Thank you very much, General.
    Mr. Secretary, General Myers, and the combatant commanders, 
I commend you on a very strong case, one of the most important 
initiatives, Mr. Secretary, that you have undertaken in your 
administration.
    Mr. Secretary, I am going to ask one brief question and I 
ask that you reply as briefly as you can because I wish to 
reserve the chairman's time of 6 minutes to be utilized by me 
as I see appropriate in the course of the subsequent questions. 
My one question, Mr. Secretary: Should Congress adjust the 
current BRAC schedule and constitute a delay, would that impair 
the implementation of this program and delay the return to home 
bases of our troops overseas?
    Secretary Rumsfeld. It would be most unfortunate if there 
were to be any delay in BRAC. It would indeed delay forces 
being returned to the United States. The timing is fortuitous 
and had we not initiated this global review of our posture 
prior to a BRAC round, the BRAC round would be in the dark as 
to what might happen prospectively. Because we have the 
timing--we started 3 years ago to work on this--the timing is 
excellent and they are linked together tightly.
    Chairman Warner. Thank you. You might also in your 
expansion for the record talk about the implications for the 
negotiations with allies and other countries that are an 
integral part of this. I thank the Secretary.
    I will reserve the balance of my time.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Mr. Secretary, about a year ago in November 2003, 
acccording to a New York Times article, the Central 
Intelligence Agency (CIA) assessed at that time that the 
situation in Iraq ``is creating a more fertile environment for 
the anti-American insurgency'' and that the insurgency is 
gaining strength. That was November 13, 2003. It seemed to be a 
correct assessment at that time.
    The President the other day gave his reaction to the 
reported new intelligence assessment, and I am wondering what 
is your reaction to that reported assessment?
    Secretary Rumsfeld. I have read it. It is now a number of 
months old. My recollection is a lot of the data was 
accumulated in April and May. I have not read it recently, but 
it took various approaches, worst case and medium case and best 
case, as I recall.
    I think what I would say about it is that I recall data in 
there that pointed out that people did not like having foreign 
forces in their country, in Iraq, and that comes as no great 
surprise to me. I do not think many countries would like to 
have foreign forces in their countries for a prolonged period.
    I have forgotten whether it was in that particular 
document, but my recollection is there was very strong support 
for elections and there also was a reasonably good level of 
support for having forces remain to assure that elections 
occurred.
    A lot has happened since those months in April, May, and 
June when that was prepared. First, the Iraqi Governing Council 
is gone and the Interim Iraqi Government exists. There is a 
prime minister, there are cabinet ministers. The U.N. helped 
fashion that approach.
    Second, they have recently had 1,000 people gather and 
select a 100-person constituent assembly.
    Both of those steps, as well as the leadership that has 
been provided that the chairman mentioned with the prime 
minister who was here today, I think are vivid demonstrations 
to the Iraqi people about the seriousness of moving forward to 
elections and being able to continue to develop the Iraqi 
security forces and over time reduce the coalition forces, 
which are clearly what the estimate indicated was desired by 
the Iraqi people.
    Senator Levin. Was your reaction that that estimate was too 
pessimistic?
    Secretary Rumsfeld. I do not have a judgment on that. I 
would not say it was too pessimistic. I think there were 
various pieces of it that might prove over time to be too 
pessimistic, possibly some pieces too optimistic.
    Senator Levin. Would you say that security is better in 
Iraq today than it was 3 months ago?
    Secretary Rumsfeld. Clearly the incidents of violence are 
up, if that is what you mean by security. But the other thing 
that is up are the number of Iraqi security forces that are now 
trained and equipped, and that is a good thing.
    Senator Levin. But overall would you say the security 
situation in Iraq is better today than 3 months ago?
    Secretary Rumsfeld. First of all, it is hard to talk 
about--I should also add, Mr. Chairman, I was not aware that 
this was going to be on Iraq.
    Senator Levin. I thought that was clarified with you. It 
was our understanding----
    Secretary Rumsfeld. Not to me, and I would have been happy 
to have General Abizaid and Ambassador Negroponte join us here 
today.
    Senator Levin. It was very clearly understood that Iraq 
would be included in the subjects to be covered here today. I 
am sorry that you were not informed. We were actually told 
specifically that you were and you did have that understanding.
    Secretary Rumsfeld. Well, I do not. I did not.
    Let me go ahead and try to respond to this question, 
because it is a fair question----
    Chairman Warner. Let me address the procedure here. 
Initially when we received a request from a number of 
colleagues to have a hearing on this important subject, I began 
to establish with you the hearing date. At that time it was the 
consideration that we would cover some of Iraq and some of the 
posture review.
    But then when we arranged--and I urged the leadership to 
have you and General Abizaid and others up yesterday--it seemed 
to me that fulfilled the Senate's important need to have the 
opportunity to question you, and that took place extensively 
yesterday. So we revised the hearing notice to write very 
explicitly the hearing was for the purpose of receiving your 
report on this subject.
    Senator Levin. Mr. Chairman, there is clearly a 
misunderstanding, because that was not transmitted to us as 
being a private meeting yesterday as a substitute for a public 
meeting today. In any event, if the Secretary----
    Secretary Rumsfeld. I am happy to answer. I am happy to 
answer.
    The security situation has become--there is an increase in 
violent incidents, no question about that. I think that is to 
be expected. The intelligence has also suggested that, not just 
in Iraq but in Afghanistan and possibly other parts of the 
world. We have three elections coming up--ours, the Afghan 
elections, and the Iraqi elections, and we have seen a spike, 
somewhat of a spike, in Afghanistan as well.
    There is no doubt but the people who are determined to not 
have a free system in Afghanistan or a free system in Iraq are 
doing things to try to prevent those free systems from being 
achieved. I think that we should probably look forward to a 
continued spike in activity between now and January when they 
plan to have elections, as the prime minister said today.
    Senator Levin. Do you think that the increase in those 
attacks is evidence of desperation on the part of the 
insurgents?
    Secretary Rumsfeld. Oh, goodness, I cannot climb in their 
minds. I would not say that myself. I basically rely on the 
intelligence I get, and I think that there is a determination 
on their part to--if you think of their targets they are trying 
to assassinate government officials, they are trying to prevent 
people from being recruited to join the security forces, they 
are trying to disrupt important infrastructure, to make the 
Iraqi people dissatisfied.
    These are people who chop off people's heads. The kind of 
system they want in that country and for this world is not a 
system that anyone with any sense would want to have achieved.
    Senator Levin. I think there is unanimity on that.
    Relative to the security forces being trained and equipped, 
there has been a very slow delivery of weapons, vehicles, and 
communication devices. The figures that we have is that only 
half of the required weapons have been delivered. In terms of 
equipping Iraqi national security forces that we all want to be 
equipped--we are talking here about Iraqi national forces--less 
than a third of the vehicles have been supplied and less than a 
fifth of the communication devices have been supplied.
    I am wondering if either you or General Myers might tell us 
why it is that we are behind where our deliveries were intended 
to be at this point, as well as the recruiting and training 
itself.
    Secretary Rumsfeld. I would be happy to start and Dick 
Myers can finish. We started in effect with a need for security 
forces at the end of major combat operations. The numbers then 
went up from zero to about 206,000, and in the 206,000 were 
74,000 facility protection services that were not under our 
control in any sense. They were part of the ministries. In 
addition, there were people in that number that were not 
trained fully, not equipped fully.
    We now have a number of roughly 100,000 that are fully 
equipped and fully trained. So one reason that this has taken 
some time, obviously, is the fact that we have changed the 
goal. You used percentages. When General Casey went in, we sent 
in an assessment team to determine what numbers of police that 
country ought to have, what numbers of army, what numbers of 
border patrols. The original numbers that the Coalition 
Provisional Authority (CPA) and the Iraqi Governing Council had 
developed in my judgment proved to be too low. We raised those 
numbers. So the percentage of accomplishment has dropped. That 
is one reason.
    A second reason is we have been basically functioning out 
there with peacetime rules and one of the major contracts I am 
told was challenged, which caused it to be delayed for some 
period of a number of weeks under the normal procedures that we 
have.
    I personally have a high degree of confidence in General 
Casey and General Petraeus and the program they have in effect. 
I think it is about right. The Iraqi government has generally 
agreed, although they would prefer some more heavily mechanized 
units than may be in the current program. They have a timetable 
which is available on the web site for anyone to see as to what 
we think it will evolve over time. They are looking for in 
January, I believe, 145,000, up from the 100,000 today, and by 
August of '05 up to 202,000 that will be fully trained and 
equipped.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    General Myers. The only thing I would add to that is last 
spring--and I think we have testified in front of the committee 
on this before--it was decided, decided by those of us 
involved, that we needed a more holistic approach to the 
security forces. So the responsibility for training the police 
and the border folks all came under the Department of Defense.
    Since that time, of course, we have General Petraeus over 
there. Equipment is now arriving at a fairly rapid rate. We 
said it would take until September to get the contracts in 
place and get the equipment started to move. It is moving 
fairly well right now.
    The one item I think that is before Congress is the $1.8 
billion reprogramming--I think you mentioned it, Senator 
Levin--to reprogram some of the reconstruction money into the 
security sector because it is so important, and that is to meet 
the new force levels that the Interim Iraqi Government has 
decided it needs. They did it in consultation with us because 
we have division commanders on the ground that make very 
valuable inputs to this whole equation.
    I think we are in pretty good shape right now. If we get 
the $1.8 billion, if we can keep the contracts flowing, if we 
get the contracting people over there that we need to get over 
there, we will be okay.
    Senator Levin. Thank you.
    Chairman Warner. Senator Levin, if I could add, at our 
luncheon meeting with the prime minister he specifically said, 
Mr. Secretary, that he approached our Government and said that 
he would want to increase substantially the number of 
battalions to meet his projected security needs and that, while 
you sent General Petraeus in with one level, when the Allawi 
government took charge they decided to raise that very 
substantially.
    Secretary Rumsfeld. That is under discussion now.
    Chairman Warner. That is correct.
    Secretary Rumsfeld. The other thing I would say, it is easy 
to count numbers of people manned, it is easy to count 
equipment, and it is easy to count number of weeks of training. 
The tough stuff is the soft stuff. It is the chain of command, 
it is the leadership structure, it is do you have generals and 
colonels and noncommissioned officers and people in an 
integrated, well-staffed capability that they can manage their 
affairs. That--in the ministry of interior and in the ministry 
of defense. Reality tells me that that is going to be the 
toughest part of this puzzle, not simply buying trucks and 
weapons.
    Chairman Warner. Thank you.
    Senator McCain.
    Senator McCain. I want to thank the witnesses.
    Mr. Secretary, I was very pleased to hear your comments in 
response to Senator Warner's question about the necessity of 
BRAC. Would you recommend a veto if the defense bill came to 
the President that had a 2-year delay in BRAC?
    Secretary Rumsfeld. Oh, I certainly would. It would be a 
terrible thing, Senator.
    Senator McCain. Thank you very much.
    Mr. Secretary, did you happen to see today's Reuters story, 
``The United States and Japan have detected signs that North 
Korea is preparing to launch a ballistic missile with a range 
capable of hitting almost all of Japan''?
    Secretary Rumsfeld. I did not see the Reuters story. I have 
been told about that.
    Senator McCain. The reason why I bring this up is at a time 
of withdrawal of troops we obviously are seeing increasing 
bellicosity and lack of cooperation on the part of the North 
Koreans, who are unpredictable at best, which raises the whole 
issue of personnel that I am extremely concerned about.
    I think we all appreciate that we are going to be in Iraq 
for a long period of time in significant numbers. We now, for 
the first time in history, have the largest percentage on a 
sustained basis of Guard and reservists as part of our Active-
Duty Forces, some 40 percent in Iraq. We are calling up people 
on active duty who are members of the Individual Ready Reserve 
(IRR), who thought that they would never ever be recalled to 
active duty. We have a thing that some call a back-door draft 
and that is a ``stop loss'' where people are being required to 
remain on active duty past their enlisted time.
    Meanwhile, there are units, such as the Second Brigade of 
the Tenth Mountain Division, who have been home for 208 days 
between more than year-long deployments in Iraq. The impact of 
this, anecdotally, is very serious on recruiting and retention, 
and now facts are emerging. The Guard recruiting fell 12 
percent below their goals in the first three quarters of 2004. 
The delayed entry program for the United States Army is well 
below its goals for this year.
    We have authorized an increase and so has the House in 
active duty personnel. We have 30,000 individuals in addition 
on active duty through various ways that we have all been made 
aware of, 30,000 additional for some ``temporary'' time.
    My point is, Mr. Secretary, that if something happens in 
Korea--the Iranians are now thumbing their nose at the 
International Atomic Energy Agency (IAEA) in their 
Nonproliferation Treaty violations--that the strain on our 
active duty, Guard, and Reserve Forces are incredible as we 
speak, and there are very few people that I know who believe 
that we can sustain the level of deployments that we are having 
just to Iraq. Then we have a problem with Korea or with Iran or 
another flashpoint in the world and it is clear, at least to 
most observers, that we do not have sufficient personnel, 
despite the efficiencies which you have so well and graphically 
described.
    Now, I can only quote Colonel Rob Baker, commander of the 
Second Brigade, First Armored Division, who knows something 
about the personal costs of extended combat tours. After 
spending 19 of the past 20 months deployed in Iraq and the 
Middle East, he recently returned home and found himself unable 
to pick out his youngest daughter in the ``welcome home'' 
crowd.
    Baker said: ``I know the strains that back to back 
deployments can put on a great relationship and a great family. 
There is a threshold beyond which people will say `I just 
cannot give any more.' ''
    Now, we are hearing, Mr. Secretary, that good and decent 
and wonderful and brave and patriotic and sacrificing Americans 
who are serving in the military are saying that they cannot 
keep up this level of deployments. Much larger percentages of 
military personnel than was in past conflicts are married, and 
many of them with children.
    Now, I am very concerned about the personnel situation in 
the military, and I would be glad to hear from General Jones 
and Admiral Fargo and General LaPorte as well.
    Secretary Rumsfeld. Thank you, Senator. This is an 
enormously important issue. It is true that there has been 
modest use of the individual ready reservists and there very 
likely will be somewhat additional use of individual ready 
reservists. They all knew from the beginning when they signed 
up, as I did, to be a reservist that for a period after you are 
in the Selected Reserve you are available in the Individual 
Ready Reserve.
    With respect to stop-loss, that is not new. It has been 
used for decades, as I understand it, by the military, and it 
is aimed at unit cohesion. It has not had a significant effect 
to my understanding.
    All of us are deeply sensitive to the things you are 
raising and that is why we have something like 30 different 
things going on to reduce stress on the force. We mentioned 
some in my testimony: the movement of military jobs to civilian 
jobs so that more military are available; the rebalancing of 
the Guard and Reserve.
    The fact is we have 1.4 million on active duty, we have 
850,000 in the Selected Reserve, we have another 450,000 in the 
Individual Ready Reserve, for a total of over 2.5 million 
people, and we are only putting 250,000 in the U.S. Central 
Command Area of Responsibility (CENTCOM AOR). So we have a lot 
of people that have not been called up in the Reserves ever. We 
have a lot of people who are not being used. What we need to do 
is better manage the force.
    To the extent, as you also indicated, we have increased the 
total size of the force, we have had to under the President's 
emergency authority so that we could meet our demands.
    If we need to increase the size of the force, we need to 
increase the size of the force, and I am all for it. It would 
pain me to do it when we have so many portions of the force 
that are not being properly used, and I would much prefer to 
see us do that.
    I am not knowledgeable about the numbers you used in 
recruiting and retention, but when I talk to General Schoomaker 
he tells me that his recruiting and retention numbers are 
pretty good, quite good, except in one or two categories, and 
that he does not at the moment see a particular problem.
    Do you want to comment, Dick?
    Senator McCain. I do not need General Myers' response. I 
know it will be exactly the same as yours. I would like the 
personal opinions--and I do not mean that as in any way a 
criticism, General Myers. I would like the personal opinions of 
the other combatant commanders if I could, since my time has 
expired.
    Chairman Warner. I think that I will grant from my time the 
opportunity for General Myers to reply.
    General Myers. I have a few numbers here that might help. 
Retention of Reserve Forces: They have targeted ceilings for 
loss. They are under those. They could be impacted, those 
numbers could be impacted, by stop-loss. When they come back 
and stop-loss is taken off that could change that.
    The Army National Guard is the one area where the 
recruiting is the tightest right now. They probably will not 
make their goals this year. On the other hand, they are going 
to be within 2 percent of their end strength. So there are lots 
of numbers you could use to look at these things.
    I think what Senator McCain said is very valid. What we 
have to do is look out beyond what we know and try to predict 
what our retention is going to be. This would be a very serious 
matter if we wind up in a year or 2 and we do not have the kind 
of force that we need, particularly in the Reserve component, 
because they are not built overnight and they are so essential, 
I think, to the way we do our military business in this country 
and connect us to our citizenry.
    Senator McCain. Mr. Chairman, before the other witnesses 
respond, I did not mean it as any slight to General Myers. I 
apologize, General Myers, if I did. I was interested in the 
operational aspect of the commands, and I apologize. I always 
value your opinion.
    The chairman does not like me to practice, as I usually do, 
running over the time allowed me rather significantly. I 
apologize, General Myers.
    Chairman Warner. We will now hear from the other combatant 
commanders.
    Admiral Fargo. Mr. Chairman, Senator, this is something we 
are watching very closely, looking at all of the metrics. It is 
a concern. I think we are fortunate in the Pacific that the 
naval forces and the air forces have largely been reconstituted 
from their work in CENTCOM and so they are essentially full up. 
We have used those forces in the Pacific to compensate for the 
stress that we recognize is on the ground forces right now, and 
that is the reason you have seen things such as the bomber 
deployments to Guam, the rotation of the John C. Stennis into 
the western Pacific. She will be backfilled by Abraham Lincoln 
later on this year.
    Senator McCain. I was asking about effects on retention and 
morale.
    Admiral Fargo. Yes, sir. The numbers right now remain high. 
The retention certainly in all of the armed services in the 
Pacific Command are above, well above, historical norm.
    Senator McCain. Thank you.
    General LaPorte. Senator, it is hard to dispute the 
anecdotal comments of people who have had great separation. I 
reflect back on the separation that the World War II generation 
had in terms of family.
    Senator McCain. Which happened to be a declared war.
    General LaPorte. The issue of increasing the size of the 
military I think is more an issue of increasing the 
effectiveness of the military. That includes the size dimension 
and we are growing the Army. But it also includes an issue of 
increasing effectiveness relative to the organizational 
structure, the capabilities, and the access of those 
capabilities. Those are programs that I am convinced General 
Schoomaker is working very diligently.
    In terms of the impact on retention, in my command, 
retention is extremely high. I will quote an example. We 
instituted a policy where we asked soldiers to increase their 
voluntary stay in the Republic of Korea. We called it the 
assignment incentive program. We began that program on 15 
March. Up to today, we have had 8,700 soldiers and airmen 
voluntarily extend their tour of duty in Korea by 1 year and 
2,000 of those extended for 2 years.
    That is a volunteer willingness to accept personal 
sacrifice. I think that is a pretty good indication of the 
dedication of our young men and women.
    Chairman Warner. Thank you.
    General Jones.
    General Jones. Senator, in the European theater 
reenlistments and retention across the components appear to be 
satisfactory. We do have, we have had for some time, a greater 
reliance on Reserves and National Guards, to be absolutely 
truthful. However, we do have some good news coming with the 
situation in Macedonia being fairly well resolved, Bosnia is 
now coming to a closure in terms of our reliance on large 
numbers of U.S. troops, so I think that will help relieve some 
of the strain.
    The greatest impact with regard to Afghanistan and Iraq 
with regard to European forces has been on the U.S. Army and 
the U.S. Air Force. We have seen, obviously, two full Army 
divisions committed in Iraq and we have other forces that are 
training now, getting ready to take a rotation back into 
Afghanistan.
    One of the things that I think makes the retention picture 
and the reenlistment picture good is that Congress and the 
Department of Defense and the Services have worked together to 
I think create family support programs and quality of life 
programs that have really helped over the past 5 or 6 years, 
have been instrumental--I am always tremendously impressed at 
the support system that is available to the families, whether 
it is in Germany or in the continental United States.
    Having said that, obviously there are only so many people 
in the force and if you use it at a cyclic rate you have to be 
very careful because at some point you could overuse it, and I 
think all of us are very sensitive to that.
    Chairman Warner. Thank you very much.
    General Myers. Mr. Chairman, one more comment, if it is 
permissible.
    Chairman Warner. Yes.
    General Myers. With respect to Korea in particular, but our 
war plans in general, one of the things the Joint Chiefs of 
Staff do as we deploy forces around the world, particularly to 
the Central Command, is take a look at our ability to support 
those other war plans that we know we might have to fill. We 
look at this periodically to make sure we can do that.
    With regard to the Korean war plan in particular, there 
should be no doubt that we have the forces to respond to that 
contingency if we need to do that. That is something that we 
measure and we look at regularly.
    Chairman Warner. Thank you very much.
    I will charge those responses, add it to my time.
    Senator Kennedy.
    Senator Kennedy. Thank you very much.
    Welcome, Mr. Secretary. Listening to Prime Minister Allawi 
this morning and the Secretary brief to Congress yesterday, as 
the chairman pointed out, it seems like we are operating in two 
different worlds. Yesterday we heard from Secretary Rumsfeld 
and others that the military never lost a battle and elections 
are on schedule, and today we heard from Prime Minister Allawi 
saying that we are succeeding in Iraq. Notwithstanding what the 
administration says, the July National Intelligence Estimate 
makes clear that, as bad as things are now, they could get 
worse. As the press has reported, the intelligence estimate 
paints a very different picture.
    For example, the Washington Post said last Friday, the 
intelligence estimate: ``Iraq's prospect for stability and 
self-governance over the next 18 months were at best tenuous, 
according to U.S. Government officials who had read the 
report.'' The report identified serious problems in recruiting, 
training an effective Iraqi army and police force, and 
establishing a competent central government, rebuilding 
significant infrastructure.
    Today the Congressional Quarterly said about the estimate: 
``It forecasts three scenarios for Iraq, ranging from continued 
violence at current levels to civil war.''
    Now, I am bringing this up, Mr. Secretary, because I 
listened to the report yesterday, then I went down and read the 
NIE report, and I have quoted the public documents that are out 
in the record now characterizing it.
    The report also included some unclassified polling data 
that was collected by the CPA, and the CIA obviously felt it 
was valid enough to include as part of the intelligence 
estimate, and it certainly rings an alarm bell about the lack 
of support for our mission. I have an unclassified version of 
that page and it shows that over 90 percent of the Iraqis view 
us as occupiers, not liberators. It shows that nearly 50 
percent of the Iraqis view insurgent attacks as an attempt to 
liberate Iraq from U.S. occupation. It says that over 75 
percent of Iraqis believe that insurgent attacks have increased 
because Iraqis have lost confidence in the coalition, and the 
number of Iraqis who want us to leave immediately has grown 
dramatically--all in that chart--and support for the coalition 
has declined dramatically.
    Yet President Bush dismissed the ominous parts of the 
estimate, saying the CIA was just ``guessing'' what conditions 
might be like. Today he said he should have used a better word, 
``estimate,'' not ``guess.''
    The intelligence estimate is not the only alarming sign 
that conditions in Iraq have gone from bad to worse. During 
August, 900 American troops were killed or wounded. The numbers 
keep going up, not down. The same month our forces were 
attacked an average 70 times a day, far more than the previous 
year. The Schlesinger report, which you commissioned, says that 
senior leaders in the Department of Defense failed to see the 
insurgency growing in Iraq last year.
    We know that after heavy fighting our troops withdrew from 
Fallujah, which has allowed the insurgents to regroup and 
gather strength. Other cities in the Sunni Triangle remain 
violent and dangerous.
    Yet all we hear from the administration are rosy scenarios. 
The reality is much worse and the administration failed to plan 
for it. We seem to be closer to mission impossible rather than 
mission accomplished. The failures so far have made our job and 
the job of Prime Minister Allawi far more difficult.
    So let me ask you, how do you explain the huge discrepancy 
between what you say and what we see, and how can whatever 
government is elected be seen as legitimate if large parts of 
the population do not feel safe enough to vote?
    Secretary Rumsfeld. First of all, I do not agree with your 
premise that there is a wide disparity between what I say or 
what General Abizaid said yesterday and what the prime minister 
said or what the NIE said. Is the glass half empty or half 
full? Is it dangerous? Yes. Are people being killed? Yes. Is it 
a violent country? You bet. Were there 200 and some odd people 
killed in Washington, D.C., last year? Yes. Were they on the 
front page of every newspaper? Were they on the television 
every night? No.
    Now, first of all on the data in the classified material 
you cited to----
    Senator Kennedy. Just on this point, just on your point 
about everything----
    Chairman Warner. Let us give the Secretary the opportunity.
    Secretary Rumsfeld. Just a minute. This data is probably 4 
or 5 months old, probably April, May, say May. So it is June, 
July, August, September.
    Number two, the data that you cited comes from three 
cities--Baghdad, Basra, and Mosul. It does not come across the 
entire country.
    Is the data probably right? Yes. Was it right then? 
Probably. Is it true today? I do not know. Do polls swing 
around depending on the circumstance? You bet.
    Is this exactly what the terrorists want to have happen? 
Yes. They want to have the people of the country lose heart. 
They want to have the people of the country decide that the 
terrorists and the extremists are going to win and that the 
free Iraqi government and the coalition forces that are trying 
to help that country are going to lose, and it is a test of 
wills.
    Now, I do not believe that you have heard from General 
Myers or me or others, even General Abizaid, a rosy picture. 
You cannot think it is a rosy picture when you see people 
killed every day, and we understand that. I think it is a 
mischaracterization.
    Senator Kennedy. Let me point out, this is what the 
President said, August 23: ``We are making progress on the 
ground.'' August 24, the Vice President: ``We are moving in the 
right direction in Iraq.'' September 14, Don Rumsfeld: ``I am 
very encouraged about the situation in Iraq.''
    I could continue to read these. I am also talking about the 
growth of violence, and I am also saying that that poll was--I 
am not pulling that poll out. That was in the NIE report, Mr. 
Secretary. Evidently the CIA thought it was of at least some 
value.
    Secretary Rumsfeld. It is.
    Senator Kennedy. So we ought to include it in the report.
    Secretary Rumsfeld. That is fine.
    Senator Kennedy. The point that you cannot get away from is 
the dramatic increase in violence. You might be able to dismiss 
a poll, but we have this dramatic increase of violence.
    Secretary Rumsfeld. I did not dismiss the poll, Senator.
    Senator Kennedy. I am talking now about the violence.
    Secretary Rumsfeld. I said it was probably accurate when it 
was made.
    Senator Kennedy. Okay. Let us put it in whatever 
perspective you want.
    Secretary Rumsfeld. Okay.
    Senator Kennedy. Let us get to the dramatic increase in 
violence. That is the violence has increased.
    Secretary Rumsfeld. Yes.
    Senator Kennedy. No two ways about it.
    Secretary Rumsfeld. That is right, I said that.
    Senator Kennedy. It has increased. It has increased and it 
continues to increase.
    Secretary Rumsfeld. General Abizaid said it yesterday in 
the hearing you were attending. We all say that.
    Senator Kennedy. Well, what is the plan? What is plan B 
then? How are we going to get people out to vote with the 
dramatic increase in violence in these places? How are we going 
to expect that you are going to have a real election in 
Fallujah when you have the dissidents and the insurgents 
controlling it today? How are you going to have elections 
there?
    Secretary Rumsfeld. Let me see if I can respond this way. 
The situation in Iraq is notably different in different parts 
of the country. It is not a single picture. It is quite 
different. The prime minister today said that he believed that 
in a large fraction of the total provinces elections could be 
held today.
    Now, when the elections are held in January it may be that 
some of those provinces have higher levels of violence. But you 
can--I believe he is right, the prime minister, that you will 
be able to hold elections and that there will be elections in 
January. As he said today, everyone said you could not go past 
sovereignty. We did it. We passed it 2 days early. They said 
you could not hold a conference of 1,000 people and pick 100 
people for the constituent assembly. They did it.
    They have met every single benchmark politically. They are 
making progress. Now, they are making progress at a time when 
the people, the extremists, are trying to chop people's heads 
off. Does anyone think that is a good idea, to chop people's 
heads off, to encourage that? I do not. I think it is a 
terrible thing.
    But it may be--I should not even say this, because I just 
do not know enough about it. This is something that the 
ambassador is working on. But let us pretend hypothetically 
that you get to election time in January and let us pretend 
that it is roughly like it is or a little worse, which it could 
be because you have to expect it to continue. They are not 
happy the way it is going. They do not want a government 
elected in that country. Badly they do not want that.
    Let us say you tried to have an elections and you could 
have it in three-quarters or four-fifths of the country, but 
some places you could not because the violence was too great. 
Well, so be it. Nothing is perfect in life. So you have an 
election that is not quite perfect. Is it better than not 
having an election? You bet.
    Senator Kennedy. Are you planning to have more troops?
    Secretary Rumsfeld. I do not have a plan for troops or more 
or less.
    Senator Kennedy. For the elections?
    Secretary Rumsfeld. I know that General Abizaid has said 
that it may be that he will want some more troops. He is 
getting more troops every day. If you think about it, the Iraqi 
forces are now the biggest part, almost the biggest part, the 
second biggest part, of the coalition. We have 39,000 police 
trained, equipped, and on duty. You have 14,000 border guards 
trained, equipped, and on duty. You have 5,000 in the army 
trained, equipped, and on duty. The national guard has 38,000. 
The intervention force has 2,000. The special ops has 500.
    That number will keep growing, so there will be more troops 
by time of election. It will be somewhere between 110,000 and 
140,000, I would guess, Iraqi troops, forces of various types.
    Coalition forces, I do not know. Some forces have said they 
will come in to help protect the U.N. Some countries are 
considering whether they want to bring in forces to help with 
the election. In the event General Abizaid decided he needs 
more forces to assist in the elections, like he has for example 
in Afghanistan, he will ask and he will get it.
    Chairman Warner. Thank you very much, Senator.
    I would like to take a minute of my time. I likewise was 
concerned about the NIE and I asked the Department of State to 
provide me with their comments, and I received the following, 
which I will put into the record. This is dated September 8, 
which presumably is quite current: ``Polls show that a large 
majority of Iraqis have a positive outlook on their young 
democracy and the elections that are to take place by January 
2005. More than 77 percent of respondents feel that regular 
fair elections would be the most important political right for 
the Iraqi people. 58 percent feel that the democracy in Iraq is 
likely to succeed.''
    Also, in meeting with the prime minister, all of us studied 
his distinguished biography. You talked about chopping off 
heads. Saddam Hussein tried literally to chop his off one time 
and he suffered a terrible injury, requiring over a year of 
hospitalization. I mention that only because when you look into 
the faces of the prime minister and the ministers that he had 
with him today, every one of those men are operating as best 
they can voluntarily, under extraordinary personal threats to 
them individually.
    So I think they exhibit the will of the Iraqi people to 
succeed under these difficult circumstances.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    I would like to get back onto the subject of your Global 
Posture Review and kind of take us back to the very start. The 
previous administration I understand had examined whether to 
consider reordering their Global Posture, but had determined 
that such an effort would be difficult. What motivated you, Mr. 
Secretary, or the President, to consider reordering our global 
posture, and explain to us why this is so important in today's 
environment?
    Secretary Rumsfeld. Senator, anyone who looked at where our 
forces were left at the end of the Cold War had to know that 
they were not where they ought to be.
    Second, we have to be respectful of taxpayers' dollars.
    Third, it seems to me that we have to be respectful of the 
men and women who volunteer to serve in the military, and to 
the extent we can reduce stress on the force by reducing the 
number of permanent changes of station for people and create a 
life that is somewhat better for the spouses, so they will not 
have to change jobs so frequently, and for the kids that do not 
have to get jerked out of high school, that we owed it to them.
    Fourth, we have found that, as we have gone along, our 
needs are different. We were planning to fight in place in 
Korea and Europe. We are no longer planning to fight in place. 
We know the odds are we are going to fight somewhere other than 
where we are located. That means we simply must have the kind 
of usability of our forces. We have to be able to get them out 
of there and get them where they need to go and get them fast, 
and not have a big debate with a neighboring country about 
whether or not you can use rail across their country because 
their sensitivities are bothered by something.
    We also want people where they are wanted. Our forces--we 
are going to have better recruiting and better retention if 
they are in places where the people want them there.
    Furthermore, it seems to me that the 21st century does not 
call for the permanent deployment of heavy forces. We are going 
to have to be agile, we are going to have to move fast, we are 
going to have to be able to go where the problem is.
    I would submit that no one on this committee asked 
Secretary Cheney when he was being looked at for Secretary of 
Defense about Iraq, and yet he ended up in a war in Iraq. No 
one asked me about Afghanistan. If that does not tell you that 
it is not possible to know where a threat is going to come 
from--we are going to have to deal with capabilities that 
enemies have that are increasingly lethal and dangerous, but 
can come from any number of locations.
    As a result, I just felt compelled to push this. The 
President and I talked about it. It is an incredibly difficult 
task. It is so complicated and so difficult to deal with so 
many countries and so many committees of Congress. It is going 
to cost some money, let there be no doubt.
    So it is not something where you get up in the morning and 
say, ``Gee, I think I would like to go change the force posture 
of the United States of America.'' This is something we had to 
do, and we are doing it.
    Senator Allard. Mr. Secretary, when do you think you will 
be able to implement the Global Posture Review? I would like to 
hear comments from the other members on the panel here. Then 
also, when do you anticipate the reorienting of our forces will 
be completed? Again, I would like to have the full panel 
respond to those two questions.
    Secretary Rumsfeld. I can give you a short general answer 
and it is that I do not know. What we have to do is we have a 
theory as to where we prefer to be arranged and with what 
countries and in what ways. We have other choices. We have 
options. We will go to those first choices first, and if we can 
get an arrangement that is satisfactory in terms of usability 
and cost we will do it. If we cannot, we will go to our second 
choice and work that out. We will call audibles as we go along.
    It will play out probably over a period of 6 to 8 years, is 
my best guess.
    Senator Allard. Do any other members of the panel have any 
comments on when we start implementation? Yes, General Jones?
    General Jones. Senator, some of the elements of the plan 
actually can already be considered to be under way. The Navy 
and Air Force component headquarters have begun--we have begun 
streamlining them. These are things that are important to do in 
order to modernize our headquarters and transform them into 
actual warfighting headquarters.
    We have conducted exercises in Eastern Europe to test a 
rotational concept. So we are doing a lot of things to get 
ready for the majority of the work. We are negotiating--we are 
talking to our allies and friends and making sure that they 
understand the intent and how this is beneficial.
    Also, in Europe this is extremely closely watched by our 
allies because it also affects the transformational plans of 
the North Atlantic Treaty Organization. We have many countries 
that we work with on a regular basis, particularly the newer 
members from the eastern part of Europe, who are very 
interested in reducing the size of their armies, principally, 
and transforming them into capabilities that are much more 
usable and much more expeditionary. The United States Army in 
Europe, which forms the bulk of our transformation, is really 
the model that others are looking for to try to emulate.
    This is going to take a long time. It is not something you 
can rush into. But it is definitely something that we feel is 
worth doing.
    Senator Allard. Admiral?
    Admiral Fargo. Senator, just as General Jones has said, 
some of our efforts are already under way, and I think I 
mentioned in my opening statement that we have already moved 
two of the three submarines to Guam. We have rotational bomber 
elements in Guam right now. The Stryker brigades are being 
formed and trained and they will be in position early. We just 
broke ground on C-17 facilities in Hawaii.
    So this is the early, the leading edge of this. I think the 
rest of it will occur probably over about a 10-year period. I 
think that is a fair estimate of how long it will take to 
conduct this complex and extensive change.
    Senator Allard. I know my time has expired, but I just want 
to follow up this question if the chairman will allow me. The 
press has reported there will be 70,000 they think may be 
returning back to the United States. Can you comment about that 
figure that has been put out there, and if it is close to true, 
what impact it may have on what facilities we already have in 
this country?
    Secretary Rumsfeld. I can comment on it. You have been 
given a report from the Department on this that has a 
classified attachment. The classified attachment will give you 
the details in each country that is a theory, a first choice.
    Chairman Warner. Excuse me. I have it here in my hand. I 
was about to mention it. It is in the committee files that 
arrived a few days ago and it gives an outline of those options 
together with the figures and the locations.
    Secretary Rumsfeld. But we have said broadly, Senator, that 
70,000 is about the right number that would be moving from an 
overseas post to a possession or a State of the United States, 
plus another 100,000 dependents. If I am not mistaken, the 
number of installations, meaning any kind of facility--a base, 
a radar antenna, radio antenna, could be a storage facility--we 
are going to go from something like 560 down to 360 outside of 
the U.S. Think of the advantage from a force protection 
standpoint--enormous.
    Chairman Warner. Thank you, Mr. Secretary.
    Senator Allard. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    We now have Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. Gentlemen, thanks for being here.
    Mr. Secretary, I applaud you for going forward with the 
Global Posture Review and committing to implementing it. In a 
lot of ways it is long overdue. It makes sense as part of a 
general transformation of our military.
    I noted, I believe in response to Senator Allard, that you 
said there is a lot of work to be done with many countries and 
many committees of Congress. I wonder which was harder work? 
[Laughter.]
    You do not have to answer that question.
    I wanted to ask you about what the fiscal implications of 
this Global Posture Review will be, both short-term and longer-
term, insofar as you are able. In other words, I assume that in 
the shorter-term there are some significant costs associated 
with moving the personnel around, and I would like to hear 
something about that. But then what about the longer-term? Are 
there savings potentially involved here or not?
    Secretary Rumsfeld. There are. If one thinks--I do not know 
what the average cost of a permanent change of station is, but 
if you think of the reduction in the total number of permanent 
changes of stations and moving vans and dependents, 100,000 
dependents back in the U.S., it is significant savings.
    Now, the cost is greater than the savings during the 
immediate period, which is always true. The same is true with 
BRAC. We do not know the number because we do not know which of 
the options we will end up landing on. But there has been a 
wild guess and I think it is in the material that has been 
given to you and I would rather not say it because I am sure it 
will be wrong. But it is a very, very, very modest percentage 
or percentage of a percentage of the Future Years Defense Plan.
    Now, the Future Years Defense Plan is very big, so I am not 
suggesting it is a small amount of money. It is in the 
billions. But part of it will depend on how much other 
countries will pay and part of it will depend on--the other 
advantage, of course, is we will be filling bases that would 
then not be BRAC'ed.
    Senator Lieberman. Right.
    Let me come back to another one of Senator Allard's 
questions. The total number redeployed is 70,000. Obviously not 
all, I presume, are coming back to the U.S. A number will be 
redeployed elsewhere.
    Secretary Rumsfeld. The U.S. or U.S. possessions.
    Senator Lieberman. Right.
    Secretary Rumsfeld. That is a net number worldwide.
    Senator Lieberman. So the net will not just be redeployed--
the 70,000 is a number that will go to U.S. or U.S. 
possessions, not to other foreign countries?
    Secretary Rumsfeld. Exactly. There will also be moves among 
foreign countries.
    Senator Lieberman. Right.
    Secretary Rumsfeld. But that is in addition to the 70,000.
    Senator Lieberman. Okay. I appreciate that clarification.
    In terms of calculating the cost and considering the 
agility that, as you describe and have been committed to, that 
we need in our military forces, is there a concern that we 
should have that it will cost more in a time of crisis to 
deploy forces from the U.S. as opposed to forward-deployed 
positions around the world closer to potential crisis spots?
    Secretary Rumsfeld. Let me say two things in that regard. 
First, let me go back to the first question. We always have to 
look at what it costs to do it. We also want to look at what 
the costs would be if we did not do it. The cost if we did not 
do it would be that we would continue for another 50 years 
malarranged in the world, arranged for the last century, not 
the current century, and have a considerably greater stress on 
our force. That cost is significant.
    I am sorry, I lost your----
    Senator Lieberman. My question is, is there not a concern 
that if we move that many net numbers back to the U.S.----
    Secretary Rumsfeld. Yes, in terms of deployment.
    Senator Lieberman. --that it will cost more to deploy them 
in a crisis.
    Secretary Rumsfeld. Our people do not think so. For 
example, if you have to go from Germany up north and then 
around into the Atlantic Ocean and then down into the 
Mediterranean and then over to the Middle East, it is about the 
same distance as from the United States.
    Second, we do not know where we are going to have to use 
these forces to fight and therefore you cannot know what the 
cost would be unless you know where it is you are going to be 
going. That is, as I have said, something that is difficult to 
nail down at any given time.
    Senator Lieberman. General LaPorte, I want to ask you a 
question because I have a question about Korea, but I also want 
to ask you a question because Senator Reed loves to hear you 
speak because you are from Rhode Island. [Laughter.]
    The question is this. There have been concerns, as the 
Secretary and I think you may have said, about moving 
approximately 12,500 of our troops out of South Korea when the 
North Koreans, Kim Jong Il, seem to be in an aggressive, 
certainly unpredictable, posture. I wonder to the extent you 
are able to describe to us why we should not have those 
concerns. In other words, what will we continue to have on the 
ground in the region, that if there is some aggressive action, 
hostile action by the North Koreans, that we should not worry 
that we have 12,000 fewer boots on the ground there?
    General LaPorte. Senator, that is a very fair question. In 
Korea I often use a translator and Senator Reed thought I might 
need a translator for this committee. [Laughter.]
    There are tremendous capabilities resident on the Korean 
Peninsula. As I mentioned, the Republic of Korea military is 
over 600,000 strong. They are a very capable military, well-
led, well-equipped, highly motivated. We should never forget 
that.
    In terms of the reduction of 12,500, the capabilities that 
are resident in the region that are provided by Pacific 
Command--there are seven United Nations bases, for example, in 
Japan. Those bases have tremendous capabilities, rapid 
reinforcement capabilities, to the peninsula, as well as our 
strategic deployment capability.
    So I am very confident that this reduction will not 
increase risk. Kim Jong Il has always had a strategy of 
provocation. For years that is what he does. He will continue 
to do that regardless of the number of forces that are resident 
on the peninsula.
    Senator Lieberman. Let me be specific on this one. Moving 
troops away from the demilitarized zone (DMZ) and Seoul south 
50 miles, what are the plusses and minusses of doing that?
    General LaPorte. The plusses are we could not be tactically 
fixed by North Korea's artillery, first of all, because we 
would be out of the range of the artillery and we would have 
the operational agility to go where we need to go.
    Second, it gives us better training opportunities. We went 
to ground 50 years ago and we stayed there for 50 years. We are 
used to being at the end of dusty trails. Today those camps are 
surrounded by urban development and we have become an irritant 
to the Korean people when we crank our helicopters, fire our 
tanks. So we need to move to an area that is less intrusive and 
gives us an opportunity to train better.
    Senator Lieberman. So moving south is not only not a 
diminishing of our capacity to stop a potential North Korean 
move on the ground south, it actually puts us in a better 
position to respond to it?
    General LaPorte. That is correct, Senator.
    Senator Lieberman. Thanks. Thank you all.
    Chairman Warner. Thank you very much, Senator.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Mr. Secretary, I know I am not the only one who worries 
that in a political season about the debate over our policy in 
Iraq what impact the negativism and the doom and gloom that we 
hear preached in some quarters has on our troops. So I think we 
have a special responsibility, those of us who serve in public 
office, to make sure that we do what we do responsibly.
    But it does have an impact on people all across America as 
well, because they wonder how much of this doom and gloom as 
opposed to what we heard from Prime Minister Allawi this 
morning about positive steps and progress in Iraq--what is the 
truth. For example, yesterday afternoon I had a constituent of 
mine call me from Lubbock, Texas, because he heard yesterday 
that it is possible that the President would reinstate the 
draft to handle the war in Iraq if reelected. This statement 
followed on a charge last week that the President is planning a 
surprise post-election callup of additional Guard and Reserve 
troops.
    Mr. Secretary, would you state for the record, are there 
any plans for a post-election callup of additional Guard or 
Reserve troops, and is there any plan to reinstate the draft?
    Secretary Rumsfeld. Let me take the first one on the draft 
and I will leave General Myers to talk about how we are 
managing our force rotation.
    I am not supposed to get in politics, but it is absolutely 
false that anyone in this administration is considering 
reinstating the draft. That is nonsense. We have 295 million 
people in the United States of America. We need 1.4 million 
people to serve in the Active Force. We are having no trouble 
attracting and retaining the people we need. If we were 
managing this force better--and it takes years to rearrange it 
properly. It has been malorganized, malarranged as between the 
active and the Reserve components, and we have too darn many 
people in uniform doing civilian jobs. If we have to increase 
the numbers above 1.4 million we can do it under the emergency 
authority.
    We are not having trouble maintaining a force of 
volunteers. Every single person is a volunteer. We do not need 
to use compulsion to get people to come into the armed 
services. We have an ample number of talented, skillful, 
courageous, dedicated young men and women willing to serve, and 
it is false.
    General Myers. On continued callup of the Reserve component 
and the active duty, what we have done is try to build in as 
much predictability as we can, both for Active Forces and for 
our Reserve component forces. There will be more Guard and 
Reserve callups in November, in December, in January, and for 
as long as we need forces to provide to General Abizaid or any 
of the other combatant commanders that are sitting here with 
me.
    So yes, there will be. None of them have been delayed for 
any reason. This is a process that has been consistent now for 
about the last year. There were callups in September. There 
will be some in October, there will be some in November. So 
yes, it will continue on as we continue to feed forces to the 
combatant commanders to do what they need to do.
    But what we are really trying to do is get ahead of the 
whole process so we can provide predictability, particularly 
for the Reserve component, who have to in many cases leave 
civilian jobs and their families not near military 
installations and answer the call their country gives them. So 
we are trying to do that.
    Senator Cornyn. I appreciate that very much.
    Let me just ask one more question and this time it is about 
the subject upon which this hearing actually was convened, and 
that is Global Posture Review. Of course, there have been some 
questions about the interrelationship or the interdependence of 
that process and BRAC. Obviously that is something we are 
concerned about on a number of different levels.
    But can you explain to me, Mr. Secretary--it is unclear to 
me, if this Global Posture Review, which I understand has been 
going on for 3 years or more, how it is that we will make sure 
there are accommodations here in the United States on existing 
military bases, how those two are going to dovetail in a way 
that makes sense?
    Secretary Rumsfeld. Yes, sir. It is really exactly this 
way. We have decided that it makes sense to bring back to the 
United States from all around the world, different places. We 
know those numbers. We feed that number into the BRAC process 
and it then becomes part of their deliberations as to where, 
which bases they should go to and how it ought to be arranged.
    Had we not done this work over the past 3 years, we would 
not know what was going to have to come back and therefore 
there would have been a question mark in the BRAC process. The 
two are dovetailing perfectly and they link together tightly.
    Senator Cornyn. Finally, I have heard it said that we are 
not out of troops, we are out of balance, and I think that is a 
thumbnail sketch for what you described earlier with regard to 
the restructuring of our military, which I know is under way 
and General Schoomaker and others are working on. But I will 
say that we have already begun to see some evidence of that 
restructuring with recent announcements of the placement of 
modular brigades at Fort Hood and Fort Bliss. So this is a very 
dynamic period of time we are in here, where I think we are 
going to see a lot of change, but I think we are on the right 
track and I appreciate your efforts.
    Thank you.
    Secretary Rumsfeld. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, Mr. Secretary, gentlemen. Mr. Secretary, the 
Defense Science Board has reached a very startling conclusion: 
inadequate total numbers of U.S. troops. They briefed you, and 
also a lack of long-term endurance. They suggest some ways to 
cope with this: to trade combat capabilities for stabilization 
capabilities. That of course impacts mission performance if 
there is a conventional conflict. Depend on others, like the 
United Nations or other nations; that has been a dispiriting 
process over the last several years.
    Even if we do all these things, their conclusion is 
extremely, I think, both provocative and startling: ``If 
everything we recommend is implemented over the next 5 years, 
but we continue our current foreign policy of military 
expeditions every 2 years, we will begin two more stabilization 
operations without sufficient preparation or resources.'' They 
conclude by saying: ``Anything started wrong tends to continue 
wrong.''
    That brings us back to points that Senator McCain and 
others have raised. Iran and North Korea are provocative. They 
very well might cause us to take military action. One hopes 
not. As you often say, there is also the surprises that we do 
not even contemplate at this moment.
    As a result I find it again puzzling why you have not 
supported an authorized end strength increase, including those 
soldiers, particularly marines, in the regular budget process, 
obtaining the funds for them by looking at other programs 
outside of the Army and the Marine Corps, because if we do not 
do this I think we are running off the cliff, if you will.
    Relying on supplemental appropriations is increasingly more 
challenging. The Army, I am told, has an $8 billion requirement 
for equipment resetting, $4.5 billion for maintenance, $1.3 
billion for ammo, in addition to personnel costs.
    But I think the major point, the one I think the Defense 
Science Board concludes with, is that we have put ourselves in 
a strategic position where we may not be able to respond to 
obvious threats that we are seeing today.
    Secretary Rumsfeld. Senator, let me comment and then I know 
General Myers will want to comment. I thought the study was a 
good one, the summer study of the Defense Science Board, and I 
thought it was sufficiently interesting that I have had it 
briefed to the Chiefs and I believe the combatant commanders 
and others in the Department.
    Second, you said we have not supported an increase in 
strength. We have and we have an increase in strength under the 
emergency authorities. We have not supported an end strength 
increase, permanent end strength increase by statute, that is 
correct. The reason for that very simply is we do not need to 
do that and the Army prefers not to until they have a sense, 
General Schoomaker, until he has a sense of how he is able to 
transform the Army force from 33 brigades up to 43 and possibly 
48. He believes--he does not know, but he believes that over a 
period of 4 or 5 years doing that he may be able to do that 
without a permanent increase in end strength because of the 20 
or 30 other things we are doing, several of which I have 
mentioned here today.
    Believe me, if we need more end strength we will request 
more end strength. We will either do it under the emergency 
authority to start with or we will come before Congress. The 
senior managers of the Department are doing I believe it is 35 
or 40 different things to relieve stress on the force and it is 
having a payoff already. We have been able to achieve things.
    We also, under General Schoomaker's theory, are going to 
move the spigot down on the rain barrel to be able to draw on 
more of the 2.5 million men and women who have volunteered, 
because we are only drawing on a very small fraction of them at 
the present time.
    Senator Reed. Mr. Chairman, we have had these discussions 
for probably 2 years now. It is becoming increasingly clear 
that your response is simply avoiding the obvious. If we have a 
long-term commitment in Iraq and other places, if we have to be 
prepared to react to North Korea and Iran, we cannot live 
supplemental to supplemental, the Army cannot. The equipment 
costs are piling up. We need an end strength because we have to 
put the budget behind that, not in a supplemental emergency 
capacity, but the money behind it, and that has to be done.
    Your own Defense Science Board, individuals that you chose, 
individuals that you respect, individuals you tasked to look at 
this, have come back and said, not for the short run but the 
long run--I mean, it is their conclusion--this is a long-term 
problem of maintaining these forces.
    Secretary Rumsfeld. It could be.
    Senator Reed. Mr. Secretary, you continue to say it could 
be. It is quite obvious.
    Secretary Rumsfeld. Senator, I am not pulling this out of 
thin air, my answers to you. What I am giving you is what the 
Chiefs in the tank conclude, what the senior levels of the 
Department have concluded. We would be happy to sit down and 
walk through the entire process with you. It is complicated. 
There are a lot of pieces to it.
    Admittedly, there are uncertainties about whether--what can 
actually be achieved with the new national security personnel 
system. There are uncertainties as to how far down that rain 
barrel we can get that spigot. But if we cannot get it far 
enough because we just cannot manage better, then by golly you 
are right, we will have to go to an increase in end strength.
    Senator Reed. Mr. Secretary, a final question on this 
point. Did the Defense Science Board consider the changes that 
you are suggesting, modularity? Were they aware of them? Did 
they consider them?
    Secretary Rumsfeld. I do not know if they were briefed to 
the extent of all the things we are doing in the Department. I 
doubt it.
    Senator Reed. So you had your experts study the issue of 
manpower and they were not aware of what is going on in the 
Department?
    Secretary Rumsfeld. Knowing what is going on in the 
Department is--it is a big Department, Senator, as you are well 
aware. These are part-time people who come in and are given a 
specific assignment and take a period and study it, and they do 
a terrific job. To what extent they--if we gave them a quiz on 
all the things that we are doing in the Department to reduce 
stress on the force, I just am not in a position to answer your 
question.
    Senator Reed. Mr. Chairman, may I ask General LaPorte a 
question because again, I like the way he talks? [Laughter.]
    Chairman Warner. If you wish to put a question to General 
LaPorte, please feel free.
    Senator Reed. General, your comments about the adequacy of 
forces in Korea I presume are related to your current mission, 
which is deterrence of a North Korean attack. Would those 
comments change if you had to take military action to disarm 
North Korea?
    General LaPorte. I did not----
    Senator Reed. Take military offensive action to disarm 
North Korea; would your comments change with respect to the 
adequacy of the personnel and equipment?
    General LaPorte. That is a difficult question to answer----
    Senator Reed. That is why I asked. I think that is the 
question, though.
    Chairman Warner. Why do you not, General, give us a brief 
response and then provide a more extensive response for the 
record.
    General LaPorte. I will do that.
    Disarming North Korea would require a significant amount of 
capabilities, not just ground component but all our components. 
We have significant capabilities to address that threat from 
North Korea.
    [The information referred to follows:]

    [Deleted.]

    Senator Reed. Thank you.
    General Myers. Mr. Chairman, could I add something----
    Chairman Warner. Yes, of course.
    General Myers. --just to try to help understand what we are 
talking about here. When we talk about numbers, numbers do not 
equal capability. We are trying to build capability. The Army 
plan is to build more units of maneuver, the brigade. That is a 
very good thing to do. We do look at this, the Joint Chiefs do, 
and we talk to the combatant commanders. We ask ourselves, do 
we have enough forces, because it is a very serious issue. We 
understand that.
    The Secretary has authorized the United States Army to go 
30,000 above its authorized end strength to properly man it to 
do the expansion in capability that it needs. That will take 
them through early 2007, at which time they will see if they 
need a bigger Army.
    We are on a glide slope or on a ramp right now that is 
about as fast as you could do if you authorized whatever number 
you want to authorize. It takes you time to recruit them and 
train them. But we are on a slope that is probably above 
anything that could be authorized right now, and it will take 
us until 2007 to figure out if this is enough: what does the 
world look like?; is it as predicted by the Defense Science 
Board, whatever it was?; every 2 years will we have to be 
utilized in some sort of stability operation?; and we will 
know.
    Capability does count. I think General LaPorte will tell 
you that a couple years ago, just 3 years ago, we were very 
worried about the artillery that sat in North Korea behind the 
mountains, that could range in some cases all the way to Seoul, 
South Korea. It was a very big problem and the way we were 
going to solve it was a lot of counter-battery fire from 
surface units.
    The Joint Direct Attack Munition global positioning system-
guided solves a lot of those problems. Now we can drop it all-
weather. These shoot-and-scoot systems the North Koreans have 
now are very vulnerable to air power and other precision 
artillery systems. It is almost--and that battle has changed 
dramatically, I think General LaPorte would probably agree.
    So as we talk about numbers, as we talk about this and 
that, we have to remember we are talking capability in the end.
    Chairman Warner. Thank you very much, General.
    Thank you, Senator Reed.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. To General Jones and 
Admiral Fargo and General LaPorte, I would hope that you will 
express to the men and women serving under you how much we 
appreciate their service to our country.
    Mr. Secretary, there has been some conversation in the 
media over the last couple of days about the potential for the 
reinstitution of the draft. I had my staff check and there 
appears to be some legislation on the House side introduced by 
Congressman Rangel and some legislation on the Senate side 
introduced by Senator Hollings. As far as I know, neither one 
of those pieces of legislation has moved one inch.
    Is there any ongoing discussion at the Pentagon about the 
potential for the reinstitution of the draft?
    Secretary Rumsfeld. Not a word.
    Chairman Warner. Senator, the Secretary had that question 
earlier and gave us a rather Trumanesque response to it, and he 
may well follow it up by letter. But I am sure that he might 
add a word here.
    Senator Chambliss. I appreciate that. I am sorry I missed 
the first answer, but I am glad you got to answer it twice.
    Also, Mr. Secretary, there has been some conversation here 
earlier in the questioning relative to the status of the police 
forces in Iraq, also the Armed Forces in Iraq, and there have 
been some comments in the media about statements that have been 
made relative to the size of both of those force structures and 
whether or not the numbers that have been given are accurate.
    I took the liberty of going to one of your Web sites today, 
www.defendamerica.mil, and I pulled up two sheets, one of which 
on page 22 at that Web site states ``Police Forces, Current 
Status.'' This document gives the number of components that 
have been authorized, the number on duty, the number in 
training, the weapons they have, the vehicles, and so forth and 
so on.
    I look at page 23, it is titled ``Armed Forces, Current 
Status.'' Again, with respect to the Iraqi Army it gives the 
number authorized, the number on duty, the number in training, 
the number trained, the weapons, vehicles, so forth and so on.
    Is this public information that folks like me who do not 
know much about how to use a computer can pick up as easy as I 
picked this up today?
    Secretary Rumsfeld. Yes, sir. It is readily available and 
it ought not to be a mystery to anybody.
    Senator Chambliss. When you give out numbers or the 
Department gives out numbers relative to the size of the Iraqi 
police forces or the size of the Iraqi Armed Forces, are these 
the numbers that you use and do you consistently update these 
numbers?
    Secretary Rumsfeld. We do. General Casey and General 
Petraeus work with General Myers and the Joint Staff to update 
them I believe every 2 weeks.
    Senator Chambliss. Thank you. These appear to be data as of 
September 13, 2004.
    Mr. Chairman, I would ask unanimous consent to introduce 
these two sheets of paper into the record.
    Chairman Warner. Without objection.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Chambliss. Mr. Secretary, I noted your comment in 
your written statement about restructuring the Reserve 
components to achieve a more appropriate distribution of skills 
and create an environment in which reservists and guardsmen 
will mobilize less often, with more predictability. I want to 
commend you for that approach, especially in your and the 
Department's efforts to shift the reservists into career fields 
that are heavily used in order to reduce the burden on certain 
specialties.
    It is a fact that approximately 38 percent of our selected 
reservists have not been mobilized at all since September 11, 
2001. This does not appear to be an overuse of the Reserve. 
However, the fact that many of our reservists have been 
deployed for long periods of time while most of them have not 
been deployed at all indicates to me that you are on the right 
track, that we need more people in the high-demand career 
fields.
    Could you update us on how these rebalancing efforts are 
going and how it will affect the ways in which the Guard and 
Reserve are used in coming years?
    Secretary Rumsfeld. Yes, sir. The Army has the biggest task 
and it I believe has already accomplished somewhere between 
10,000 and 20,000 of rebalancing between the active component 
and the Reserve component. Is that about right?
    General Myers. That is about right.
    Secretary Rumsfeld. They are aiming, the Services generally 
are aiming, at a number of about 10,000 a year over the coming 
period, where they will be moving skill sets and balancing 
between the active and the Reserve components so that the same 
people do not get called up too frequently, and because we will 
then have, after rebalancing, more people in the Active Force 
who have those skill sets, that we now can reasonably predict 
are going to be needed in the 21st century.
    Senator Chambliss. Thank you.
    General Jones, you made reference in your opening statement 
to the need for strategic lift, both sealift and airlift, to 
project power in the European theater and how this need will 
grow and transform as EUCOM moves to more dispersed bases and 
operating locations. How would you assess your current airlift 
needs specifically and what limitations, if any, do you foresee 
in both the inter- and intra-theater airlift in the coming 
years?
    General Jones. Senator, as we transform the force, one of 
the things that I like to point out is that we are transforming 
it to become more strategically useful. One of the key elements 
in making the force of the future effective is to balance the 
force that we have forward deployed with the rotational forces 
that will be required in various spots in order to maintain our 
influence, take into account our alliance obligations, the 
coalitions, the crises, and the like.
    So to me one of the most important elements of 
transformation is the fact that, while we will be able to 
return a number of forces and their families to the United 
States, the transformation of the Services, notably the Army in 
particular, into more expeditionary forces means that we will 
have a greater strategic effect across a broader area, not just 
in Western Europe, where we have been for 50 years. In my 
theater it is relatively straightforward to see that we will be 
engaged at greater distances to the east and I believe that it 
is fair to say that there are upcoming challenges in the 
southern part of our area of responsibility, notably Africa, 
that are going to consume much of our time.
    I think one of the critical elements in achieving new 
capabilities will also be found in the mobility and the correct 
positioning of our prepositioned equipment, both at sea and on 
land, and also ensuring that our strategic airlift and sealift 
remains modern and adequate to do the job. This is not just 
true in Europe; it is true in all of the other combatant 
commanders' geographical areas of responsibility.
    It is clear that the investment that we made in the C-17 is 
having dramatic effects and this is really a capability that we 
just simply could not do without. I believe that we will 
continue to watch to make sure that that very increasingly 
important component of our overall ability is sufficiently 
resourced and modernized to make sure that it is the engine 
that delivers the forces where we need them.
    So on that score I am confident that we have thought that 
through and it is an essential component of all of our 
proposals to transform our capabilities.
    Chairman Warner. Thank you very much, Senator.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary and gentlemen. I appreciate very 
much your being here today. Mr. Secretary, as you look at the 
transformation and capabilities, I think Senator Reed's 
question about what kind of capabilities would be required in 
South Korea, whether it is defensive or offensive, are you 
making any distinctions between offensive and defensive 
capabilities when we look at the total transformation, 
reduction of troops, changing of locations of our commands in 
the various parts of the world?
    Secretary Rumsfeld. Senator, I think General LaPorte should 
answer the question and I will be happy to yield to him. But 
first let me just say, I think I need to emphasize this: It is 
in the 21st century, I honestly believe it is a mistake to 
count things and equate them with capability. It simply is not 
the case.
    Senator Ben Nelson. I agree with you.
    Secretary Rumsfeld. Second--and this is not directly to 
your question, but, Mr. Chairman, I have to say this--
deterrence depends on the perception. It is what is in a 
person's mind. We have had discussions today about whether or 
not the United States military is capable of fulfilling its 
assigned missions. Let there be no doubt, the United States 
military is capable of executing skillfully and swiftly its 
assigned missions, and people ought not to go away in the world 
with any different perception as a result of the kinds of 
questions and discussions that have been taking place here 
today.
    The chairman and the chiefs and the combatant commanders 
address this on a continuing basis. They do a series of things 
to determine how capabilities would be moved, how tasks would 
be accomplished. They know what they are doing and they are 
confident that the United States can fulfill its assigned 
missions.
    Senator Ben Nelson. Mr. Secretary, in that regard, I assume 
that is one of the reasons why Strategic Command now has both 
offensive and defensive capabilities across the board with the 
military; is that a fair question?
    Secretary Rumsfeld. No, it is not the reason. It was simply 
a matter of command assignments that seemed to make sense to 
the chairman and to the chiefs and me.
    General LaPorte, you may want to respond on the other 
piece?
    General LaPorte. Sir, I would just add to what the 
Secretary said. We are a combined force, a Republic of Korea-
U.S. force, and both nations have tremendous capabilities. Our 
operational planning is across a wide spectrum of potential 
scenarios. I would be glad to give you detailed briefings on 
those, but it is a capability that I am looking for as a 
commander, not some raw number, because there are more 
intangibles relative to capabilities.
    Senator Ben Nelson. I appreciate your answer. Thank you.
    General Jones, I think NATO announced yesterday that they 
are going to be expanding their training mission from 50 
officers to perhaps 300 officers in Iraq, and this is to train 
Iraqi security forces before the January election. I know that 
it probably was not an easy task to get that increase in 
support.
    What does this bring to NATO's Iraqi commitment right now 
in terms of numbers?
    General Jones. The overall estimate in terms of the troop 
strength required to execute this mission is about a brigade, 
roughly about 3,000 total, to do the force protection 
requirements, to do the infrastructure, logistics, and the 
trainers.
    So the piece that was in the newspaper pertained to the 
trainers and I would say that that is a fairly soft number. The 
real number is being developed virtually as we speak, now that 
the North Atlantic Council (NAC) has spoken and said to proceed 
with the concept of operations, and that will be developed 
within the next few weeks.
    Senator Ben Nelson. Some critics have said that NATO, much 
like our Guard and Reserve units, is stretched too thin. Do you 
think that is true or do you think that is false, about NATO?
    General Jones. The answer to that question is that this is 
an alliance of 26 sovereign nations. There are over two million 
people, two million Europeans, wearing uniforms. The fraction 
that is deployed is probably no more than about 60,000, maybe 
less.
    What needs to happen in the alliance, as I have said before 
this committee, is a transformation, and NATO is trying to do 
that. The United States plays an important leadership role in 
showing the way and in leading and supporting. NATO is trying 
to make a serious contribution. It is making a serious 
contribution in Afghanistan. It is wrapping up the Bosnian 
deployment after a number of years. Kosovo is still very much a 
commitment that takes about 18,000 troops.
    We are still involved in providing security, backup 
security, for the Greek Armed Forces in the Olympics. There is 
an ongoing very successful naval expeditionary operation in the 
Mediterranean that really constitutes NATO's primary 
counterterrorism operation.
    So the alliance is doing more. It is transitioning from a 
static, reactive, linear posture that was required in the 20th 
century and it is moving into answering the requirements of the 
21st century. The NATO Response Force is probably the most 
important transformational program that is ongoing. So I think 
that as we become more usable and as nations transform and 
their forces become more usable and more expeditionary, despite 
the fact that their numbers will go down, their capabilities 
will go up, and we are looking forward to that progress.
    Senator Ben Nelson. So they are focused on capabilities 
rather than pure numbers of equipment, personnel, et cetera; is 
that accurate?
    General Jones. That is correct. The problem is what they 
have now is pure numbers and we are trying to change that 
metric.
    Senator Ben Nelson. Thank you.
    Thank you, Mr. Chairman.
    General Myers. Senator Nelson, let me just clarify one 
thing. You asked the question about Strategic Command and 
perhaps why we assigned certain missions, was it offense or 
defense-related.
    Senator Ben Nelson. No, I meant combining them so we had 
the capacity to look at both aspects of the military.
    General Myers. Sir, I think the reason that we wanted to 
combine Space Command and Strategic Command and give them some 
new missions was because of the perspective that both those 
commands had before we merged them and the perspective they 
would need afterwards, and that was the global perspective. So 
every mission that they have been given has a huge global 
component, and we thought we needed one of our unified commands 
to be responsible for that. So that was more the issue than the 
offense and defense.
    Senator Ben Nelson. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    This is for General Myers and General Jones. If it became 
the policy of this country to announce that we would withdraw 
from Iraq in 4 years or that would be our goal, what effect, if 
any, do you think it would have on current operations, the 
terrorism mentality, and our allies in Iraq who are fighting 
for democracy?
    General Myers. I think it would be playing into the hands 
of folks like Zarqawi and the former regime elements that are 
trying to keep progress in Iraq from happening. I think if we 
announce our intentions to withdraw it would be detrimental. I 
think we would see an increase in violence. If they thought 
there was a goal line in sight, that is what they would march 
to.
    So that is why we have said, I think, in front of the 
committee consistently that, when asked on troop strength in 
Iraq and Afghanistan, that we have maintained that it will be 
what the combatant commander needs based on the situation on 
the ground.
    Senator Graham. Do you agree with that, General Jones?
    General Jones. Sir, I do. I think it is extremely important 
to maybe look back on history. For instance, in Bosnia I think 
the international community certainly wanted to solve that 
problem quicker than we did, but it has taken over a decade and 
we are coming to a conclusion.
    I think it is very difficult to predict and not wise to 
announce end states that you might not be able to deliver on.
    Senator Graham. Mr. Secretary, it is very important to me 
that we give an honest assessment about where we are going and 
how can we get there in Iraq, and we will get to the 
globalization effort here in a moment, not because I am 
unsupportive. I am very supportive. But the likelihood of 
violence, to me, is going to increase because of the elections 
here and there.
    Secretary Rumsfeld. I agree.
    Senator Graham. You made a comment that I think needs to be 
explored a bit. What is the likelihood in your opinion of 
substantial parts of Iraq being ungovernable by January and 
what can we do to change that dynamic beginning now?
    Secretary Rumsfeld. I think that by January there will be 
elections and that they will be successful elections, although 
very likely imperfect elections. I think that you are right, 
the level of violence may very well increase between now and 
the Iraqi elections. I suspect that if there were areas--first 
of all, the prime minister of Iraq and General Abizaid and 
General Casey and the coalition partners all understand that 
you cannot, over a sustained period of time, permit safe havens 
and sanctuaries within a country that will allow the enemies of 
that country to continue attacking it and destroying it. They 
understand that.
    Senator Graham. Thank you.
    Secretary Rumsfeld. If there were to be an area where the 
extremists focused during the election period and an election 
was not possible in that area at that time, so be it. You have 
the rest of the election and you go on. Life is not perfect.
    Senator Graham. Thank you.
    To the globalization effort, General Jones, are the Germans 
okay with the idea that we are going to be reducing our forces 
in Germany, and by how much will we reduce our forces under 
this plan?
    General Jones. There is in security circles general 
agreement as to the validity and the necessity of implementing 
this plan. The thing that makes the argument, the portion of 
the argument that makes it compelling, is that this is not just 
a troop reduction; this is genuine transformation, and that the 
U.S. Army in Europe in particular, which is much of the German 
preoccupation, is actually going to be transformed with the 
advent of more expeditionary brigades, one Stryker brigade, and 
the like.
    Senator Graham. Are the Germans okay with the plan?
    General Jones. To my understanding, at the Federal level 
they are okay. Obviously there are some local mayors whose 
economics differ a little bit on that, but at the national 
level and at the military level I think we are fine.
    Secretary Rumsfeld. Can I make two quick comments, please? 
The German coordinator for U.S. relations said, ``This is 
positive. Let us not make a crisis out of something that is in 
reality a success story. It is an expression of the fact that 
the Cold War is over and that Europe's division has been 
eliminated.''
    Second, I have met with the Minister of Defense of Germany 
on several occasions. He is doing exactly the same thing. He is 
adjusting his force. He is reducing the number of locations, 
and he is doing it in coordination with us.
    Senator Graham. Thank you.
    General, regarding Korea, is Taiwan okay with what we are 
doing in Korea?
    I am sorry, I cannot read his name. I apologize.
    Chairman Warner. Do you mean to address that to the 
Admiral?
    Senator Graham. The General in charge of Korea. I did not 
want to mispronounce your name.
    General LaPorte. Admiral Fargo might be----
    Chairman Warner. Admiral Fargo.
    Senator Graham. I am sorry, I apologize.
    Chairman Warner. He has of course jurisdiction primarily 
over Taiwan.
    Admiral Fargo. I think that when you look at the Pacific 
you need to look at how we maintain a level signal----
    Senator Graham. No, my question is, is Taiwan okay with 
what you are trying to do.
    Admiral Fargo. I have not asked Taiwan that question and 
would not.
    Senator Graham. Thank you.
    Now, one word about what you are trying to do----
    Chairman Warner. That is an important inquiry. I do not 
want to have it too chopped up. Did you have adequate time to 
understand the question and reply to it?
    Senator Graham. He said he did not talk to Taiwan.
    Admiral Fargo. I have not discussed that with Taiwan.
    Chairman Warner. All right.
    Senator Graham. Now, my concern is you are a reformer, 
Secretary Rumsfeld, and I appreciate that and I think we need 
it, and that is why I support BRAC, and you are trying to do 
some things with the civilian aspects of the military, that I 
think are long overdue.
    I have a general concern. The fight is expanding and, 
whether we like it or not, at least to me this signals that we 
are coming home, and I see the fight expanding and it has many 
tentacles in terms of the expansion. So I will go slow, 
evaluate, but I am concerned about how it may affect some old 
friends and it may be sending the wrong signal politically at 
absolutely the right time because we are going to need old 
friends.
    One last comment. In terms of the force structure and 
numbers and capability, all I can tell you is that over the 
last 2 years I have seen more dispirited people than I thought 
I would see in uniform in terms of the burden they are 
carrying. When I went to Kuwait, getting ready to go into Iraq, 
I had dinner with nine young South Carolinians, all of them 
reservists, in a truck maintenance command, and all nine are 
getting out. So I hope that does not continue to happen.
    Thank you.
    Secretary Rumsfeld. Let me just quickly answer your first 
question. The Minister of Foreign Affairs of Italy, asked if 
this implied a weaker U.S. commitment in the world, said: 
``Absolutely not. The Cold War is a thing of the past.'' The 
Foreign Minister said that ``Japan welcomes the review of the 
U.S. military framework.'' South Korea said: ``The South Korean 
government has been well aware of the plan.'' Australia said: 
``We see this initiative as a positive.''
    So I do not believe that anyone who gets up and takes a 
fresh look at the world could honestly believe that it makes 
sense to stay locked in the 20th century. We will be more 
mobile, more agile, more lethal, and better able to live in the 
world that you have properly described.
    Senator Graham. Thank you.
    Chairman Warner. Thank you, Mr. Secretary.
    General Myers. Mr. Chairman, we have a list of those quotes 
by different foreign officials, to include some press quotes. 
Could we offer that for the record?
    Chairman Warner. Without objection, you may insert at this 
point into the record that important information.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Warner. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Gentlemen, I would like to join with the others in saluting 
you and thanking you for your dedicated defense of our country 
and your leadership. I support your plan to consolidate our 
forces that are deployed worldwide. I look forward to the next 
phase of your recommendation, which is their reassignment to 
Minnesota. [Laughter.]
    One of the ways we can, as Senator Graham said, reduce the 
pressures on our Active Forces as well as our Reserves and our 
National Guardsmen and women is to get the Iraqi forces to do 
what the military and security forces of any country under any 
form of government must do, which is to patrol their own 
streets and establish law and order and provide it and 
safeguard their highways and defend their borders.
    Mr. Secretary, when you testified before this committee 
last February 4, you stated that--this is a direct quote: ``We 
have accelerated the training of Iraqi security forces, now 
more than 200,000 strong.'' The figure that was referenced in 
the documents provided then, actually I believe slightly before 
then, and subsequent to that statement that I have seen, 
confirmed that figure. Then to my knowledge, the first time it 
was stated publicly, on September 14, 7 months later, is that 
that number is down now to 105,000 that are trained, equipped, 
and manned up, Iraqi security forces.
    I am confused by what exactly this redefinition of what 
constitutes ``security forces'' is. But that is a big 
disparity, sir, from 206,000 down to 105,000.
    Secretary Rumsfeld. Let me explain it as clearly as is 
humanly possible. We said there were 206,000 security forces. 
Since then we have subtracted 74,000 Facility Protection 
Service people that are reporting to the various Iraqi 
ministries and are now classifying them as security forces. 
They obviously are providing security for facilities, but they 
are not police, they are not border patrol, they are not army, 
and they are not counterterrorism or National Guard activities. 
So that is one difference.
    The other difference is within the 206,000, as we said, was 
a mixture of people that were trained and not trained. Now the 
number we are using now is 100,000 today that are manned, 
trained, and equipped. They have the equipment, they have the 
appropriate training. There are more than that on duty, the 
ones who are not fully trained and do not have full equipment. 
That number is scheduled in January 2005 to be 145,000.
    Senator Dayton. Thank you. Taking then that number, 100,000 
that are now equipped and trained--and I do not know what the 
current estimate is of the insurgency forces, say for example 
under direct control of Zarqawi. If there are those numbers, 
though--I have never seen a published report of the insurgent 
strength estimated anywhere near approximately that number--why 
are not those security forces of Iraq going after someone like 
that, and if he is holed up somewhere like Fallujah, where he 
is reputed to be, if the intelligence tells you and them where 
he is, why are not 50,000 or 75,000 or whatever number it takes 
going in there?
    I can understand why our forces should be respecting 
certain sites in that city or that country, but why are they 
not doing what they should be doing to protect their own 
country and stand up for it? I guess as a corollary to that, as 
long as they know there are 138,000 of the best, the most 
courageous fighting forces in the world, our own soldiers, in 
there doing their work for them, what is to motivate them to 
take those positions instead?
    Secretary Rumsfeld. There are currently about 100,000 Iraqi 
security forces, there are currently 138,000 U.S. forces and 
about 23,000 coalition forces, for a total of 261,000. They are 
all engaged in providing security in that country.
    You say why are not the Iraqis doing anything? Well, the 
Iraqis----
    Senator Dayton. I did not say ``anything,'' but I said why 
are they not going after these pockets.
    Secretary Rumsfeld. I will answer.
    The Iraqis have had 721 Iraqi security forces killed in the 
process of providing security in Iraq since May 1, 2003. They 
have had 678 killed since September 1, 2003.
    Senator Dayton. We have had over a thousand of ours.
    Secretary Rumsfeld. Since the beginning.
    Senator Dayton. 2003.
    Secretary Rumsfeld. The comparable number is that since May 
1, 2003 the United States has lost 670 and the Iraqi security 
forces have lost 721. So they are not sitting in their barracks 
with their fingers in their ear. They are out there doing 
things. It is tough, and they are getting killed and they are 
getting wounded and they are still standing in line to sign up 
to join the army and the police and the border patrol, because 
there are enough people in that country that want to secure the 
liberation of that country.
    Senator Dayton. If there is a pocket of resistance, again 
in Fallujah--that is from reports I have read--that are 
whatever number, a couple thousand, whatever the number, I do 
not know, strong, and if that is where somebody like Zarqawi is 
reputed to be holed up and operating from, then why are not 
again whatever necessary troop strength of the Iraqi forces 
going in there to wipe that force strength out there, the 
insurgent strength out there?
    Secretary Rumsfeld. The decision has been made to handle 
Fallujah the way it has been handled by the Iraqi political 
leadership in the country and the U.S. military leadership and 
political leadership in the country. As I indicated earlier, 
all of those individuals understand you cannot have a safe 
haven in Fallujah or anywhere else in that country over a 
sustained period of time.
    Now, given the fact that they understand that, it suggests 
to me that they will do something about that. The reason they 
did not do it at the time they were cocked and ready to do it I 
believe--and Dick, you might want to comment on this--at that 
moment the U.N. representative, I believe it was Mr. Brahimi, 
was in the process of putting together the government that 
would transition away from the Iraqi Governing Council to the 
Interim Iraqi Government, and the Governing Council that 
existed at that time and Brahimi, as I recall, were strongly 
opposed to doing anything at that moment.
    Senator Dayton. What about this moment now, sir?
    Secretary Rumsfeld. I think I will leave that to the 
commanders on the ground, and I have already indicated to you 
that they are fully aware you cannot leave a sanctuary in that 
country, and that is exactly what Fallujah is today.
    General Myers. Senator Dayton, let me just add. You focused 
on a really bad person, Zarqawi, and let me just assure you in 
this open hearing that we are doing all we can to take care of 
that situation. As the Secretary said, we are going to leave 
that up to the operational commanders on the ground.
    I will tell you in the last 2 to 3 weeks we have killed a 
handful, I think it is six, of his lieutenants. We continue to 
go after that organization very hard. It is a very dangerous 
organization and it is the one that we know in at least one 
case was responsible for the beheading, probably in the other 
cases as well. They have no respect for any human life--Muslim, 
Christian, Jewish, whatever, man, woman, or child. This is a 
very, very bad threat. We understand that and will take 
appropriate action.
    Senator Dayton. My time has expired, Mr. Chairman. I 
appreciate your response and I would just say, responding to my 
colleague Senator Graham--and I understand the reservations 
about citing a period of time of 4 years, but our colleague 
Senator McCain, who has greater expertise than I, has cited a 
possible period of time of U.S. force involvement there of 10 
to 20 years.
    I would just submit again that, in my view, as long as the 
Iraqis know that the best fighting forces in the world, our 
own, are going to be there doing the heavy lifting and the 
dying and the leading and draining our own resources here, they 
are going to--they may not entirely, but they are going to be 
holding back from what any government, any country, has to do 
with their own citizens, their own armed forces, which is 
protect and defend their own country.
    Thank you, Mr. Chairman.
    General Myers. Senator Dayton, if we go back to April and 
May when we had the uprising by Sadr's militia, at that time we 
said the performance of the Iraqi security forces was certainly 
uneven. Very few units performed well, but some did. Most did 
not. One of the reasons they did not, a couple of the reasons, 
is they did not have proper equipment at that point; they also 
did not have the proper leadership.
    If you look at the same uprising around al-Najaf this time, 
it was just a flip-flop. In fact, the estimate from the 
commanders in the field is that 70 percent of the Iraqi units 
that participated performed very, very well. Some did not 
perform well, but 70 percent did. So that situation is turning 
around.
    We have to do our job, which our promise has been to 
properly train and equip them. As the Secretary said earlier, 
that is the easy part. It is the soft stuff, it is making sure 
they have proper leadership and that leadership has a trail all 
the way up to the national level. That still has to be 
accomplished. That is not accomplished at this point. We are 
working very hard to do that.
    Senator Dayton. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Talent.
    Senator Talent. I appreciate that, Mr. Chairman. Thank you 
very much.
    I would probably ask General Schoomaker this if he were 
here, but since he is not, General Myers, let me ask you this. 
Would you say that the Army of today across a broad spectrum of 
requirements is more or less capable than the Army of 20 years 
ago?
    General Myers. No, I would not.
    Senator Talent. It is substantially more capable, is it 
not?
    General Myers. Absolutely.
    Senator Talent. The Army of 20 years ago I think had 18 
active divisions in it and the one today has 10 active 
divisions.
    General Myers. Right.
    Senator Talent. What I wanted to illustrate is something 
General LaPorte said. It really is not a question of numbers, 
except insofar as numbers tend to suggest capabilities. I chair 
the Seapower Subcommittee and actually it was the Chief of 
Naval Operations (CNO) who brought this to my mind. I was 
having breakfast with him one day and he said: Look, would 
anybody argue that the Navy of today is less capable than the 
Navy of 20 years ago, when we had almost 600 ships? Because I 
was harping on him about the numbers of ships. Mr. Chairman, 
you know how strongly I feel about numbers of ships.
    So it is not that numbers are irrelevant. It is just that 
you have to consider it in terms of capabilities.
    One other point I will just state for the record about the 
history of end strength, Mr. Chairman. This is something some 
of us have noticed, been noticing for a long time. We went from 
18 to 14 to 12 in the base force of 1992, and then when I came 
in in 1993 at the same time the Clinton administration came in 
they reduced it to 10 active duty. You remember that, Mr. 
Chairman.
    I was very concerned about it at the time, not that the 
Army would be incapable of performing a mission, because I 
think our Army will perform any mission we ask them to perform, 
but that in circumstances like this we might all be a little 
bit less comfortable about how far out on the margin of risk we 
were.
    I am very pleased that you have agreed, at least 
temporarily, to an increase of 30,000, which would get us back 
in terms of numbers to the equivalent of 21 active divisions. I 
am just going to suggest that at a certain point when you can 
calculate what you really think you are going to get from these 
efficiencies, not what in theory you could get but what you 
really think you are going to be able to get--what we are 
learning about the needs, capabilities we need for civil 
administration and the kind of thing we are doing in Iraq--that 
maybe we have a hearing on the subject of what kind of end 
strength we need.
    I will just suggest, Mr. Chairman, with great respect that 
it might be good to do it at a time other than 6 weeks before a 
general election. I think I would have a little bit more 
confidence in the tone of the hearing.
    I did want to ask a couple of things, though, about the 
posture of where our forces are going to be, which is what the 
hearing I thought was about. Two points, and I will get the 
questions out and then you can address them.
    One of them is, I have been very intrigued with the CNO's 
Sea Power 21 and Sea Basing concepts, the idea of being able to 
in effect base at sea. Now, how does that figure in the 
repositioning of forces, if you have thought it through to that 
extent?
    Number two, if we are going to pull back from the 
traditional bases in places where we are no longer as wanted 
and where it is harder to get force projected--and I think I 
agree with that on strategic level--does this mean we rebase in 
third world countries from which we think we can project power? 
Are we confident enough in the stability of those countries to 
be able to do that?
    Maybe you just could address that. You probably have not 
worked it out on a level of detail, but I would be interested 
in hearing your thoughts on it, Mr. Secretary.
    Secretary Rumsfeld. Just a couple of quick comments. With 
respect to the Chief of Naval Operations plan, which I am very 
much a supporter of--I think Admiral Fargo might be the best 
one to answer this. I just realized you are an Admiral, are you 
not? [Laughter.]
    Senator Talent. Yes, I should maybe have referred this to 
the man in the dark blue suit there. [Laughter.]
    Secretary Rumsfeld. He has developed this surge capability 
which significantly increases our capability around the world, 
and he has done it by managing the way maintenance is done and 
overhaul and repair and that whole cycle. He has shifted the 
entire cycle. He has also done some forward basing.
    With respect to the--and I will let Tom comment on that. 
But with respect to rebasing in third world countries, let me 
draw a distinction that you will find in these papers, which is 
probably imperfect. But a base I think of as a fixed, permanent 
place with families and a long life. We are doing two other 
things, forward operating sites and forward operating 
locations, and they are not bases. They are rotational 
locations. We fall into the use of the word ``base'' and I 
almost said ``rotation base.''
    But they are places where we can train, they are places we 
can exercise. They are locations we could deploy from if that 
were desirable. In some cases there might be prepositioning. We 
would have well-developed arrangements, cross-accessing 
agreements. We would have status of forces agreements with 
those countries, that we would know what we could do and what 
we could not do out of those locations.
    But in terms of the kinds of heavy division fixed bases we 
have had in Germany, the answer is no, we are not thinking of 
that in some of the other countries, and we would have much 
lighter footprint and less investment.
    Do you want to?
    Admiral Fargo. Yes, sir, let me add to the Secretary's 
comments. Certainly, with respect to the Pacific, sea basing 
makes great sense for a couple reasons. The first is that 
nobody's crystal ball is clear where we are going to have to 
fight next. It is just impossible to predict. If we look to--as 
we mentioned earlier in the hearing, if we looked a few years 
back and tried to predict where we are at right now, we would 
not have. If we try to look 4 or 5 or 10 or 20 years forward, 
we probably would not have great success there. So being able 
to sea base provides us a great deal of flexibility.
    The second piece is that access is problematic and you do 
not know whether you are going to have access in certain places 
at certain periods of time. So the sea base once again provides 
you great flexibility.
    I think the third point is, to the extent that you can 
sustain forces from the sea gives you huge advantage. So 
partnering with not only the Marine Corps, but also the Army, 
and standing up the joint program office which the Navy has for 
the sea base I think is going to provide exactly what we need, 
which are new operating concepts for the future.
    Senator Talent. I agree. My time is up. I will just add 
this comment. I agree, I really like the CNO's plan. However, 
if we are going to reposition or keep forces somewhat lower on 
the grounds that we can project faster, if we in essence have 
force enhancers, then we must fund the force enhancers.
    Let us not make the mistake we made in the 1990s, where we 
cut the Army thinking that we would make each soldier more 
lethal and less vulnerable, and then cut the modernization 
programs that were going to make each soldier more lethal and 
less vulnerable. We do not want to make that mistake again.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    Mr. Secretary, currently in the conference committee on the 
defense authorization bill there is a provision concerning the 
opportunity for Guard and Reserve members to access TRICARE in 
order to have health insurance. We learned that about 20 
percent of our Guard and Reserve members do not have health 
insurance.
    Senator Graham and I along with Senator Daschle and others 
introduced this legislation. We were successful in passing it 
in the Senate. We continue to be told that the Department of 
Defense opposes it. Could you explain your opposition to what I 
see as a critical part of ensuring that the Guard and Reserve 
members who are being called up on a continuing basis will 
have, along with their families, access to health insurance 
where they do not currently have it?
    Secretary Rumsfeld. I would like to ask General Myers, who 
is up to speed on this, to comment on it. But one of the things 
I have discussed with Dr. Chu, the head of the Department of 
Defense Personnel and Readiness Office, and with the Chairman, 
is what I believe to be the need for us to look on a macro 
basis at how we manage our force, the Active Force, the Guard, 
and the Reserve.
    What has taken place over recent years is that, for a 
variety of reasons, incremental benefits have been added in 
large measure to the Guard and the Reserve and the Retired 
Force, less so to the Active Force. The cost of each person has 
been incrementally changing, and we are getting to the point 
where the cost of Guard and Reserve relative to the active is 
something that needs to be addressed so that we can manage it 
in a way that is proper from the standpoint of the taxpayers 
and appropriate from the standpoint of the people we need to 
volunteer to serve in the Armed Forces.
    Rather than--my personal view is--and as I say, I want Dick 
to answer this. But I think that what happens, each time there 
is a new proposal here, then it is passed and then there is 
another proposal that comes along to create some sort of equity 
across the board, and the imbalance that is evolving is 
something that I know this committee needs to address, just as 
we need to address, and we want to do that together.
    Dick, do you want to respond precisely on this point?
    General Myers. Precisely, I do not know. But Senator 
Clinton, I can respond. I think the Joint Chiefs of Staff are 
worried about a couple of things. One is cost. This will not be 
cheap and healthcare costs, as we know, have had a history of 
going up in a way that is almost unpredictable.
    There is an equity issue that is brought up as well. The 
equity issue is, ``Gee, I am serving on active duty, I serve 
365 days a year I get healthcare for me and my family; somebody 
that serves part-time gets the same healthcare benefit,'' which 
is one of the better and bigger benefits that the United States 
military gets. So that is brought up from time to time.
    Nobody is saying we do not need to change the way we 
provide healthcare to the Reserve component. We found that out 
in these massive callups, that indeed many reservists are not 
ready for active duty. Any proposal that would ensure that 
reservists on an annual basis get a physical paid for by the 
United States Government would be a very good thing, because we 
would then know what kind of force we have out there and we 
would not have to reject people as they showed up at the 
mobilization station because they are not healthy.
    My understanding is DOD has a proposal, a counterproposal, 
that would put in place another program to test for a while, 
and I think it would be my view that we ought to proceed fairly 
slowly here, mainly due to the cost. It is not an issue of 
providing the right benefits to the Reserve component, but it 
is a huge cost issue.
    Senator Clinton. I know that it is a huge cost issue, but 
we have heard a lot of discussion today about capability and 
about needing to equip our men and women in uniform, and I for 
one feel very strongly that it is clear we are going to 
continue to rely on the Guard and Reserve, and when you have 20 
percent without health insurance and then, I guess not 
coincidentally, you have 20 percent who are found to be unready 
when they are activated, that is a cost and it is a readiness 
issue.
    We are going to continue to press our point because we 
think that the best investment we can make is in these men and 
women that we are sending out and, given the way transformation 
is proceeding and given the pressures on the existing force, it 
certainly seems to me that it is no longer fair to exclude, if 
not fail to help, those who are in the Guard and Reserve.
    Secretary Rumsfeld, over the weekend I am sure you saw, 
because there was a lot of publicity, about a number of very 
distinguished Republican Senators, including Senators Lugar, 
Hagel, McCain, Graham, and others, raising very serious 
questions about our status in Iraq, using strong language: 
Senator Lugar talking about incompetence in this 
administration, the lack of planning is apparent; Senator Hagel 
referencing his belief that no, we are not winning, and how did 
we ever get into this situation.
    When you look at the statements that have been made in the 
past by you and others in the administration, it is very 
difficult to track the predictions and the expectations that 
were presented to this committee, to others in Congress, and 
certainly to the American people with where we are today.
    We now know from books that have been written with the full 
cooperation of the administration that shortly after September 
11 war plans were begun with respect to Iraq. That was not 
information shared with Congress, nor with the American people. 
In fact, as late as August 2002 the administration was still 
saying there were absolutely no plans to go into Iraq, and we 
know what happened then.
    In a recent article reporting on the work of the Defense 
Science Board and their concerns about our ability to maintain 
ongoing stability operations, there is a paragraph that refers 
to a widely reported phone call in which William Moody, a 
senior Pentagon policy official, hinted with congressional 
aides from both parties that a second Bush administration may 
carry its preemptive war strategy to five or six other nations 
beyond the current axis of evil.
    Mr. Secretary, I respect and appreciate your long service 
to this country, but if there are such plans, if there are such 
discussions, do you not believe that Congress and the American 
people ought to be informed?
    Secretary Rumsfeld. Senator, let me take some of that in 
pieces here. First of all, you said ``you and others'' have 
made predictions. I tend not to make predictions. You have been 
in a lot of committee hearings with me and I tend to be fairly 
careful about what I say.
    Second, there is no one I know who would characterize what 
I have said about Iraq or Afghanistan or any other aspect of 
the global war on terror as painting a rosy picture. I have not 
painted a rosy picture. I do not believe it is a rosy picture. 
I think it is a dirty, tough, ugly business, and I have said so 
from the beginning.
    Next, you raise the question of plans from books, you say. 
The job of the Pentagon is to have plans. That is what we do. 
There have been plans for Iraq for goodness knows how many 
years, every administration. There have to be plans. There have 
to be contingency plans. We owe that to the President. We owe 
it to Congress. We owe it to the American people. That is what 
they do.
    When General LaPorte or Admiral Fargo or General Jones take 
these tasks, they have the responsibility of going to the 
shelf, looking to see what contingency plans there are, coming 
in, making a recommendation to the Joint Chiefs: We think these 
are appropriate or not appropriate, we need to freshen them up, 
we need to change them, we need to add some excursions on 
different things. There have been plans in the Department of 
Defense ever since there has been a Department of Defense.
    The kinds of things you read in books are either 
misinformed, uninformed, or mischievous. One ought not to say: 
Oh my goodness, were there plans? Of course there are plans. 
That is what we do.
    The quote about the Defense Science Board, I do not know 
anything about it, but I can assure you that anyone at that 
level would have no knowledge and would certainly not be 
involved, and those decisions are decisions for a President. I 
work with the President every day. I was with him this morning. 
I have never heard anything like that out of his mouth, nor has 
anyone heard anything like that out of my mouth.
    So the fact that there are some staff people reporting that 
somebody hinted at something is really not something one ought 
to give credence to.
    Chairman Warner. I understand you very clearly, Mr. 
Secretary.
    Thank you, Senator, for your questions.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, I hope that anyone who believes that there is 
a problem with the progress that is taking place in Iraq today 
was there listening to the Prime Minister this morning. He was 
very outspoken. I would further say that I have been over there 
quite a few times and as I observe the transition in 
Afghanistan and the training of the Afghan troops from us to 
the Afghans--and the Afghan National Army is now being trained 
by the Afghans--I saw the pride on their faces as they were 
training out there and I thought: That is a model for Iraq and 
that is what is going to happen.
    I agree with Prime Minister Allawi this morning when he 
said that the press is not giving us a fair shake; we have 
great successes. He expressed appreciation on behalf of the 
Iraqi people.
    I have two questions for General Jones and then one you may 
have to answer for the record from each one of you because it 
may take a little bit longer. First of all, General Jones, we 
talked, now it has been years ago, about the subject that we 
are addressing today and how significant it is that we 
readdress this thing and start looking to the future, the cost 
of sustaining families in Western Europe, the problems we are 
having right now with the environmental restrictions that keep 
us from adequately being able to train our young troops over 
there.
    I took the time to go to some of the eastern countries. I 
was in the Ukraine, I was in Bulgaria, I was in Romania. In 
talking to the military leaders there, they want us there. They 
are going to--they offered to billet us. They offered things 
that the Europeans never did, the Western Europeans. It just 
makes more sense to have shorter deployments and have them over 
there where you can do it. Some time we should put--maybe you 
have done this already--kind of a cost analysis of how much 
money can be saved if we are able to make this transition.
    Now, I see two problems--and I apologize for not being here 
for your opening statements and I was told that you talked 
about maybe 8 to 10 years before we can do this. The two 
problems as I see it: They are very patient. They have great 
training ranges. I watched them on the training ranges. But 
they have to make their own realignment decisions and things, 
and they cannot do that until we give them some indication as 
to what new host countries might be out there. So that is one 
of the concerns I have.
    The other is two of the countries I just mentioned have 
applications for entrance into the European Union. There are 
some chapters and protocols on the environment that they would 
have to either have exempt or be grandfathered in, and they do 
not want to be held up in their opportunity as they see it to 
get into the European Union--I do not see this as an 
opportunity, but they do--by not being able to do this until 
they have an indication as to whether or not they might be a 
host country.
    Now, so addressing those two, you Mr. Secretary or anyone 
else, is there anyway or are you already negotiating with some 
of those to the point where they can go ahead and make those 
decisions, even though it may be 8 years before we fulfill this 
transition? General Jones?
    General Jones. Senator, we have been in close contact with 
a number of countries. We have done site surveys. We have made 
some recommendations as to how we might proceed with regard to 
the types of presence that we might be able to implement in 
Eastern Europe. These are very attractive to us, but we have 
repeatedly said that these would be more on the order of 
expeditionary type bases, not relocating, for example, Ramstein 
and larger main operating bases.
    But absolutely, without question we are very interested in 
working with our Eastern European allies and friends who are 
now part of the alliance and are working very closely with each 
one of the Service components.
    I think that the time frame for specifically identifying 
where it is we would like to go will be fairly short. This is 
all keyed to BRAC and so I think we are talking about months, 
months and certainly not years. The implementation piece might 
take a little bit longer because that is a little bit--that is 
a little bit tougher. But I think the nations where we will 
finally wind up establishing forward operating sites or 
cooperative security locations will be identified fairly 
quickly.
    Senator Inhofe. Well, okay, because they expressed that 
concern over there.
    General Jones. I am familiar with it.
    Senator Inhofe. Of course, they want to continue on with 
their application and the environmental provisions and chapters 
and protocols would make a difference.
    The second thing is, I know it is in its infancy right now, 
but I have taken a great interest, tieing back to the successes 
we are having in teaching the Afghans to train themselves, 
using that same model of course in Iraq, and now getting down 
potentially to the five African brigades. I know that you are 
not in a position to be very specific about that. I want to 
compliment General Wald. I have spent some time in the 
countries where I believe might be the locations for these.
    But the concept, as we put the squeeze in the Middle East--
and I have spent two trips down in Djibouti, recognizing that 
the Horn is where they are all going to be going in, Mr. 
Chairman, and going throughout Africa. I see this as something 
that really needs to be expedited, we need to get into, because 
I do not say ``if that happens,'' I say ``when that happens,'' 
I would like to have these brigades out there so that they 
would be able to respond and we would not have to be sending 
our troops over.
    Would you like to make any comments about that?
    General Jones. I think you hit on something that is 
extremely important. We have some cooperative security 
locations in Africa right now. We have five of them: one in 
Senegal, Ghana, Gabon, and Uganda. We are proposing some 
additional sites. We have done site surveys on many others so 
that we have some flexibility, if you will, an inventory.
    General Wald and his interest and leadership and your 
interest also in visiting has stimulated the momentum to 
develop this global peacekeeping operation initiative and to 
help emerging forces help themselves. The whole region of the 
pan-Sahel, for example, is being actively engaged and we are 
seeing countries being able to secure their borders a little 
bit better, and I think the support to the African security 
proposals with helping Africans help themselves is the way to 
go in the future.
    Senator Inhofe. Again I compliment General Wald. I spent 
quite a bit of time talking to him just last week on this, and 
we want to be kept up.
    I know my time has expired. Let me just ask a question for 
the record so they can respond, if that is all right, Mr. 
Chairman.
    Chairman Warner. We will do that.
    Senator Inhofe. With all the problems that we have over 
there--and I think each one of you would want to answer in your 
own area; General Myers, for example, our restrictions we have 
right now, our lift assets, capability assets, refueling and 
all of that--do you think we really need to get significantly 
faster into some of these programs so that we can--like more C-
17s, so we could accommodate that? No one ever dreamed back 
when our first bunch of C-17s came in what would happen in 
Bosnia and Kosovo and Afghanistan and Iraq.
    Also, I have been very proud back in the late 1990s of 
General Jumper when he admitted that our modernization program 
was not moving fast enough and the Sukhoi strike vehicles 
actually were better than our F-15s and F-16s in certain areas. 
So do you think it is desirable to try to move those 
modernization programs on a little faster?
    Lastly, General LaPorte, I have been very interested in the 
Future Combat System and I know that we are doing as well as we 
can right now, but I would like to have your assessment as to 
when those are going to be fielded and is that going to be soon 
enough.
    I thank you very much, Mr. Chairman.
    [The information referred to follows:]

    General LaPorte. In July 2004, the U.S. Army announced plans to 
accelerate the delivery of selected components of the Future Combat 
Systems. Although the Army has not published a specific unit 
distribution plan, fielding to units is slated to begin in 2010.
    In the interim, the transformation of the Eighth U.S. Army and the 
remainder of United States Forces Korea will continue as planned. Our 
ability to rapidly reinforce the Republic of Korea's armed forces, in 
concert with the DOD Global Posture Review, will continue to provide 
adequate deterrence, and if needed the ability to defeat any attack on 
South Korea.
    My assessment is that the Future Combat Systems' projected fielding 
timelines are consistent with United States Forces Korea's currently 
projected transformation planning, and will support our continued 
deterrence capabilities.
    General Jones. U.S. European Command (EUCOM) works closely with 
U.S. Transportation Command (TRANSCOM) to ensure our theater strategic 
lift requirements are known. How those requirements are met, and 
accordingly the pace of aircraft modernization programs, is a 
responsibility vested in the Service Chiefs and TRANSCOM.
    EUCOM's Theater Transformation Plan is designed to mitigate the 
need for strategic lift by having war reserve material at a number of 
pre-positioned sites throughout the area of responsibility (AOR). The 
pre-positioned equipment, in conjunction with en-route infrastructure 
at the (Joint) Main Operating Bases, will provide the National Command 
Authority the flexibility to respond to crises across the full spectrum 
of conflict. Additionally, EUCOM's Theater Security Cooperation program 
is intended to increase U.S. presence and secure access across a 
broader portion of the EUCOM theater thereby increasing stability and 
diminishing potential conflict.
    EUCOM has and will continue to work closely with TRANSCOM to ensure 
our strategic lift requirements are able to support the operational 
concept which underpins our transformation initiative.

    Chairman Warner. Thank you. We will take that for the 
record.
    The chair observes that there are three members that have 
not had the opportunity the witnesses are prepared to afford 
them, but we will not go to a second round of questions. We 
will keep the record open through tomorrow close of business 
for purposes of submitting such other questions as my 
colleagues may have. Thank you very much.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, gentlemen, for your public 
service.
    General LaPorte, it has been widely reported that in this 
reorganization, realignment, that there is a recommendation or 
a decision to reduce the number of our troops in South Korea by 
12,000. What I would like is your judgment: What kind of signal 
does that send to North Korea?
    General LaPorte. Senator, first of all, we are an alliance. 
We are a Republic of Korea-United States alliance. The Republic 
of Korea forces number over 600,000 active, with the ability to 
mobilize to 3 million forces. So the reduction of 12,000 in 
terms of total numbers is based in those parameters.
    But it is not the boots on the ground that is the critical 
issue. It is the capabilities that the force has, both resident 
to the peninsula, which is significant--in my opening statement 
I talked about 150 systems enhancements that Congress has paid 
for and are in the force and are coming into the force. The 
Republic of Korea has a similar modernization program relative 
to its capabilities.
    We have significant regional reinforcement capabilities 
from Hawaii, Guam, Japan, that can rapidly project forces to 
the peninsula. Then we have our strategic deployment capability 
and we have demonstrated repeatedly our ability to do that.
    So I think we are sending a very strong message and a very 
strong message of our increased commitment to the Republic of 
Korea.
    Senator Bill Nelson. There is another interpretation of 
that, particularly at this critical time where we have to be 
successful in getting North Korea to understand that we cannot 
allow them to be a nuclear power. Although I agree with you on 
the repositioning of the forces further south, your enhanced 
training capability, it seems like at this time that it is the 
worst possible time to suggest that there might be a 
diminution. Even though, as you say, it may not be true in 
total force projection, nevertheless it is a signal and I worry 
about that.
    Thank you for your response.
    Mr. Secretary, I am sad to say that we have a fourth 
hurricane that is headed toward Florida, and we have been 
visited by the others. I was just there and Pensacola got hit 
pretty hard. Earlier Patrick Air Force Base had gotten hit by 
Frances, which was the second hurricane, and that was about $33 
million, and that was included in the President's supplemental 
request that will be added to the Department of Homeland 
Security bill. Just for example, it did not hit Patrick that 
much. It did $125 million of damage to the Kennedy Space 
Center.
    But when we come to Pensacola Naval Air Station, it got hit 
pretty bad. The preliminary figures are just for the Navy, 
including Whiting Field, $850 million, and then when you take 
the Air Force in the area--Eglin, Hurlbert, and some of the Air 
Force at Pensacola--you are talking in terms of over a billion 
dollars just of structural damage.
    Now, of course they are looking to their Senator from 
Florida to produce, but I need some help. Now let me just add 
one other thing. There was this crazy rumor going around in the 
last 2 days that we have had to stamp out, that, Homestead Air 
Force Base that got hit pretty hard--well, of course it was 
basically totally destroyed during Hurricane Andrew 12 years 
ago--that therefore, since Pensacola got hit so bad, that it is 
now a candidate to be closed.
    Would you give me some security of knowing that for this 
billion dollars on structural--this does not include 
equipment--that we can get this going and get it going soon? I 
might say, for the sailors and the airmen, they are up and 
running. Pensacola is going to open on Monday for flight 
training and they have already got the Air Force installations 
in the area, that were not hit as bad, up and running. Your 
comments, please?
    Secretary Rumsfeld. Senator, I know Pensacola well. I went 
through flight school there. I was stationed there as a flight 
instructor and then an instructor of flight instructors, and I 
was stationed at Whiting Field as well.
    It has been very badly hit. The Navy in Florida in the 
first hurricane had losses. The second hurricane had losses. 
This one, as you pointed out, is big. When you total it all up, 
I do not know where it will come out.
    But I have not even heard the rumor that you have heard. I 
do not know if you have, Dick?
    General Myers. No, I have not heard that rumor.
    Secretary Rumsfeld. So obviously----
    Senator Bill Nelson. I think we have put it down.
    Secretary Rumsfeld. Good.
    Senator Bill Nelson. I mean, it is kind of silly. But how 
about rebuilding?
    Secretary Rumsfeld. I do not doubt for a minute but that 
the President and the Office of Management and Budget (OMB) 
will be talking to the various departments and agencies and 
making a judgment as to how to manage, as they have during the 
previous two situations, the various losses that have existed. 
I have not been involved in that discussion, but it is a 
pattern. It seems to me if one connects the dots one can assume 
that that will take place with respect to the most recent one 
as well.
    Senator Bill Nelson. OMB is going to come to you because it 
is the Department of Defense that is suffering these losses.
    Secretary Rumsfeld. All I have seen is the first rough cut 
and they said almost every building in the place was damaged.
    Senator Bill Nelson. Would you be supportive of rebuilding?
    Secretary Rumsfeld. Oh my goodness, absolutely.
    Senator Bill Nelson. That is what I want to hear.
    Thank you, Mr. Chairman.
    Chairman Warner. With that, thank you very much, Senator.
    Senator Sessions.
    Senator Sessions. Mr. Secretary, I would like to bring us 
back to the Global Posture Review, the purpose of this hearing, 
and just say to you thank you. Early last year, January or 
spring a year ago, 13 Senators, I know Chairman Warner and 
Senator McCain and others, signed a letter I circulated calling 
on you to review our force structure worldwide and expressing 
the view that we were committed too strongly in areas that no 
longer represent clear threats to us.
    As a matter of fact, I think we have been slow to get 
around to it. I know you had a war to fight and all of you 
have. I am glad that you are moving forward with it. This is 
great news, to bring 50,000, 60,000, however many thousands of 
troops home to America to be with their families, to help 
achieve what General Schoomaker desires, and that is a soldier 
to be stationed in a base for up to 7 years before he has to 
move again. Those are great things that are all a part of your 
plan to transform our military, to make it more effective, more 
efficient, and keep dollars at home.
    As somebody said earlier, I hope some of those troops come 
to Alabama. I do not know; they may not. But I would like it, 
and certainly they will be paying taxes in the United States 
and supporting the economies of the people in the United 
States. So generally, I think we are all supportive of that.
    General Jones, early this year I traveled with Senator Lott 
to the NATO accession conference and we went through Germany 
and met with Chancellor Schroeder and told him that we were 
doing our BRAC in the United States and we were going to be 
looking at Germany, and there were no hard feelings and it was 
not pique that we were dealing with, but I did not think that 
we were going to be able to maintain the number of soldiers 
there that we have been. He smiled and said he fully understood 
that and he was reviewing his force structure.
    Earlier this year, Senator Chambliss and Senator Enzi and I 
visited you in Europe and we visited 12 installations to deal 
with this very issue of realignment. I was very impressed with 
the depth of consideration you and your subordinate commanders 
have given to this issue and how much care you have given it. 
But I find it impossible to believe that we need this many 
troops in Germany after World War II has been over 60 years.
    But first, my question to you is, describe for us briefly 
how much time and care you have given to it and describe for us 
how our allies have been consulted all along this way? It is 
not a unilateral act. Finally, is it not important that our 
allies transform also so that we can mesh their capabilities 
with ours?
    General Jones. Thank you, Senator. The time spent--this is 
a project that started almost 3 years ago, I believe, Mr. 
Secretary. Certainly I have been in my position now for 20 
months and we picked up on that from the first day. We have 
gone through a complete review, for example, of all of our 
installations. Even in advance of execution, I think we were 
able to reduce our military construction bill by about $300 
million just last year because we identified facilities that in 
a transformed European theater would no longer be useful.
    So we have actually started. We are collapsing 
headquarters. We are eliminating the duplications that we have 
in theater. We are spending a lot of time thinking about where 
the forces of the future might be best used. So EUCOM right now 
is, for example, working on a post-transformation phase to try 
to determine what might be the request that we would come in to 
the Department of Defense and to the Joint Chiefs on to augment 
the permanent based forces that we have left with rotational 
forces in some of the emerging areas in Africa that will be 
increasingly more important and much further to the east, where 
in the Caspian, for example, we have interests that will be 
emerging and will be part of our theater.
    We will need strategically agile forces to be able to do 
that. The value of transformation is that where they come from 
does not matter as much any more. You do not have to have the 
mountain of logistics. What we are trying to do is use the 
``tooth'' portion of our forces in a more agile and usable way. 
So I think this transformation will do that.
    Allies have been consulted with openly, consistently, both 
in the theater and from Washington.
    Senator Sessions. You have personally done that?
    General Jones. Personally.
    Senator Sessions. Personally met with them?
    General Jones. Personally.
    Senator Sessions. Regularly?
    General Jones. Regularly.
    In my NATO assignment the word ``transformation'' is also 
being used, and most of our allies are keying on our 
experiences in transformation to shape their force as well. 
There is not any country that I know of in the 26-member 
alliance of NATO that is not watching what the U.S. Armed 
Forces are doing closely.
    One of the things that we have to guard against, of course, 
is that it is not misinterpreted, that it is not interpreted as 
a withdrawal from a very important area, 91 countries; that it 
is not an indication that we are less interested or that we are 
not going to support NATO as we have in the past. Those things 
are being dealt with every day.
    But for the people who understand the future military 
transformation, both in the United States and in Europe, this 
is work that has to be done. In Germany, at the national 
leadership level there is support for this because, as you 
pointed out, they are doing exactly the same thing. In their 
own way, across the entire North Atlantic Treaty Organization 
countries are doing the same type of thing.
    So at the end of the day, if we do this right and we 
develop the NATO Response Force and we get a U.S. basing 
paradigm that is firmly anchored in the European and African 
theater, but that is also able to be more usefully deployed 
because where the forces come from will not matter nearly as 
much, we are going to be able to do some very exciting things 
in the future.
    But I think the point that I am particularly excited about 
is the fact that it is not just the U.S. transformation, that 
there are parallel transformations in the 25 other countries 
and also partner nations who are keying on this, the new 
agility as well, and understanding that the paradigms of the 
20th century no longer apply.
    Senator Sessions. I think you are the right person to help 
make that happen and I salute you for it. I know how carefully 
you work at it.
    General LaPorte, I have been to Korea twice and I know how 
bad some of the conditions are there. If you bring those troops 
back below the DMZ further, build new facilities, and 
reconfigure them for more effective military responses, will we 
not end up with a better quality life for the soldiers that are 
going there?
    General LaPorte. Absolutely, Senator.
    Senator Sessions. My time is up, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Bayh, you may well be the wrap-up. Mr. Secretary, 
might I ask that you avail the opportunity for Senator Levin 
and I to speak to you a few minutes at the conclusion of this 
hearing?
    Secretary Rumsfeld. Yes, sir. There are a couple of things 
I would like to say at the end. Thank you.
    Chairman Warner. We will be glad to receive them.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    Let me first, gentlemen, say I admire your fortitude. It 
has been a long hearing. Mr. Chairman, I hope this is a case of 
saving the best for last. Maybe it is just the last for last. 
But in any event, I do appreciate your time today and your 
service to our country.
    I apologize for having had to step out. We had some 
important business before the Intelligence Committee. So if my 
line of inquiry is redundant, I regret that.
    But I would like to follow up on something that Senator 
McCain raised in his questioning and Senator Nelson touched 
upon just briefly, and that is the subject of both Iran and 
North Korea. As you are well aware, there are ominous signs 
from both. The Iranians seem to be hell-bent upon acquiring a 
nuclear capability. They may play rope-a-dope with the global 
community for a while, but it seems pretty clear they are 
intent upon going forward.
    North Korea, as has been mentioned, appears to be in the 
process of scheduling tests for missiles capable of carrying a 
nuclear warhead and as best as we can assess is already a 
nuclear power.
    There do not appear to be any good options. Both apparently 
seek nuclear weapons for strategic reasons that are unlikely to 
be altered by either incentives to do the right thing or 
disincentives to do the wrong thing or diplomacy. So I would 
like to start my questions first, Mr. Secretary, to you. What 
is your opinion about the consequences to the United States' 
security of an Iran possessing a nuclear capability and/or a 
Korea possessing the capability of delivering a nuclear device 
to the continental United States, which does not exist today 
but may very well in the years to come?
    Secretary Rumsfeld. Senator, those are two problems, 
needless to say, that people in Congress and the executive 
branch worry through on a regular basis. It is increasingly a 
more dangerous world. As we have gone through the past several 
decades, 2 decades, 3 since I was Secretary of Defense the last 
time, we have seen any number of countries become nuclear 
powers.
    The effect of that is that it is a more dangerous world. It 
also highlights something terribly important and that is that 
no country, no country, including the United States, has the 
ability to deal with this terrible problem of proliferation of 
these increasingly lethal technologies. It takes cooperation 
among a lot of countries, and that is why the President 
proposed the Proliferation Security Initiative.
    But unless a lot of countries, important countries, come 
together and impose on those countries that are doing what 
North Korea is doing and doing what Iran is doing the kind of--
I do not want to use the word ``sanctions,'' but--persuasion, 
that they clearly see it in their interests not to do something 
like that----
    Senator Bayh. Forgive me for interrupting, Mr. Secretary. I 
did want to ask the uniformed officers a couple questions. But 
I take it that this would not be a good development for the 
United States' security interests, particularly since Iran we 
have identified as the foremost state sponsor of terrorism in 
the world and North Korea has an erratic regime, to say the 
least?
    Secretary Rumsfeld. True.
    Senator Bayh. Thank you.
    Gentlemen, as the Secretary indicated, you are in the 
business of planning and among the planning has to be planning 
for worst case scenarios. Since this is about our global 
posture and capabilities, if worst comes to worst--here is the 
question I would like to ask you. If we were to decide that it 
is unacceptable for our national security to have a North Korea 
capable of delivering a nuclear device to this country or for 
Iran to possess such weapons, and we had tried diplomacy, we 
had tried sanctions, we had tried incentives, et cetera, but 
none of those things had worked, if we concluded that this was 
unacceptable to us, do we have the means to do something about 
it?
    If we had to forcibly disarm North Korea, General LaPorte, 
are we currently capable of doing that? Do you have the forces 
necessary to accomplish such a thing, given our commitments in 
Iraq, Afghanistan, and elsewhere?
    General LaPorte. First of all, Senator, we are an alliance, 
a military alliance, in Korea. So the Republic of Korea and the 
United States stand shoulder to shoulder. The capabilities that 
have been developed in this alliance just over the past 2\1/2\ 
years that I have been in command are very significant, from 
our intelligence capabilities, command and control, to the 
platforms associated with it.
    These capabilities can be brought to bear in different 
scenarios. So it is a very, very capable force that we have.
    Secretary Rumsfeld. I think in an open hearing it is 
preferable just simply to say that the United States and 
through working with Congress has capabilities to protect and 
defend the interests of the United States of America.
    Senator Bayh. I am glad to hear that.
    I am concerned, Mr. Secretary, that these are substantial 
threats, and we are going to try a variety of other things. It 
never ceases to amaze me why some other countries do not see it 
as more in their interest and bring a greater sense of urgency 
to restraining these developments. But, taking a hard-eyed look 
at recent history, they just do not seem to be bringing the 
necessary urgency to the table, and we may be faced with the 
very difficult--I said there are no good options here.
    We may be faced with the very difficult decision of: Are we 
willing to accept a world in which those capabilities exist, 
and if we are not, do we have the ability to do something about 
it. I am delighted to hear your answer and in a different 
setting perhaps we can hear some of the details. But it is 
something that does concern me.
    General Myers, I was going to ask you the same about Iran, 
but I will not because you have been here a long time and there 
was one other question I wanted to ask, unless you just felt 
you needed to add something.
    General Myers. I feel compelled to at least add something 
to the debate. I do not disagree with your characterization of 
Iran and North Korea. We know they are poorly led and not 
taking care of their people right, and they are involved in all 
sorts of things, missile proliferation in the case of Korea and 
other things, counterfeiting and terrorism, in the case of 
Iran.
    But my contribution would be, those are very serious 
threats. As I would rank threats today, I would rank them below 
the extremist threat that we have been dealing with. I think 
that by far has to be dealt with.
    Senator Bayh. I agree, that is a greater--that is more 
immediate.
    General Myers. Perhaps long-lasting.
    Senator Bayh. But weapons of mass destruction, of course, 
is a threat, while maybe perhaps not as immediate, of a 
different magnitude, and the possible nexus between Iran and 
some of these groups is very well known.
    General Myers. Proliferation is a serious, serious issue.
    Senator Bayh. North Korea has been proven to be willing to 
sell about anything to anybody for hard money.
    General Myers. I do not disagree.
    Senator Bayh. I just have one last question. Mr. Secretary, 
this is for you again. I get asked by the press, from time to 
time and from some others about Vietnam and Iraq and is this 
another Vietnam, et cetera. I personally think it is not an apt 
analogy for a variety of reasons.
    But there is one aspect of it I wanted to get your answer 
to since I am asked about it so often, and that is the term 
``Vietnamization,'' which as you will recall back in that time 
our hope had been that we were going to upgrade the capability 
of the Vietnamese government through training their police 
forces, their military, their intelligence, so that we could 
gradually withdraw our own. Indeed, we did eventually withdraw, 
but they were not able to sustain themselves for very long.
    Why is the situation in Iraq going to be different?
    Secretary Rumsfeld. I agree with you that the Vietnam 
analogy is imperfect in a lot of ways. I guess you never know 
what the future will hold, but clearly any time any country 
occupies and frees a people from what was and points them in a 
direction to what might be, there is a question mark. There was 
a question mark on Japan, there was a question mark on Germany, 
there was a question mark on Italy, whether they were ready for 
democracy.
    Bosnia has been a question mark. People said they would be 
out by Christmas of that year, as I recall, and here it is 
what, 5, 10 years later. You cannot know with certain knowledge 
what will happen because your goal is not to make it happen. 
Your goal is to create an environment where the people of that 
country can make it happen. We cannot do it for them. We have 
to take the hand off the bicycle seat, and when you take your 
hand off the bicycle seat they might fall.
    I do not think they are going to. I think they have a good 
crack at it. They have money, they have oil, they have water, 
they have intelligent people, and they have lived in a rotten, 
vicious dictatorship for decades. I believe the natural state 
of man is to want to be free, and I think they are going to 
make it.
    But can we train up their security forces fast enough so 
that they can create an environment that they can have 
elections and that they can go forward and have the kind of 
prosperity that will make people want to bet on their future? I 
think we can. I think they can. But I know we cannot do it for 
them. We can only create an environment that they can do it.
    Senator Bayh. Thank you.
    Chairman Warner. Thank you, Senator.
    Mr. Secretary, we will give you such time as you desire, 
but I would like to comment that we have had a very long 
hearing. Twenty two of the 25 members of this committee have 
availed themselves of the opportunity to participate in this 
hearing. I think that you have been most responsive and I thank 
you and your witnesses, and I believe that the program, which 
was the primary consideration of this hearing will be 
wholeheartedly adopted by Congress which will support the 
President and yourself in this effort.
    So I thank you.
    Secretary Rumsfeld. Thank you very much, Mr. Chairman. I 
have three quick things.
    First of all, the global posture effort has been a 3-year 
effort to come up with these proposals, and Andy Hoehn, who is 
sitting back here next to Powell Moore, is the individual in 
the Office of the Secretary of Defense who has been 
masterminding it and has worked very closely with the combatant 
commanders and with the Joint Chiefs and the Joint Staff and 
has done a superb job.
    Second, I doubt if Admiral Fargo will be back before this 
committee. He is making plans for, I believe, November to go 
into private life. He is a superb naval officer. In fact, he is 
a superb military officer.
    Senator Levin. I have been trying to interpret that smile 
on his face all day long. [Laughter.]
    Secretary Rumsfeld. He has done for this country in his 
most recent assignment, when I have had the privilege to work 
with him, an absolutely superb job and we are all deeply 
grateful to him.
    Chairman Warner. May I associate myself with those remarks. 
I rather imagine our first contact you were an ensign or a 
lieutenant junior grade, would that be correct?
    Admiral Fargo. That is correct, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Levin. Thank you, Admiral.
    Chairman Warner. And your family, Admiral, very much.
    Admiral Fargo. It has been my pleasure to serve.
    Secretary Rumsfeld. Last, we came to talk about force 
posture and we end up talking about Iraq a lot and it bothers 
me in this sense. I think it is a mistake to look at Iraq and 
Afghanistan through a soda straw. They are part of something 
much bigger, much broader, and much more dangerous. The 
aggregation of extremists and people who are determined to 
reorder the world and attack the state system through 
terrorizing people--we call it a global war on terror, but in 
fact terror is simply the weapon of choice. It is a struggle in 
this globe between extremists and people who believe in freedom 
and want to live lives their own way and refuse to be 
terrorized.
    There is no way to make a separate peace and to the extent 
we do not understand that this is a test of wills, to the 
extent that we do not understand it is going to take a long 
time, to the extent that we do not understand that it is not 
going to be ugly and messy and that people are going to die, we 
are making a big mistake.
    It is a serious business and General Myers is exactly on 
the mark. What bothers me is when heads get chopped off I see 
people saying, ``oh my goodness, why did you not stop them from 
chopping off that head,'' instead of saying, ``when heads get 
chopped off, think of the people who are doing that, what kind 
of people are they?'' What does it say about the kind of world 
we would be living in if we followed the counsel of people who 
say toss it in, it is not worth the pain, it is not worth the 
losses, it is not worth the money?
    It is worth it. All you have to do is sit, imagine yourself 
with a Taliban rule in country after country, with soccer 
stadiums where they go out and have public executions. That is 
not the kind of world we want.
    Looking at it in pieces misunderstands it, it seems to me. 
So I hope that we will, to the extent we have hearings, that we 
have hearings on the big problem and we talk about the big 
problem and not think we are addressing it in a useful way if 
we deal only with little pieces.
    Chairman Warner. May I say that yesterday, thanks to your 
office, I had the opportunity--Senator Levin was unavailable--
to spend almost an hour with General Abizaid and he showed me a 
detailed briefing on precisely the subject that you mentioned. 
I indicated to him, and perhaps the Secretary can arrange for 
our committee to be briefed on that very point that he raised, 
and he has it graphically and statistically and factually 
supported in great detail, but nevertheless in a classified 
document.
    Secretary Rumsfeld. Happy to do it.
    Chairman Warner. We will do that. I recognize that we do 
our best here, but as you well know, I have served under seven 
chairmen in this committee and the freedom to ask questions has 
always been accorded to our membership.
    Secretary Rumsfeld. Absolutely.
    Chairman Warner. I recognize that had we done it in a more 
structured framework perhaps we could have conveyed from this 
hearing an equally stronger message. But I agree with you, but 
I would just close with my own observation, and that is as we 
witness these frantic, unbelievable atrocities, whether it is 
in Afghanistan or Iraq or the Chechens, what they went through, 
these same people are trying to come across our borders and 
inflict such harm in this country, and thank God we have men 
and women of the Armed Forces beyond our shores who are taking 
the risk and giving their lives and limbs, with the support of 
their families, to prevent that from happening.
    I thank you, Mr. Secretary. Again, I have known many 
secretaries, served under three. It is a lonely, though, and 
often thankless job. I commend you, sir. Thank you.
    Senator Levin. Could I have a word?
    Chairman Warner. He is going to come to the desk.
    Senator Levin. I know, but I just wanted to comment on his 
comment. It is obviously a heartfelt comment. I do not think 
anyone agrees with you in terms of your characterization of the 
people who carry out atrocities.
    Secretary Rumsfeld. You mean you do not think anyone 
disagrees?
    Senator Levin. Disagrees.
    Secretary Rumsfeld. I thought you said ``agrees.''
    Senator Levin. I hope I said ``disagrees.''
    Chairman Warner. It has been a long day and he has had a 
tough week.
    Senator Levin. I hope I said ``disagrees,'' but if not 
thank you.
    Chairman Warner. The record will reflect that.
    Senator Levin. I think in your comment, though, here 
something else comes through which is not healthy, and that is 
a suggestion that people who might have proposals for trying to 
change a negative dynamic which exists in Iraq somehow or other 
are playing into the hands of our enemies. The enemies are 
clear, and I hope you are not suggesting that.
    Secretary Rumsfeld. I am not.
    Senator Levin. I hope, General, you did not suggest that 
today, either.
    General Myers. By what, sir?
    Senator Levin. Suggesting that people that have other 
proposals for dealing with an enemy are not playing into the 
hands of the enemy.
    General Myers. No, no, sir.
    Senator Levin. What bothers me, Secretary Rumsfeld, is that 
when you say that throwing in the towel is not acceptable, that 
is not the only alternative.
    Secretary Rumsfeld. Of course not.
    Senator Levin. When you hold that up as being the 
alternative to continuing to do what we are doing, it seems to 
me you are looking through a straw, you are narrowing a vision. 
We have to look for options to try to change a dynamic which is 
not a good dynamic there. That does not mean cut and run and 
that does not mean that somehow or other people want to just 
throw in the towel.
    But there are ways hopefully of avoiding, if nothing else, 
throwing fuel onto that fire. There are ways of hopefully 
giving incentives, perhaps pressuring the people of Iraq into 
recognizing that what you describe is a horrendous, 
unacceptable future and that they have to want a nation as much 
as we do. They have to act to control the violent ones inside 
their midst. We cannot do it for them. We can help them, but we 
cannot take on this responsibility by ourselves.
    If they do not want, we will call it ``democracy,'' 
although it is more complicated than that, if they do not want 
democracy at least as much as we do, they are not going to get 
it. They have to want it as much. A lot of them are dying for 
it, by the way, and I do not want to in any way minimize the 
courage of those people in Iraq who are putting their lives on 
the line to try to create a nation. I do not want to minimize 
that.
    But it is going to take a massive effort on the part of 
Iraqi leaders in all of their groupings to put an end to the 
terrorists in their midst.
    Secretary Rumsfeld. Exactly right.
    Senator Levin. There may be ways that we can promote their 
doing so. By the way, there is something else here at play. We 
have to look for ways, we have to be open to ideas, to try to 
find paths to getting other Islamic countries to recognize that 
they have a stake in Iraq becoming a democratic nation. So far, 
in my judgment, because of the way we proceeded--and you are 
not going to agree with that part, but nonetheless--and so far 
we have not attracted Islamic countries to send in some troops 
and some police to help create a nation.
    It seems to me we all ought to be together on at least an 
effort to try to persuade, cajole, entice, and/or use carrots 
and sticks to get other nations to come in and take some risks 
to create that nation. We are taking risks there, big risks, 
and creating a nation there is a useful goal. I could not agree 
with you more. The people who commit these atrocities are as 
horrendous individuals as I have ever seen or ever heard of 
probably except for the even more massive murders when we think 
of Hitler and World War II. But nonetheless, I cannot think of 
anything much more despicable than what we see on Al-Jazeera.
    But I would just urge you not to suggest in your words when 
you hold out the horrors that are right there that alternatives 
to try to address this problem and to reduce this negative 
dynamic and to bring in much more forcefully Islamic nations 
into that effort to create a nation, and to try to bring the 
Iraqi people to take risks more than already have--and I 
emphasize because I know that there are a lot who are dying 
there to create a nation--more than already have, that when 
people suggest alternative courses or alternative emphasis that 
somehow or other they are playing into the hands of the enemy.
    That is the one thing I would hope that you would avoid.
    Secretary Rumsfeld. I did not even suggest that.
    Let me just say a couple of things. Number one, I agree 
completely that the Iraqis have to do this. Number two, we have 
worked from the beginning of this effort in the United Nations 
to get other Islamic countries to come into that. The Iraqis 
have resisted it. They did not want Turks in there helping and 
they have resisted other countries. They have their own 
reasons. It is a complicated part of the world. But we have 
been very much in the mode of trying to get Islamic countries 
to join that effort.
    I would say one other thing we have to do, and that is to 
get more people like Karzai and Allawi and Musharraf leading 
the moderate cause in the world against those extremists. Those 
men are all subject to death threats. They all have prices on 
their heads. They all have enormous courage. They all have 
tremendous leadership skills. They are beginning to form a 
pattern in that part of the world.
    Think of that. Think of the courage of Musharraf in his 
country to do what he is doing. Think of Karzai and think of 
Allawi. We have examples popping up in that part of the world 
where there were not examples of that type of leadership, and 
that is a pretty exciting thing.
    Chairman Warner. We thank you, Mr. Secretary, and we thank 
each of your colleagues and we wish you well. We are adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain

      CONSULTATION VICE COORDINATION WITH THE DEPARTMENT OF STATE

    1. Senator McCain. Secretary Rumsfeld, I am impressed with the 
number of consultations that the Department of Defense has had with the 
Department of State in 20 countries and the ambassadorial-level 
consultations that have been conducted in 30 countries on 5 continents. 
However, if the plan is based on cultivating long-lasting relationships 
with numerous countries, should not the Department of State be the 
leader in their development instead of the Department of Defense?
    Secretary Rumsfeld. Department of Defense expertise was central to 
the drafting of an effective and flexible plan for our global defense 
posture, and the Department of State was and remains a full player in 
the broader review process of our posture changes. Secretary Powell and 
senior officials from both departments have all been fully engaged in 
the comprehensive diplomatic consultations that have accompanied the 
public announcement of our posture changes. Both departments fulfill 
critical needs in talks with our allies and partners.

    2. Senator McCain. Secretary Rumsfeld, I am concerned about the 
level of coordination that you have had with the Department of State in 
the development of your Global Force Posture. How does the Global Force 
Posture fit within the context of the larger political and economic 
policies and foreign policies we are pursuing in both Europe and Asia?
    Secretary Rumsfeld. The Departments of Defense and State have 
maintained exceptionally close coordination during the global posture 
review process, regularly participating together in interagency 
discussions of the proposals and in consultations with allies and 
Congress on our plans. Without exception, consultations in foreign 
capitals and on Capitol Hill have included representatives from both 
departments. The Department of State's appreciation for how posture 
changes should fit into our broader policy goals in Europe, Asia, and 
other regions was critical to shaping and strengthening the plan as it 
was developed.

                  SAVINGS FROM GLOBAL FORCE STRUCTURE

    3. Senator McCain. Secretary Rumsfeld, your September 17, 2004 
Global Force Posture report states that it will make ``our alliances 
more affordable and sustainable.'' What savings are you expecting to 
achieve from reducing foreign basing by 35 percent?
    Secretary Rumsfeld. Eliminating excess infrastructure overseas will 
result in cost savings over time, as the United States will lower its 
overall overhead and maintenance costs as a result of fewer bases, 
facilities, and installations. Relying relatively more on a rotational 
presence of U.S. forces, instead of permanently stationed forces with 
their families and a bigger overall U.S. ``footprint'' in host nations, 
will help us to make our alliances sustainable by keeping them 
affordable.

                        CONGRESSIONAL OVERSIGHT

    4. Senator McCain. Secretary Rumsfeld, the changes you are 
proposing contain broad and far-reaching implications for our Nation, 
our allies, and our military. How will the committees with jurisdiction 
be able to oversee and affect the implementation of this 6 to 8 year 
realignment effort when you are asking us to bless the entire plan at 
its inception?
    Secretary Rumsfeld. Although our current plan provides a clear way 
forward for global posture changes, our posture will continue to evolve 
over time. As stated in our September report, Congress is a full 
partner in our process to strengthen our global posture, and will 
remain so.

                AVAILABLE STRATEGIC AIRLIFT AND SEALIFT

    5. Senator McCain. General Myers, your proposed Global Force 
Posture is based on the assumption that you can deploy forces rapidly 
from the Continental United States (CONUS) to anywhere in the world. Do 
you have the high speed sealift, at-sea connectors, and strategic 
airlift, today, that will allow us to deploy from CONUS faster than 
from our current forward-deployed locations?
    General Myers. Under the Global Force Posture, in most scenarios we 
can deploy forces rapidly from the CONUS. Using our existing and 
programmed strategic lift capabilities, we can move CONUS-based forces 
several days faster than we move forward-based forces today. This is 
because our strategic sealift assets are home-ported in CONUS close to 
our heavy maneuver forces. Conversely, heavy maneuver forces that are 
forward based today require sealift to transit from CONUS, pick up 
those forces at their forward location, and then transport them to area 
of operations--requiring more time than a direct movement from CONUS.
    With regard to high-speed sealift, the DOD has not yet fielded a 
high-speed sealift capability; however, the Navy and Army will field 
intra-theater high-speed vessels beginning fiscal year 2011. Further, 
the Navy currently has additional R&D funding in the POM for strategic 
highspeed sealift development and the Air Force continues its 
programmed acquisition of the C-17 airlifter. These programs are 
essential to our National Security Strategy force-planning construct 
and the Strategic Planning Guidance (SPG) 10-30-30 planning goal.

                           REDUCED ENGAGEMENT

    6. Senator McCain. General Myers, the Global Force Posture will 
replace forward presence with periodic exercises. How will we maintain 
our level of engagement with reduced familiarity and personal contact 
with our allies?
    General Myers. One of the goals of the global posture strategy is 
to promote the expansion of allied roles by encouraging new 
partnerships. A key ingredient to maintaining and increasing U.S. level 
of engagement lies in the combatant commander's ability to improve 
their existing theater unique Theater Security Cooperation (TSC) 
programs by cultivating new as well as standing relationships. The 
COCOM's ability to place U.S. forces in strategic locations, allows the 
U.S. to influence regional security ultimately preventing war.
    Global posture strategies will incorporate assured readiness 
through efficient global force management practices. In the recent 
past, the U.S. has been very successful in developing coalition 
relationships through rotational presence in exercises such as: 
Immediate Response, Cobra Gold, Ulchi-Focus Lens, and Bright Star 
exercises. Expanding on these bilateral and multilateral exercises, 
combatant commanders will continue to build upon the interoperability 
between U.S. and allied forces and help spur allied transformation 
initiatives. These exercises will also test our ability to project 
forces, exercise the defense transportation systems, and evaluate our 
en route infrastructure's ability to receive, stage, and integrate U.S. 
forces in various environments. There is no realistic simulation for 
this experience.
    Our new global posture strategy will not only increase coalition 
warfighting skills aimed at deterrence, it will also allow for U.S. 
forces to influence and access areas where we can better battle 
ideological terrorist underpinnings. In short, our new strategy implies 
realigning forces, not necessarily withdrawing them.

       PERCEPTION AND TIMING FOR U.S. TROOP REDUCTIONS IN EUROPE

    7. Senator McCain. General Jones, Operation Iraqi Freedom (OIF) has 
strained some of our relations with European allies. I am concerned 
about the timing for the implementation of the Global Force Posture. Is 
this the best time to start realigning our posture in Europe?
    General Jones. Yes, it is imperative that we begin to realign our 
force posture across our theater to more accurately reflect today's 
security environment. The fundamental objective of our plan is to 
increase United States European Command's strategic effect through a 
fundamental realignment of basing concepts, access, and force 
capabilities.
    In no way does our posture realignment signal a reduced commitment 
or interest in our theater. Moreover, our European allies understand 
the rationale for changing our footprint. We have communicated with our 
alliance partners on many levels the need to adopt new methods to 
better protect our collective interests in today's international 
security environment to include the realignment of our forces and bases 
in theater. We simply cannot afford to remain in a defensive posture 
that is no longer relevant. Transforming the theater will strengthen 
our commitment to the NATO alliance and serve as a model upon which our 
allies can base their own transformation. This mutually beneficial 
arrangement can increase the ability of the alliance and partner 
nations to respond to security challenges well into the century.
    The timing of our realignment is critical as well. In the Secretary 
of Defense's September 2004 Report to Congress; the ``Global defense 
posture changes will have direct implications for the forthcoming round 
of Base Realignment and Closure (BRAC).'' It is my belief that BRAC and 
global posture transformation are interdependent processes, and that 
this is an optimum time to begin implementation of our proposed plan. 
When completed, our realigned posture will improve our ability to meet 
our alliance commitments and global responsibilities.
    As we proceed, we will retain the flexibility to adjust the scope 
and breadth of our transformation as strategic circumstances dictate. 
We will work closely with Congress to ensure that you remain full 
partners in this important endeavor.

 PERCEPTION AND TIMING FOR U.S. TROOP REALIGNMENT IN THE U.S. PACIFIC 
                                COMMAND

    8. Senator McCain. Admiral Fargo, the Global Force Posture is a 
demonstrable shift of focus from Europe to the Pacific, which may well 
be warranted. What signal will the realignment of forces within your 
theater send to China and our allies in Asia?
    Admiral Fargo. Thank you, Senator, for the opportunity to comment 
on this extremely important matter.
    In Asia and the Pacific, vibrant economies, burgeoning populations, 
maturing democracies, and military modernization only serve to add 
momentum to regional transformation and increase the need for new 
security strategies.
    In response to this changing environment, Pacific Command undertook 
efforts, with the direction of the Secretary of Defense, to 
operationalize our national security strategy and strengthen both our 
global and theater defense posture.
    I believe that China, as well as our friends and allies in the Asia 
Pacific region, will interpret the realignment of our forces as a 
signal of our enduring commitment to peace and stability in the region. 
The realignment of our forces is intended to enhance our capability to 
respond to contingencies, to long-standing security commitments in the 
region, and to defeat terrorism and other transnational threats.
    We must continue to assure our friends and allies, and dissuade and 
deter potential adversaries. Overall, the realignment of forces should 
signal to our friends and others that the U.S. has long-term interests 
in the Asia-Pacific region and is adjusting our force structure to 
reflect those enduring interests.

  PERCEPTION AND TIMING FOR U.S. FORCES-KOREA TROOP REDUCTIONS IN ASIA

    9. Senator McCain. General LaPorte, for over 50 years U.S. forces 
have maintained a stalemate on the Demilitarized Zone (DMZ). What 
signal do you think we will be sending to Asia as a whole with the 
troop reductions you have planned?
    General LaPorte. The reduction of American troops from Korea should 
not be viewed as a lessening of our commitment to the Republic of Korea 
or Asia, in actuality the converse is true. The enhance, shape and 
align transformation plan of the United States Forces Korea (USFK) is 
congruent with the Defense Department's new Global Posture Review, 
which leverages our improved capabilities to increase our readiness and 
deterrence, while supporting an enduring United States military 
presence in the Republic of Korea and Northeast Asia. This message has 
been clearly explained to America's allies and friends in Asia, who 
have expressed their appreciation for our improved efforts at 
maintaining stability in the region while considering their unique 
situations.
    In Korea, our planned enhancements, realignments, and troop 
reductions are intended to strengthen our combined defense of the 
Republic of Korea while creating a less intrusive military footprint. 
No longer is the number of troops on the ground an appropriate metric 
for measuring U.S. combat capability and American commitment. The 
reduction of troops from the United States Forces Korea is 
representative of a combined transformation of capabilities. This 
transformation empowers Republic of Korea forces with missions and 
tasks that they are both willing and capable of performing, while 
simultaneously unencumbering U.S. forces to enable strategic 
flexibility for both within the Pacific region and globally.

    10. Senator McCain. General LaPorte, I understand that the Army is 
announcing this afternoon that the 3,700 person 2nd Brigade Combat Team 
of the 2nd Infantry Division will be temporarily relocated from Korea 
to Fort Carson, Colorado, upon their return from OIF in the fall of 
2005. How will this announcement be perceived by Seoul after their 
government has requested a 2-year delay in force reductions on the 
Peninsula?
    General LaPorte. Troop reduction consultations between the United 
States and the Republic of Korea have been ongoing since early June of 
this year. The deployment announcement of the 2nd Brigade Combat Team, 
like other troop reduction announcements that are forthcoming, 
represents the harmony of our ROK-U.S. joint consultation efforts.
    Specifically, on August 20, 2004, at the conclusion of the 11th 
meeting of the Future of the Republic of Korea-United States Alliance 
Policy Initiative (commonly called FOTA), Richard Lawless, Deputy Under 
Secretary of Defense for International Security Affairs for Asia and 
Pacific and his negotiating counterpart Dr. Ahn Kwang-Chan, Deputy 
Minister of Defense (MND) for Policy held a joint press session in 
Seoul, where, among other items, they announced the deployment of the 
2nd Brigade Combat Team (BCT) of the 2nd Infantry Division to Iraq. 
During this joint press session, Dr. Ahn indicated that the 2nd BCT 
would not be returning to Korea as its deployment was a portion of 
USFK's permanent troop reductions.
    On October 4, the ROK MND and U.S. DOD concluded USFK troop 
reduction consultations, publicly announcing on 6 October a 5-year 
reduction plan that includes a USFK reduction of 5,000 troops in 2004, 
3,000 troops in 2005, 2,000 troops in 2006, and 2,500 troops between 
2007 and 2008. The duration of this reduction plan is in harmony with 
the modernization plans of the ROK military, and has been well received 
by the ROK government.
                                 ______
                                 
              Question Submitted by Senator Susan Collins

                    MILITARY CAPABILITIES STANDARDS

    11. Senator Collins. Secretary Rumsfeld, in your testimony you 
state that ``sheer numbers of people are no longer appropriate measures 
of commitment or capabilities.'' One of the six principal strategic 
considerations in the Global Posture Review states that ``effective 
military capabilities, not numbers of personnel and platforms, are what 
create decisive military effects and will enable the United States to 
execute its security commitments globally.'' While I understand your 
point, Iraq demonstrates that numbers do matter. As I'm sure you will 
recall, General Eric Shinseki, then the Army Chief of Staff, warned 
prior to the war that it might take several hundred thousand troops to 
secure post-war Iraq. Had General Shinseki's advice been heeded, would 
we currently be dealing with the level of insurgency we see now?
    Secretary Rumsfeld. While numbers do matter, applying the correct 
capabilities to the problem remains the most appropriate response. I 
believe we have the appropriately-sized multi-national force, which in 
concert with expanding capabilities demonstrated by the growing Iraqi 
security forces, will continue to be the right force for executing the 
military component of an effective counterinsurgency.
    The current level of insurgency is a combination of several 
factors--fighters comprised from former regime elements, religious 
extremists, and others, each of whom also receives support from the 
criminal elements present in the country. These groups have exhibited 
the capability to organize and execute operations against coalition 
forces, Iraqi security forces, and most recently against Iraqi 
civilians. Some operations indicate a small level of cooperation among 
the various groups, although they are more likely due to convenience 
rather than shared ideological aims.
    Effective counterinsurgency, however, requires more than a military 
response. In fact, the military component should be a supporting arm to 
the more pressing lines of operation such as economic development, 
infrastructure enhancement, and the development and sustainment of good 
governance and a strong judicial system. General Casey and Ambassador 
Negroponte have correctly identified these elements--in support of the 
Iraqi Interim Government's aims--to continue to reduce the level of the 
insurgency by progress in creating jobs, supporting the electoral 
process, and improving the infrastructure while conducting security 
operations to eliminate the hard-line insurgents and retain control of 
key areas of the country.
    To achieve these aims requires us to continue to support the 
efforts of the Multi-National Forces-Iraq, our country team, and the 
efforts of our coalition partners to provide the overt backing to the 
Iraqi Interim Government and create irreversible positive momentum. The 
capabilities we provide--security forces, money, expertise, diplomatic 
initiatives, and others--provide a synergistic effect that is greater 
than the single factor of number of soldiers on the ground.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

                             IRAQI MILITIAS

    12. Senator Levin. Secretary Rumsfeld, at the Department of Defense 
briefing on April 12, 2004, General Sanchez, with General Abizaid at 
his side, said ``the mission of U.S. forces is to kill or capture 
Muqtada al-Sadr.'' Is killing or capturing Sadr still the mission? If 
not, when did it change and why?
    Secretary Rumsfeld. A number of things have happened regarding 
Muqtada al Sadr since Lieutenant General Sanchez made the statement to 
which you refer. The most important is that subsequent to the August 
2004 confrontation in Najaf between U.S. forces and militiamen loyal to 
al Sadr, al Sadr and his lieutenants have entered the Iraqi political 
process and have largely ceased their former violent activities. Al 
Sadr's connection to the murder of Grand Ayatollah Al Khoie and other 
crimes are in the jurisdiction of the Iraqi Interim Government.

    13. Senator Levin. Secretary Rumsfeld, what is your strategy for 
dealing with Sadr's Mahdi army and other militias?
    Secretary Rumsfeld. Our strategy is to attempt to disband all Iraqi 
militias and to bring the constituencies they represent in the Iraqi 
political process. Our preference is to do this through negotiation 
where possible. But if any militia engages in hostile action towards 
U.S. and coalition forces we are prepared to forcibly disarm them.

                               IRAQI VETO

    14. Senator Levin. Secretary Rumsfeld, is there an Iraqi veto on 
U.S. actions?
    Secretary Rumsfeld. No. U.S. and coalition forces that comprise the 
Multinational Force-Iraq (MNF-I) are in Iraq at the invitation of the 
Interim Iraqi Government, and operate under the provisions of United 
Nations Security Council Resolution (UNSCR) 1546. UNSCR 1546 provides a 
unified command authority for MNF-I, under which Iraqi forces serve as 
equal partners alongside forces from more than 30 nations. Although 
MNF-I commanders work in close consultation with the Interim Government 
through participation in organs such as the Ministerial Committee for 
National Security, Iraqi leaders do not have a veto over the actions of 
coalition forces in Iraq.

                              AFGHANISTAN

    15. Senator Levin. Secretary Rumsfeld, is the U.S. troop strength 
and funding sufficient to stabilize Afghanistan and allow elections to 
proceed, to reverse the drug trade, and to capture Osama bin Laden, and 
if so, why haven't we done any of these things?
    Secretary Rumsfeld. U.S. troop strength is sufficient to accomplish 
the U.S. strategic goals in Afghanistan. The U.S. has helped the Afghan 
government prepare a comprehensive presidential election security plan 
involving U.S., coalition, and Afghan security forces. U.S. efforts to 
counter the Afghan drug trade are underway: the U.S. approach is that 
counternarcotics in Afghanistan is a law-enforcement mission for which 
the military can play a supporting role. However, a successful 
counternarcotics program is a long-term enterprise, requiring a 
concerted effort in a number of areas over time. The U.S. supports the 
U.K. as the international lead for Afghan counternarcotics. Efforts to 
capture Osama Bin Laden continue.

                        MILITARY TACTICS IN IRAQ

    16. Senator Levin. General Myers, earlier this week, Iraqi 
terrorists beheaded yet another American citizen in Iraq. Upwards of 
250 Iraqis have been reported killed in the last few days in suicide 
attacks, car bombings, roadside ambushes, and kidnapings. Meanwhile, 
the U.S. has made airstrikes against Fallujah, which evidently have not 
caused the terrorists to stop their attacks, but have reportedly 
resulted in dozens more Iraqi civilian deaths. U.S. officials assert 
that most of the Iraqis being killed in airstrikes are terrorists--many 
Iraqis appear to believe otherwise. It seems to me that our military 
tactics are not working in Iraq--and in fact it seems as though these 
airstrikes, while they may kill a few bona-fide terrorists, also cause 
more Iraqis to hate the U.S., and result in more of them being drawn in 
to the fight against us. Don't you agree that such attacks may be 
counter-productive and may be producing more support for the 
insurgency, and perhaps creating more terrorists and insurgents than we 
are killing?
    General Myers. Recent airstrikes in Fallujah have all been against 
credible terrorist targets. In each, collateral damage was mitigated 
through precise planning based on confirmed intelligence and the use of 
precision-guided munitions. Analysis of potential collateral damage is 
part of pre-strike approval process and commanders consider planning 
aspects such as timing and type of munitions to minimize potential for 
civilian casualties. All means available are used to prevent collateral 
damage.
    Military operations are a viable and effective mechanism for 
dismantling the Zarqawi network. These strikes are surgical in nature. 
While it is possible that individuals located nearby may have been 
injured, it is Zarqawi and his fighters that place the people of 
Fallujah at risk by hiding among them. Information on civilian 
casualties should be carefully scrutinized for accuracy. Some stories 
of civilian casualties are prefabricated and part of a Zarqawi 
propaganda campaign. Intelligence from previous strikes have concluded 
the following techniques are used by Zarqawi associates to misrepresent 
events:

        <bullet> Ambulances taking supposed civilian casualties to the 
        hospital several hours after the attack has occurred.
        <bullet> Blood displayed for effect and in a manner 
        inconsistent with the number of casualties described or known.
        <bullet> Using civilians as human shields to include capturing 
        civilians against their will when under attack.
        <bullet> In one recent strike (September 28), Fallujah hospital 
        officials reported casualties before a coalition strike 
        occurred. Although witnesses reported coalition forces had 
        fired rockets into the city, coalition forces only fired 
        illumination rounds.
        <bullet> In an October 8 strike on a Zarqawi safe house, 
        hospital officials reported mass casualties from a coalition 
        strike, including claims that a wedding party was being held at 
        the location. However, prior to the operation, no activity 
        related to such a gathering was observed or noted by 
        intelligence collection. After the strike, no personnel related 
        to any rescue attempts for a wedding party was observed or 
        noted.

    These precision air strikes have not only been effective in 
dismantling the Zarqawi network, these airstrikes and other MNF-I 
operations have disrupted the Zarqawi network, thus limiting Zarqawi's 
tactics of intimidation, death, and destruction in Fallujah. Regarding 
public support, the overwhelming majority of Fallujah's citizens have 
been repulsed by the atrocities that Zarqawi and other extremists have 
made commonplace in Iraq. The foreign militants are thought to produce 
the car bombs that now explode around Iraq several times a day, and 
Zarqawi's organization has asserted responsibility for the slaying of 
several Westerners, some of which were shown in videos posted on the 
internet. In his most heinous crime, Zarqawi claimed credit for the 
September 30 car bombing of more than 34 children at a ribbon-cutting 
ceremony in Baghdad for a sewage treatment facility. Recent 
negotiations in Fallujah between the Iraqi Interim Government and local 
leaders indicate the desire for stability and security in Fallujah. The 
citizens of Fallujah are tired of terrorism and the pain Zarqawi has 
inflicted on the city.

                             WAR ON TERROR

    17. Senator Levin. Secretary Rumsfeld, in your global war on 
terrorism memo of October 16, 2003, that was leaked to the press, you 
asked ``Are we capturing, killing, or deterring and dissuading more 
terrorists every day than the madrassas and the radical clerics are 
recruiting, training, and deploying against us?'' Given the level of 
violence and the number of attacks against coalition forces and 
ordinary Iraqis today, how would you answer your own question?
    Secretary Rumsfeld. We and our Iraqi allies are winning. Coalition 
and Iraqi forces are seeking out the enemy and taking the fight to 
them. We are also working to mitigate the effects of those enemy 
attacks that our offensive operations do not stop. A new Iraq is taking 
shape and it offers the Iraqi people a more hopeful future than they 
have known in the past 35 years; the Iraqi people want to move forward 
into that hopeful future, not return to their terrifying past. The 
majority of Iraqis support the new Iraq and recruiting for the Iraqi 
security forces remains strong. I think many potential or past 
insurgents have been deterred or dissuaded and we see evidence that the 
enemy's recruiting within Iraq has become much more difficult.

                      INTERNATIONAL TROOPS IN IRAQ

    18. Senator Levin. General Myers, high level military officers have 
told me that national governments are placing severe restrictions on 
the international troops deployed to Iraq. What is the nature of these 
restrictions?
    General Myers. Several countries have imposed restrictions on the 
types of tasks their forces in Iraq can perform. In many cases, 
limitations were required in order to get parliamentary/legislative 
approval for the commitment of forces. In other cases, there are legal 
limits on the types of tasks a particular nation can perform. Most of 
the restrictions center on the ability to conduct offensively oriented 
missions such as raids, ambushes, and attacks outside of assigned 
operating areas.

    19. Senator Levin. General Myers, do restrictions placed on 
international troops in Iraq limit their usefulness?
    General Myers. Requirements to gain national level authority for 
cordon and search missions, raids and counterterror operations have 
limited force effectiveness and complicated command and control. Simply 
put, the operational constraints placed on some forces make it 
difficult to deal effectively with the security challenges we face. 

    20. Senator Levin. General Myers, have you made any effort with 
your coalition counterparts to remove these restrictions?
    General Myers. In April 2004, I sent personal letters to 23 of my 
multinational force counterparts asking each of them to review the 
rules of engagement they were operating under. In particular, I asked 
them to approve the use of force (including deadly force) to prevent 
interference with the mission to establish a safe and secure 
environment in Iraq as well as the use of force against military and/or 
para-military forces declared hostile by the multinational forces in 
Iraq. I also asked that the ability to conduct these operations not be 
contingent on prior approval from national authorities. While some 
countries modified their rules of engagement, most responded that they 
were unable to for political or legal reasons. 

                             IRAQ ELECTIONS

    21. Senator Levin. Secretary Rumsfeld, do you agree with U.N. 
Secretary-General Annan's statement that under the current security 
conditions in Iraq it is difficult to conduct credible elections?
    Secretary Rumsfeld. I agree that it will be difficult logistically 
to conduct elections in an environment in which Baathist and al Qaeda 
terrorists are willing to commit horrifying atrocities in order to 
prevent Iraqis from expressing freedom on political expression and 
selecting a representative government. But we do not have to look any 
further than the terrorists' own words to see that they feel any 
election in Iraq would be credible. In the letter written by Abu Musab 
al-Zarqawi to his al Qaeda associates in Afghanistan, which we captured 
January 2004, Zarqawi wrote that democracy would be suffocating to his 
murderous campaign in Iraq. The terrorists fear that Iraqis will regain 
a sense of ownership of their country after years of Saddam's tyranny, 
and will be more willing to fight back. Thus, it is quite likely that 
we will actually see a surge in attacks as the terrorists attempt to 
derail the electoral process in Iraq.
    But just because something is difficult does not mean it is not 
worth doing. On the contrary, I believe that the terrorist campaign of 
violence and intimidation is a sign of how strategically significant 
holding elections will be, and why we are on the right track in Iraq.

                      STRATEGIC LIFT REQUIREMENTS

    22. Senator Levin. General Myers, what impact does the proposed 
global force structure have on our strategic lift requirements?
    General Myers. We are currently in the middle of a mobility 
capabilities study that will help us determine the mobility 
capabilities that we need to support the defense strategy. This study 
is designed to look at the entire defense transportation system from 
the point-of-origin to the foxhole and to help determine not only our 
strategic lift needs but also what we need to support the forces within 
the theater. The study is projected to report out in March 2005.

    23. Senator Levin. General Myers, how many additional, or how many 
less, airlift aircraft and sealift ships will be necessary to support 
the proposed global force structure?
    General Myers. We are currently in the middle of a mobility 
capabilities study that will help us determine the mobility 
capabilities that we need to support the defense strategy. This study, 
which is focused on 2012, is due to report out in March 2005. It will 
address the impacts of the Global Force Posture and will help us 
determine what we need to transport our forces.

           BUDGET CONTROL OVER CERTAIN INTELLIGENCE AGENCIES

    24. Senator Levin. Secretary Rumsfeld, the Senate Committee on 
Governmental Affairs recently completed marking up a bill on reforming 
the Intelligence Community. The bill would make a number of reforms, 
including creating a new ``National Intelligence Program'', and adding 
substantial authority to the position of National Intelligence Director 
to control funds and personnel (civilian and military) within that 
program. Included in the National Intelligence Program would be all of 
the funding for the National Security Agency, the National Geospatial-
Intelligence Agency, and the National Reconnaissance Office. Do you 
believe that a new National Intelligence Director should have budget 
control of all funding of these agencies?
    Secretary Rumsfeld. Since the August 17 hearing, the President has 
issued Executive Order 13355, ``Strengthened Management of the 
Intelligence Community,'' which expands the authority of the Director 
of Central Intelligence over reprogramming of intelligence funds. On 
September 8, the White House announced that the President supports 
providing this expanded authority to a newly created National 
Intelligence Director.

                       IMPACT ON DEPLOYMENT TIMES

    25. Senator Levin. General Myers, one of the key questions with 
respect to these proposals is how they impact our ability to support 
operations in the U.S. Central Command (CENTCOM) region where the 
chances of instability leading to the use of the military are the 
highest. Please provide, in both classified and unclassified form, the 
Department's analysis of this issue, including how long it took to 
deploy our forces, people, and equipment, from Germany to the CENTCOM 
region for Operation Iraqi Freedom, along with your analysis of how 
long it would take to deploy those same forces from the United States 
in a comparable scenario.
    General Myers. [Deleted.]

                RELIEF FOR NEAR-TERM STRESS ON THE FORCE

    26. Senator Levin. General Myers, today our entire active Army, and 
a significant portion of the National Guard and Reserve, is tied up 
with our deployments to Iraq and Afghanistan. Does this plan do 
anything to improve our ability to support these current force levels 
if we are forced to do so for years to come?
    General Myers. The Integrated Global Presence and Basing Strategy 
(IGPBS) are not designed to increase force levels. However, it will 
facilitate more effective use of the force to respond rapidly globally.
    As we restation the force to meet expeditionary demands, we will 
facilitate more time in the United States for families and fewer moves 
for our service members. Over the next decade IGPBS will result in the 
closure of hundreds of U.S. facilities overseas. This will in turn 
bring home up to 70,000 uniformed personnel and nearly 100,000 family 
members and civilian employees. Service members will have more time on 
the home front and fewer moves over a career. Military spouses will 
experience fewer job changes and have greater stability for their 
families.
    There are several other initiatives underway within the Department 
of Defense to relieve stress on the force, and thereby improve our 
ability to support operational demands, by making more of the current 
force available for deployments and high demand activities. These 
include, but are not limited to, military-to-civilian conversions, 
rebalancing of the Reserve components, and Army modularity.
    The Department is converting 20,070 military positions to civilian 
or contractor positions in fiscal years 2004 and 2005. These 
conversions occur in positions where the work is not deemed inherently 
military in nature. This makes more military personnel available to the 
Service Chiefs for more critical military tasks. The Department is 
studying the feasibility of expanding this initiative in fiscal year 
2006 and beyond.
    Rebalancing of the force is an ongoing activity within the 
Department. We are currently assessing our force structure and 
rebalancing within the Reserve components and between the active and 
Reserve components. The purpose is to move forces from low demand to 
high demand specialties thereby improving readiness and deployability. 
From fiscal year 2003 to 2009, approximately 58,000 positions will be 
rebalanced in this manner. These rebalancing efforts will shift forces 
to critical specialties such as civil affairs, psychological 
operations, military police, Special Forces, and Intelligence while 
divesting Cold War structure to enable the global war on terrorism 
capability.
    The Army is shifting from a division-based force to a modular 
combat brigade centric construct. In doing so, the Army will increase 
its operational capability from its current 33 brigade force to a 43 
brigade force with the flexibility to add additional brigades if 
required. This effort began in fiscal year 2004 and is scheduled for 
completion in fiscal year 2010. By adding 10 (or more) additional 
active brigades, the Army will increase the rotation base of units 
available for deployment and further reduce the burden on active and 
Reserve soldiers.
    Military-to-civilian conversions, rebalancing of the force, Army 
modularity, IGPBS, all combined, have a significant positive impact on 
the force. They greatly increase warfighting capabilities where gaps 
currently exist, and increase the rotational base of units available 
for deployment. The net result is a reduction in the OPTEMPO on active 
and Reserve component soldiers, more time in the United States for 
families, and fewer moves for servicemembers.

              COST OF THE PROPOSALS TO REALIGN OUR FORCES

    27. Senator Levin. Secretary Rumsfeld, please provide your analysis 
of the likely cost of these proposals to realign our forces over the 
next 5 years, to include a description of the elements that will affect 
costs and savings such as relocation costs, military construction costs 
here in the U.S., the impact on military pay and benefits such as 
permanent change of station and family separation payments, the impact 
on prepositioning and logistic operations, and the impact on our 
mobility requirements.
    Secretary Rumsfeld. The changes to global posture under 
consideration are focused on positioning U.S. forces to better meet 
21st century challenges--and particularly to conduct the global war on 
terrorism--while helping to ease the burden of the post-September 11 
operational tempo on our Armed Forces. The new posture will base and 
deploy U.S. forces and prepositioned stocks to enhance global 
responsiveness.
    Cost estimates are continually being refined as implementation 
plans develop. The range of current estimates is $9 billion to $12 
billion in net costs for all projected posture changes through fiscal 
year 2011.
    Many of the force realignments under consideration fall within the 
scope of the BRAC process. The estimate for such ``BRAC-related'' moves 
is $5 billion to $6 billion in net costs. This estimate includes 
relocation and construction costs in the United States, changes to 
military housing allowances, as well as savings from closing overseas 
facilities. As precise locations are identified--and plans mature--more 
detailed cost assessments will be prepared.

          IMPACT ON TROOP ROTATION PLANS AND FAMILY SEPARATION

    28. Senator Levin. General Myers, please provide the Department's 
analysis of the impact of these proposals on troop rotation plans and 
of the extent to which it will increase or decrease family separation.
    General Myers. One of the key aspects of the DOD force deployment 
goal for global sourcing, to include Operations Iraqi Freedom and 
Enduring Freedom, is the dwell time concept. Dwell time ensures the 
members of the military deployed to any contingency operation spend an 
equal amount of time at home station as they do while deployed. The 
goal for dwell time is, at a minimum, a 1:1 ratio (e.g., one day at 
home station for each day deployed). Whenever possible, forces are 
chosen to deploy based upon longest home station dwell time. This goal 
is a result of DOD analysis of recent troop rotations. 

                      INTELLIGENCE REORGANIZATION

    29. Senator Levin. Secretary Rumsfeld, I have a number of concerns 
about the intelligence reorganization bill being marked up in the 
Senate Committee on Governmental Affairs this week. Please provide your 
views on this bill.
    Secretary Rumsfeld. I support the position put forward by the 
President.

           KOREA--REDUCTIONS WITHOUT NORTH KOREAN CONCESSIONS

    30. Senator Levin. Secretary Rumsfeld, why are we proceeding with 
withdrawing troops from the DMZ and reducing the total number of U.S. 
forces in South Korea without seeking some sort of concession from 
North Korea, including, for example, a withdrawal of North Korean 
troops from their side of the DMZ?
    Secretary Rumsfeld. Our realignment of troops in Korea is long 
overdue. For more than a decade, ROK forces have had the overwhelmingly 
predominant role of securing the DMZ, while we have maintained only a 
small force actually on the DMZ in the vicinity of Panmunjom. The 
mission of that small security force is now being transferred to the 
ROK. 
    The realignment of the U.S. Second Infantry Division into areas 
further south not only recognizes the ROK's predominant role in their 
defense, but also allows us to consolidate our forces and leverage 
their increasing capabilities.
    These increasing capabilities, of both the ROK and U.S. forces, is 
what allows us to confidently redeploy a portion of the U.S. troop 
presence with no decrease in the deterrent and defense posture of our 
combined force. Indeed, when the realignment and our capability 
enhancements are fully examined, there is a net increase in our overall 
deterrent and defensive capabilities.
    The leadership in North Korea understands this.

                  STATIONING FORCES IN CENTCOM REGION

    31. Senator Levin. Secretary Rumsfeld, is it your intention at this 
time to permanently station combat forces in the CENTCOM area of 
responsibility?
    Secretary Rumsfeld. Our intention is to provide presence without 
permanence in the CENTCOM AOR. We will have a robust network of 
headquarters to oversee a rotational presence of our rapidly deployable 
forces so that we can continue to assure our allies and deter 
aggression in this critical region. We will rely increasingly on 
forward operating sites and host-nation cooperative security locations 
to enable us to have rapid access into various parts of the region 
without impinging on local sensitivities via a large military 
footprint.

          LEGAL AND POLITICAL RESTRICTIONS IN BASING COUNTRIES

    32. Senator Levin. Secretary Rumsfeld, your testimony states that 
an absence of legal and political restrictions is a factor on where we 
want to station our troops. It is easy for nations to indicate up front 
that they intend to be agreeable to letting us stage from their 
countries to conduct military operations. But when a specific 
contingency arises in the future, aren't you going to have to go back 
to those host countries and get specific approval for that specific 
operation?
    Secretary Rumsfeld. It is vital to have comprehensive legal and 
logistical arrangements in place, prior to a contingency arising, with 
a broad range of friends and allies so that we have maximum flexibility 
to pursue operations globally--so that the absence of support from a 
single ally does not hinder our ability to prosecute a contingency 
operation.

    33. Senator Levin. Secretary Rumsfeld, is this plan optimized for 
small-scale operations?
    Secretary Rumsfeld. This plan provides us the flexibility to 
prosecute the full range of military operations globally.

    34. Senator Levin. Secretary Rumsfeld, your testimony describes the 
need to transform our forces to meet asymmetric challenges and states a 
desire to shift from having our forces arranged to fight large armies, 
navies, or air forces to one that can respond to small enemy cells. Is 
this plan built around the assumption that we need to shift the focus 
of our military to increase its ability to conduct smaller scale 
operations against terrorists or guerilla movements, and that we can 
and should de-emphasize our capability to conduct larger scale military 
operations against nation-states?
    Secretary Rumsfeld. This plan is built around the assumption that 
we must continue to transform our military capabilities to be able to 
meet the full range of challenges that may confront us, both large 
scale and small scale, and both traditional and non-traditional. Our 
overseas posture will emphasize rapidly deployable early-entry 
capabilities in forward locations, with heavier follow-on forces 
concentrated in the United States, from where they will have global 
reach.

                U.S. ABILITY TO HANDLE ANOTHER CONFLICT

    35. Senator Levin. Secretary Rumsfeld, the war in Iraq and the 
continuing, unresolved conflict in Afghanistan are putting enormous 
stress on the U.S. military, especially the Army. Prior to these wars, 
our military strategy was based on being able to counter an unforeseen 
conflict, such as one started by North Korea. How would the U.S. 
respond to such an unforeseen conflict and where would we get the extra 
troops to support such a third war?
    Secretary Rumsfeld. Our current defense strategy calls for the 
ability to conduct two nearly simultaneous overlapping campaigns to 
swiftly defeat aggression and deny an adversary's strategic objectives. 
If the Armed Forces were required to do this while still engaged in 
operations in Iraq and Afghanistan, current forces in place would 
remain and we would globally source capabilities to the second conflict 
as appropriate. In your example, we are already in the process of 
realigning our forces on the Korean Peninsula to better posture 
ourselves to support the Republic of Korea in the event of North Korean 
aggression. The capabilities we would employ would depend on the nature 
of the North Korean aggression and the needs of the Republic of Korea, 
consistent with our treaty obligations.

    36. Senator Levin. Secretary Rumsfeld, how would we make more 
troops available in time without sacrificing our current efforts in 
Iraq and Afghanistan?
    Secretary Rumsfeld. The Department of Defense has several strategic 
initiatives underway that will address this issue. First, the 
Department is in the process of transitioning the force management 
process from a regional to a global system. Global Force Management 
(GFM) will ensure the Secretary of Defense is presented allocation 
recommendations to support combatant commander requirements in terms of 
force availability and associated risk. GFM will also prioritize 
combatant commander requirements to ensure ongoing operations are 
sourced to the required levels while offering mitigation options to 
counter assumed risk. In short, GFM will ensure OIF and OEF are sourced 
to the level required by the combatant commander.
    Second, the Department is instituting myriad OIF/OEF lessons 
learned initiatives to reduce stress on the force. This includes 
military-to-civilian conversion, active component/Reserve component 
(AC/RC) realignment, force structure adjustments, and transformation 
initiatives in the U.S. Army that will increase the number of combat 
brigades from 33 to 43. These initiatives--once implemented--will 
combine to reduce stress on the force to ensure current operations can 
be sustained without adversely affecting long-term readiness.
    Finally, DOD is in the process of assessing U.S. military presence 
and missions around the world. The Integrated Global Presence and 
Basing Strategy will realign the global posture to address the current 
geo-strategic environment. The end result will be the rebasing of 
approximately 60,000 U.S. servicemembers from overseas to the 
continental United States. This realignment will ensure more of the 
force is trained and ready to support rotational requirements--to 
include OIF and OEF.

    37. Senator Levin. Secretary Rumsfeld, given current end-strength, 
how long do you believe the Marine Corps and Army can sustain current 
rotation schedules in Iraq before both Services are severely damaged?
    Secretary Rumsfeld. The DOD force deployment goals for Operations 
Iraqi Freedom and Enduring Freedom were developed to ensure the U.S. 
Army and U.S. Marine Corps can maintain the current rotation schedules. 
Additionally, the Joint Staff and U.S. Central Command continue to plan 
for future deployments in order to make certain the Services can 
provide anticipated force levels without degradation to recruitment, 
training, and readiness. This planning is conducted collaboratively 
with the Services.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

             LOCATIONS OF NUCLEAR-POWERED AIRCRAFT CARRIERS

    38. Senator Bill Nelson. Admiral Fargo, in your discussions with 
the Japanese government regarding the Global Posture Review, did you 
raise the issue of the permanent stationing of a nuclear-powered 
aircraft carrier in Japan and has a firm decision been made yet? If 
not, what is the status of negotiations or discussions with the 
Japanese government or military regarding this issue?
    Admiral Fargo. Thank you, Senator, for your interest in this 
sensitive issue. Replacement of the Kitty Hawk (CV-63) has been a 
separate item outside of our posture review discussions with the 
government of Japan (GOJ). The final decision on Kitty Hawk's 
replacement has not been made but we hope to replace her with one of 
our most advanced, most capable carriers. Such a replacement would 
maximize the ability to meet future security concerns, communicate a 
strong deterrent to would-be aggressors, and demonstrate our indelible 
commitment to the alliance and the defense of Japan. As with other 
force posture decisions, a change would be managed in full consultation 
with the GOJ.

    39. Senator Bill Nelson. Secretary Rumsfeld, since arriving in the 
U.S. Senate, I have consistently argued that the Nation needed to 
reduce its strategic risk in the stationing of aircraft carriers on the 
Atlantic coast by committing to no fewer than two bases capable of 
home-porting nuclear aircraft carriers. The Navy has resisted 
congressional pressure on this issue as far back as the 1980s, while at 
the same time it established a second Pacific coast nuclear carrier 
base in San Diego, California. I find this an interesting contrast in 
strategic purpose and programs between the two coasts and over the 
security of the carrier fleet. From a strategic perspective, why would 
we need two nuclear carrier bases on the Pacific coast and not on the 
Atlantic?
    Secretary Rumsfeld. The Navy currently has two east coast carrier 
home ports to meet U.S. strategic objectives, one conventional and one 
nuclear capable with the future retirement of U.S. conventional 
carriers, the DOD is evaluating and considering the potential of having 
two east coast nuclear capable carrier home ports.

    40. Senator Bill Nelson. Secretary Rumsfeld, on March 2, 2004, in a 
question for the record, I asked Secretary England if the Navy had 
performed any analysis of the current strategic conditions, force 
protection, and risk relative to the establishment of a second base on 
the Atlantic coast for nuclear-powered aircraft carriers. In his 
response he stated this was underway as part of the U.S. military's 
Global Posture Review. Has this review identified a requirement for 
strategic dispersion of the east coast nuclear aircraft carrier fleet?
    Secretary Rumsfeld. There are proposed moves in the Global Defense 
Posture Report to Congress that address moving the relocation of 
aircraft carriers and carrier assets. However, the dispersion of 
aircraft carriers within CONUS was not a subject of the report. Any 
relocation determination of CONUS carriers will be dependent on 
recommendations from the upcoming BRAC process.

                       U.S. RELATIONS WITH SYRIA

    41. Senator Bill Nelson. Secretary Rumsfeld, the Washington Post 
reported on Monday, September 20 that a U.S. delegation, led by William 
Burns, Assistant Secretary of State for Near Eastern Affairs, met with 
Syrian officials to discuss efforts to stabilize Syria's 450-mile 
border with Iraq. I returned from the region in January 2004, and 
Secretary Powell and Ambassadors in the region all impressed upon me 
that this issue--Arab fighters flooding Iraq across the Syrian border--
should be our paramount security concern. What military engagement is 
possible with Syria on the border issue?
    Secretary Rumsfeld. An interagency U.S. delegation headed by State 
Department Assistant Secretary for Near East Affairs William Burns and 
Assistant Secretary of Defense Peter Rodman met in Damascus with Syrian 
leaders on September 11. The purpose of the visit was to convey a blunt 
message to President Asad regarding Syrian behavior in Iraq. We told 
President Asad that U.S.-Syrian relations would face further 
deterioration should Syria continue to undermine stability in Iraq. If 
Syria wanted to avoid a crisis in our relations, Syria would have to 
prevent the movement of jihadis and insurgents to and from Syria, and 
clamp down on insurgents organizing in and operating out of Syria. 
President Asad assured us that it was his intention to do so, but said 
he required assistance. Our current military engagement with Syria on 
border security is really a test. We are working with the Syrians and 
the Iraqis to establish patrolling mechanisms and intelligence sharing 
on border-related issues. Of course, border security is just a symptom 
of the larger problem: that former Iraqi regime elements have been 
operating without constraint from Syria. We are watching Syrian actions 
closely, and will continue to do so in the coming weeks, to ensure that 
the effort is sustained.

    42. Senator Bill Nelson. Secretary Rumsfeld, what in your view are 
the prospects for cooperation given Syria's behavior in the past?
    Secretary Rumsfeld. Syria remains an authoritarian government that 
administers a robust clandestine WMD program, and is a state sponsor of 
terrorism and occupies its neighbor, Lebanon. For the past 1\1/2\ 
years, elements within key institutions in Syria have been making great 
efforts to undermine the stability of Iraq. Syrian cooperation with 
Iraq and the U.S. would be a welcome change in Syrian policy.

    [Whereupon, at 6:17 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
